<html>
<title> - OVERSIGHT OF THE CONSUMER PRODUCT SAFETY COMMISSION</title>
<body><pre>[Senate Hearing 114-184]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 114-184

                           OVERSIGHT OF THE 
                   CONSUMER PRODUCT SAFETY COMMISSION

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON CONSUMER PROTECTION,
                       PRODUCT SAFETY, INSURANCE,
                           AND DATA SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 17, 2015

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              
                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-757 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-000
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                                 ------                                

  SUBCOMMITTEE ON CONSUMER PROTECTION, PRODUCT SAFETY, INSURANCE, AND 
                             DATA SECURITY

JERRY MORAN, Kansas, Chairman        RICHARD BLUMENTHAL, Connecticut, 
ROY BLUNT, Missouri                      Ranking
TED CRUZ, Texas                      CLAIRE McCASKILL, Missouri
DEB FISCHER, Nebraska                AMY KLOBUCHAR, Minnesota
DEAN HELLER, Nevada                  EDWARD MARKEY, Massachusetts
CORY GARDNER, Colorado               CORY BOOKER, New Jersey
STEVE DAINES, Montana                TOM UDALL, New Mexico



















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 17, 2015....................................     1
Statement of Senator Moran.......................................     1
Statement of Senator Blumenthal..................................     3
    Article dated April 30, 2015 from WSB-TV/Channel 2 Action 
      News--Atlanta, entitled ``CPSC no longer stands by safety 
      of artificial turf'' by Rachel Stockman....................    48
Statement of Senator Daines......................................    32
Statement of Senator Heller......................................    34
Statement of Senator Booker......................................    37
Statement of Senator Udall.......................................    39
Statement of Senator Markey......................................    41
Statement of Senator Klobuchar...................................    43
Statement of Senator Nelson......................................    45

                               Witnesses

Hon. Elliot F. Kaye, Chairman, U.S. Consumer Product Safety 
  Commission.....................................................     4
    Prepared statement...........................................     6
Hon. Robert S. Adler, Commissioner, U.S. Consumer Product Safety 
  Commission.....................................................     8
    Prepared statement...........................................     9
Hon. Ann Marie Buerkle, Commissioner, U.S. Consumer Product 
  Safety Commission..............................................    11
    Prepared statement...........................................    12
Hon. Joseph P. Mohorovic, Commissioner, U.S. Consumer Product 
  Safety Commission..............................................    15
    Prepared statement...........................................    16
Hon. Marietta S. Robinson, Commissioner, U.S. Consumer Product 
  Safety Commission..............................................    19
    Prepared statement...........................................    20

                                Appendix

Letter dated June 19, 2015 to Chairman Jerry Moran and Hon. 
  Richard Blumenthal from Stuart Gosswein, Sr. Director, Federal 
  Government Affairs, Specialty Equipment Market Association 
  (SEMA).........................................................    55
Letter dated July 27, 2015 to Hon. Bill Nelson from John 
  Addington, Portable Generator Manufacturers' Association (PGMA)    56
Response to written questions submitted to Hon. Elliot F. Kaye 
  by:
    Hon. John Thune..............................................    58
    Hon. Jerry Moran.............................................    67
    Hon. Deb Fischer.............................................    72
    Hon. Amy Klobuchar...........................................    73
    Hon. Joe Manchin.............................................    75
Response to written questions submitted to Hon. Robert S. Adler 
  by:
    Hon. Amy Klobuchar...........................................    75
    Hon. Joe Manchin.............................................    76
Response to written questions submitted to Hon. Ann Marie Buerkle 
  by:
    Hon. Jerry Moran.............................................    77
    Hon. Deb Fischer.............................................    77
    Hon. Amy Klobuchar...........................................    78
    Hon. Joe Manchin.............................................    78
Response to written questions submitted to Hon. Joseph P. 
  Mohorovic by:
    Hon. Amy Klobuchar...........................................    79
    Hon. Tom Udall...............................................    79
    Hon. Joe Manchin.............................................    80
Response to written questions submitted to Hon. Marietta S. 
  Robinson by:
    Hon. Amy Klobuchar...........................................    80
    Hon. Joe Manchin.............................................    81
    Hon. Tom Udall...............................................    82

 
                           OVERSIGHT OF THE 
                   CONSUMER PRODUCT SAFETY COMMISSION

                              ----------                              


                        WEDNESDAY, JUNE 17, 2015

                               U.S. Senate,
      Subcommittee on Consumer Protection, Product 
              Safety, Insurance, and Data Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:02 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Jerry Moran, 
Chairman of the Subcommittee, presiding.
    Present: Senators Moran [presiding], Heller, Daines, 
Blumenthal, Booker, Udall, Markey, Klobuchar, and Nelson.

            OPENING STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. I call our Subcommittee hearing to order, 
and welcome our witnesses and our guests and my colleagues here 
on the panel.
    This is one of what I think will be a series of hearings 
over a period of time in which we examine consumer protection 
and other issues within the Subcommittee's jurisdiction, and I 
am particularly pleased to welcome all the members of the 
Consumer Product Safety Commission, including Chairman Elliot 
Kaye, Commissioner Bob Adler, Commissioner Buerkle, 
Commissioner Mohorovic, and Commissioner Robinson.
    I just visited with them moments ago and they all seem to 
be smiling, and I am going to work on developing a reputation 
in which they are fearful of being here instead of so happy.
    Actually, I look forward to developing a good, close 
working relationship with you as we pursue the goal of making 
certain to the degree that we can consumers are safer with the 
products they buy in the United States.
    I think Senator Blumenthal would agree that protecting 
Americans from harmful produce is a top priority for our 
subcommittee. This is a significant part of our jurisdiction, 
and we will take this task seriously.
    This hearing will examine the Commission's 2016 performance 
budget request, its current rulemaking agenda, and issues 
identified in recent reports by the CPSC Inspector General.
    This agency is a small but in many ways very powerful 
agency with influence felt across our economy. It touches in 
one way or another over 15,000 product categories and is 
trusted with prioritizing and addressing the most significant 
threats to consumer safety.
    I want to hear from the Commission about their critical 
issues and priorities, and hopefully discuss issues of user fee 
authority and cybersecurity as they relate to the agency's 
budget in Fiscal Year 2016.
    I also serve as a member of the Appropriations Subcommittee 
on FSGG, including your agency, and part of what I learn today 
will be useful as we develop budget and appropriation issues in 
regard to CPSC.
    I have heard in my new role as this subcommittee chair a 
wide range of conversations with importers, with manufacturers, 
with retailers, consumer advocacy groups, all the stakeholders 
who care about consumer safety and many issues on your 
rulemaking agenda.
    I am pleased to hear that in many instances there has been 
productive dialogue between stakeholders and the agency and 
real progress demonstrated in improving consumer safety. In 
fact, the majority of work undertaken by the Commission is 
accomplished through consensus of the five Commissioners.
    Some of the agency's work, however, is more controversial, 
particularly where proposed Commission activity is not, in 
everyone's opinion, supported by sound data, stakeholder 
engagement, or would create additional burdens without 
corresponding safety benefits.
    On May 20, 2015, the full Senate Commerce Committee passed 
S. 1040, the ROV In-Depth Examination Act of 2015, known as 
``RIDE.'' This was bipartisan legislation introduced by many of 
my colleagues on the Commerce Committee. This bill would 
postpone the Commission's proposed rulemaking on recreational 
off-highway vehicles until further study on the rule's safety 
effects is completed by the National Academy of Sciences.
    I have supported this legislation but I commend the agency 
for what I understand has been meaningful and positive 
conversations with interested parties toward a workable 
solution since the Committee's passage of that bill a month 
ago.
    With regard to other open agenda items before the CPSC, I 
would appreciate an update on the status of revisions to the 
voluntary recall and 6(b) rules, as well as additional insight 
from the agency on how it is administering the increased 
penalties authorized by Congress under the Consumer Product 
Safety Improvement Act.
    Furthermore, I am interested in exploring the agency's 
approach to rulemaking on phthalates. I believe in order for 
this subcommittee to properly oversee the agency, a good place 
to start is to examine whether the agency is using current data 
and sound scientific methodology to complete its mission.
    Unfortunately, work in this area has stalled, and in part 
because the Commission was prepared in my view to complete its 
rulemaking based on outdated datasets.
    I am happy to hear the Commission's staff is now evaluating 
the correct data, which reflects current exposure levels to 
plasticizers, and the Commission has agreed to allow the public 
an additional opportunity to provide comments on its new 
results.
    I would note that on Monday of this week I received a 
formal response from Chairman Kaye, which I very much 
appreciate, concerning issues raised on this matter. I 
appreciate your response and look forward to discussing the 
contents of your letter today.
    We share a common goal of protecting consumers and doing 
what we can to prevent tragic injuries and fatalities from 
consumer products. The Consumer Product Safety Commission led 
by the five Commissioners before us this morning has a 
challenging but essential task of protecting the American 
public against unreasonable risks of injuries from consumer 
products, and I thank you all for your service.
    I would turn to the Ranking Member.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman, and thank you for 
having this hearing on an issue of paramount importance. In 
fact, I would venture to say nothing is more important than 
consumer protection and the work that you do. Consumer 
protection should be, has been, and will be a bipartisan issue. 
I think it brings us together on a bipartisan basis because of 
its effect on families.
    The Consumer Product Safety Commission is a small agency 
with an even smaller budget charged with work that matters in 
the daily lives of countless American families.
    It is responsible for ensuring the safety of over 15,000 
kinds of product categories. It oversees products that touch 
all of our lives, and new products that I hope we may be able 
to explore, new products like laundry detergents in pods that 
can be swallowed by children, liquid nicotine, which would have 
been unthinkable just a few years ago, other kinds of products 
that involve window coverings that have new impacts on 
children's lives, and artificial turf, the ability for turf 
fields to become hot, endangering lives, sources of friction, 
even cancer, things that should concern us deeply.
    This is the first time this year the World Cup is being 
played on artificial turf. When the tournament kicked off two 
weekends ago, the playing surface was reportedly 120 degrees 
despite the 75 degree weather. That may not be a problem for 
the athletes in that context, but for young teenagers playing 
on artificial turf on high school fields around the country, it 
might well be.
    According to the most recent report released just 
yesterday, there are now 153 cancer cases involving athletes 
who have played for a number of years on synthetic turf, 124 of 
these are soccer players, and 85 of them are soccer goalies.
    I will be speaking about that issue more in the course of 
this hearing but only to illustrate that the challenges are 
changing, they are evolving, they require new funding in my 
view and new expertise on the part of the agency.
    These challenges are of absolutely critical importance to 
the health and safety of our nation, and millions of mostly 
imported toys and children's products had to be pulled from 
store shelves because they contained lead paint and potentially 
ingestible magnets.
    Despite new challenges, there are the old ones as well. 
Lead paint. Who would have thought that now years after lead 
paint was first found to be a problem for children, we would 
still be talking about it as a potential danger to our 
children.
    I believe strongly that we need a stronger system of 
surveillance at our borders. I hope we will talk about that a 
bit. I know it is a concern of all of you. The CPSC staff now 
works onsite at ports, along side Customs and Border Patrol to 
test and make sure products that do not meet U.S. standards 
will not make it to the shelves of American consumers in the 
first place.
    This pilot program is currently operating at fewer than 
five percent of United States' ports, but even then with this 
limited pilot program, the program has already generated 
enormous public health and safety benefits in the first half of 
2013, six million violate or potentially hazardous consumer 
products were stopped from entering commerce, almost 40 times 
the number of units identified by the CPSC in 2007, before this 
measure was enacted.
    I look forward to hearing more about the success of this 
program and others. Through the work of this subcommittee, I am 
very hopeful that we can make progress together on making 
consumers healthier and safer throughout the United States.
    Thanks, Mr. Chairman.
    Senator Moran. Thank you, Senator Blumenthal. You are my 
favorite Ranking Member, despite you telling some other 
Chairman he was your favorite Chairman.
    [Laughter.]
    Senator Blumenthal. Do I have a right to remain silent?
    Senator Moran. I may invoke that clause later.
    We welcome the Commission. Mr. Chairman, please begin your 
testimony.

          STATEMENT OF HON. ELLIOT F. KAYE, CHAIRMAN, 
            U.S. CONSUMER PRODUCT SAFETY COMMISSION

    Mr. Kaye. Good morning, Chairman Moran, Ranking Member 
Blumenthal, and the members of the Subcommittee. Thank you for 
the invitation to come speak about the work of the United 
States Consumer Product Safety Commission and our proposed 
budget for Fiscal Year 2016.
    I am pleased to be joined today by my friends and 
colleagues from the Commission, Commissioners Adler, Buerkle, 
Mohorovic, and Robinson, and we would like to believe we are 
close, but this is probably about as close as we have all ever 
been.
    I am honored to work with my fellow Commissioners and the 
CPSC staff. CPSC's vital health and safety mission touches all 
of us in some way each and every day, from the parent of a baby 
who gently moves his or her child throughout the day from crib 
to baby bouncer to stroller and back again to crib, or the 
self-employed millennial who on a warm spring day relies on a 
room fan to stay cool and an extension cord to power a 
computer, to the baby boomer who purchased adult bed rails to 
help care for an aging parent who needed to move in, the 
products in CPSC's jurisdiction are inseparable from our lives.
    We believe we provide an excellent return on investment for 
the American people. We run a lean operation, especially 
considering the thousands of different consumer products that 
are in our jurisdiction, and we cover them all with a budget in 
the millions, not the billions.
    We are very appreciative of the continued bipartisan 
support for the Commission and our work. We saw this support in 
the overwhelming, nearly unanimous vote to pass the Consumer 
Product Safety Improvement Act of 2008, and as well in the near 
unanimous passage of an update to that Act in 2011.
    Your support has allowed our dedicated staff to drive 
standards development to make children's products safer, to 
increase our enforcement effectiveness, and to better educate 
consumers about product-related hazards.
    Our staff has also been hard at work trying to reduce the 
costs associated with third party testing while assuring 
compliance with the law. Congress' inclusion of $1 million as 
part of our funding for this current Fiscal Year has certainly 
enhanced those efforts.
    I have emphasized prioritizing those actions most likely to 
provide the greatest amount of relief, especially to small 
businesses. We are set to consider at least three different 
regulatory changes to provide relief this fiscal year with more 
in the works, and while that work proceeds, our continuing 
efforts to carry out and enforce CPSIA-driven enhancements to 
consumer product safety are reflected in our proposed budget.
    Unfortunately, not all of those priorities and requirements 
are achievable at our current levels. For that reason, we're 
pleased to see the President include in his budget two 
important consumer product safety initiatives. Both, if funded, 
will advance consumer safety and provide real value to those in 
industry making or importing safe products.
    First, we are seeking a permanent funding mechanism to 
allow the agency to comply with the congressional charge in 
Section 222 of the CPSIA. Section 222 called on the Commission 
to work with Customs and Border Protection and develop a risk 
assessment methodology to identify the consumer products likely 
to violate any of the Acts we enforce out of all the consumer 
products imported into the U.S.
    To meet our mandate, in 2011, we created a small-scale 
pilot that has been a success. However, the pilot alone does 
not fulfill the direction of Congress, and without full 
implementation, we will not be able to integrate CPSC into the 
much larger U.S. Government-wide effort to create a single 
window for import and export filing of all products.
    If CPSC can be fully integrated into the single window, we 
can transform Congress' vision of a national-scope, risk-based, 
data-driven screening at the ports into a reality, a reality 
that would mean faster entry for importers of compliant 
products, especially for trusted traders, and safer products in 
the hands of American consumers.
    Our proposed budget also seeks to address critical emerging 
health and safety questions associated with the rapidly growing 
use of nanomaterials in consumer products.
    In light of the questions raised in the scientific 
community about the effect inhalation of nanoparticles has on 
the lungs, especially those of children, we are seeking funding 
to significantly advance the state of that science.
    Finally, I would like to discuss an additional priority of 
mine, one that is not reflected in dollars, but to me at least, 
makes a lot of sense. How we at the CPSC do what we do is often 
just as important as what we do. Since day one in this 
position, I have worked daily to try to establish a certain 
culture among the five of us at the Commission level.
    The Commission and more importantly the American public are 
far better served by an agency where we operate at the 
Commission level in a culture of civility, collaboration, and 
constructive dialogue.
    Thank you again for the invitation to speak to you about 
the CPSC and the work undertaken by our staff. I look forward 
to answering any questions you may have.
    [The prepared statement of Mr. Kaye follows:]

         Prepared Statement of Hon. Elliot F. Kaye, Chairman, 
                U.S. Consumer Product Safety Commission
    Good morning Chairman Moran, Ranking Member Blumenthal and the 
members of the Subcommittee. Thank you for the invitation to come speak 
about the work of the United States Consumer Product Safety Commission 
today. I am pleased to be joined by my friends and colleagues from the 
Commission: Commissioners Adler, Buerkle, Mohorovic, and Robinson. In 
addition to a deeply dedicated and hard-working career staff in the 
Federal Government, we have a special group of talented, passionate and 
committed Commissioners, and I am honored to work with them at an 
agency that's mission is to save lives.
    CPSC's vital health and safety mission touches us all in some way, 
each and every day. From the parent of the baby who gently moves his or 
her child throughout the day from crib, to baby bouncer to stroller and 
back again to the crib; or the self-employed millennial who, on a warm 
spring day, relies on a room fan to stay cool and an extension cord to 
power a computer; to the baby boomer who purchased adult bed rails to 
help care for an aging parent who needed to move in, the products in 
CPSC's jurisdiction are inseparable from our lives.
    We believe we provide an excellent return on investment for the 
American people. We run a lean operation, especially considering the 
thousands of different product categories in our jurisdiction. And we 
cover them all with a budget in the millions, not the billions.
    We are very appreciative of the continued bipartisan support for 
the Commission and our work. We saw this support in the overwhelming, 
nearly unanimous vote to pass the Consumer Product Safety Improvement 
Act of 2008 (CPSIA) and the near unanimous passage of an update to 
CPSIA in 2011.
    Your support has allowed our dedicated staff to drive standards 
development to make children's products safer, to increase our 
enforcement effectiveness and to better educate consumers about 
product-related hazards, especially drowning prevention, poison 
prevention, safe to sleep and TV/furniture tip-over prevention.
    Our staff has also been hard at work trying to reduce costs 
associated with third-party testing while assuring compliance with all 
applicable rules, regulations, standards and bans. Congress' inclusion 
of $1 million as part of our funding for this current Fiscal Year has 
enhanced those efforts. Based on that funding, the Commission 
unanimously approved an amendment I offered to our operating plan to 
allocate that money toward a robust set of projects aimed at providing 
more carve-outs of materials that would not have to be third-party 
tested because they will not, nor would they ever likely, contain 
violative levels of lead, other heavy metals or phthalates.
    We chose this approach in response to overwhelming feedback we 
received as a result of our sustained engagement with the stakeholders. 
I have emphasized prioritizing those actions most likely to provide the 
greatest amount of relief, especially to small businesses.
    This is why, when I became Chairman, I detailed to my office one of 
our leading toxicologists at the agency to drive this work. The 
Commission is set to consider at least three different regulatory 
changes to provide relief this year with more in the works.
    While the burden reduction/assure compliance work proceeds, our 
continuing efforts to carry out and enforce CPSIA-driven enhancements 
to consumer product safety are reflected in our proposed budget. 
Unfortunately, not all of those priorities and requirements are 
achievable at our current appropriation levels. For that reason, we 
were pleased to see the President include in his budget two important 
consumer product safety initiatives. Both initiatives, if funded, will 
advance consumer safety and provide real value to those in industry 
making or importing safe products.
    First, we are seeking a permanent funding mechanism to allow the 
agency to comply with the Congressional charge in Section 222 of the 
CPSIA. Section 222 called on the Commission to work with Customs and 
Border Protection and develop a Risk Assessment Methodology to identify 
the consumer products likely to violate any of the acts we enforce out 
of all consumer products imported into the United States. To provide 
some context, last year we estimate there were $741 billion worth of 
consumer products imported into the US.
    To meet our mandate, in 2011, we created a small-scale pilot that 
has been a success. However, the pilot alone does not fulfill the 
direction of Congress and without full implementation, we will not be 
able to integrate CPSC into the much larger U.S. Government-wide effort 
to create a ``Single Window'' for import and export filing of all 
products. If CPSC can be fully integrated into the Single Window, we 
can transform Congress' vision of a national-scope, risk-based, data-
driven screening at the ports into a reality--a reality that would mean 
faster entry for importers of compliant products, especially for 
trusted traders, and safer products in the hands of American consumers.
    Our proposed budget also seeks to address critical emerging health 
and safety questions associated with the rapidly growing use of 
nanomaterials in consumer products. These materials offer many 
benefits. However, while the Federal Government has invested billions 
of dollars into driving research into the expansion of the use of 
nanomaterials, there has been a significant lag in assessing possible 
health effects of human exposure to nanomaterials in consumer products, 
especially to vulnerable populations such as our children. In light of 
the questions raised in the scientific community about the effect 
inhalation of certain nanoparticles might have on human lungs--concerns 
that center on identified similarities to asbestos exposure--we are 
proposing to significantly advance the state of the science as it 
relates to human exposure from nanomaterials in consumer products. In 
the absence of CPSC driving this work as it relates to consumer 
products, it will not be done by any other Federal agency. All 
involved--companies already using the nanomaterials in the products 
they make, and parents whose children are already using those 
products--deserve to know sooner rather than later the answers to the 
health questions posed.
    Our nanotechnology request is modeled on collaboration, including 
with industry. As Chairman, I have sought to enhance significantly our 
working relationship with our stakeholder community. One example of our 
success in this area was the recent decision of the Recreational Off-
Highway Vehicle (``ROV'') industry to reopen its voluntary standard for 
ROVs to provide the appropriate forum for a productive dialogue with 
the agency staff to improve substantially the ROV standard. We remain 
open to working with all willing collaborators to address safety issues 
in a mutually-acceptable manner.
    Finally, I would like to discuss an additional priority of mine, 
one that is not reflected in dollars but, to me at least, makes a lot 
of sense. How we at the CPSC do what we do is often just as important 
as what we do. Since day one in this position, I have worked daily to 
try to establish a certain culture among the five of us at the 
Commission level. The Commission, and more importantly the American 
public, are far better served by an agency where we operate at the 
Commission level in a culture of civility, collaboration and 
constructive dialogue. Of course, for this to happen, it requires a 
commitment by all five of us. I am pleased to say that I believe any 
observer of our public meetings would agree such a positive and 
productive culture exists at the CPSC. There is no doubt we have policy 
differences, but we discuss them with respect and stay focused on 
merit-based policymaking.
    Thank you again for the invitation to speak to you about the CPSC 
and the life-saving work undertaken by our staff. I look forward to 
answering questions you may have.

    Senator Moran. Chairman, thank you very much. Commissioner 
Adler? Welcome.

       STATEMENT OF HON. ROBERT S. ADLER, COMMISSIONER, 
            U.S. CONSUMER PRODUCT SAFETY COMMISSION

    Mr. Adler. Good morning, Chairman Moran, Ranking Member 
Blumenthal, and the members of the Subcommittee. Thank you so 
much for the opportunity to appear along with my fellow 
Commissioners today. I am pleased to be here to testify about 
an agency that I have been associated with in some fashion 
since its establishment over 40 years ago.
    At the outset, I would point out as both Senator Blumenthal 
and Senator Moran noted, we are far and away the smallest 
Federal health and safety agency with a current funding level 
of $123 million and a staff of roughly 560 FTEs.
    I want to put our budget in perspective. I note that for 
Fiscal Year 2016, we have asked for an appropriation of $129 
million, which is an increase of roughly $6 million. By way of 
comparison, our sister agency, FDA, has asked for roughly $4.9 
billion in Fiscal Year 2016, with an increase sought of $148 
million. To put it more succinctly, FDA has asked for an 
increase that is larger than our entire budget.
    Notwithstanding this modest budget, our jurisdictional 
scope as noted is extremely wide, encompassing roughly 15,000 
categories of consumer products that are found in homes, 
stores, schools, and recreational settings. Given this broad 
jurisdiction, the agency has adopted a thoughtful data-based 
approach using its highly skilled technical staff to figure out 
which products present the greatest risks, and we address them 
using our regulatory and educational tools in a way designed to 
minimize market disruption while always making consumer safety 
our top priority.
    We do not operate alone when it comes to product safety. We 
have always sought to make our various stakeholders partners in 
our quest to reduce or eliminate unreasonable risk. Included in 
this group are our friends in the business and consumer 
communities, as well as the various standards development 
bodies that work closely with the agency.
    While I would note that much remains to be done, I would 
point out that an enormous amount has been accomplished. For 
example, there has been an estimated 30 percent decline in the 
rate of deaths and injuries associated with consumer products 
over the last 40 years.
    I particularly note the dramatic drop in deaths and 
injuries to children. We have seen an 83 percent drop in 
childhood poisoning. We have seen a 73 percent drop in crib 
deaths. We have seen an 86 percent reduction in baby walker 
injuries and an almost complete elimination of childhood 
suffocations in refrigerators.
    I would also like to mention the tremendous strides the 
Commission has taken to implement the Consumer Product Safety 
Act, which as Chairman Kaye noted, was passed almost 
unanimously by both houses of Congress and signed by President 
Bush in 2008.
    Among the many actions taken by the agency, we have 
enforced stringent limits on lead and phthalates in children's 
products. We have promulgated the strongest safety standard for 
cribs in the world. We have made mandatory a comprehensive 
voluntary toy standard, ASTM F963, and we have written and 
continued to write a series of standards for durable infant 
products like play yards and strollers.
    As you may know, the Commission has recently experienced a 
significant turnover among its members. In fact, you are 
looking at the last Commissioner standing from 2009. I 
certainly miss my former colleagues, but I am pleased to 
welcome as new colleagues Chairman Kaye, Commissioners 
Robinson, Buerkle, and Mohorovic. They have brought new 
perspectives and insights that constantly freshen and sharpen 
my thinking on issues, and they have done so in a way that has 
brought a new era of civility to the agency.
    We certainly disagree vigorously on occasion, but we also 
listen to and trust one another in ways that I have not seen at 
this agency for many years.
    Finally, Mr. Chairman, I would like to reiterate my concern 
about a set of issues surrounding a critical demographic that I 
do not think has received enough attention over the past number 
of years, senior citizens, a group of which I am a proud 
member.
    CPSC data show the second most vulnerable population after 
kids is adults over 65, and we are a rapidly growing group due 
to the aging of the baby boomers and the greater longevity of 
our citizens.
    Here is an interesting statistic. There are more of us in 
the over 65 age group in the United States than there are 
citizens in Canada, but what is particularly troubling to me is 
that seniors, while comprising only 13 percent of the U.S. 
population, account for 65 percent of consumer product related 
deaths. By 2030, they, we, will be 20 percent of the U.S. 
population.
    Given my concerns in that brief period when I was acting 
chairman of the agency, I worked with our staff to create a 
senior safety initiative at CPSC. This initiative focuses on 
identifying the products that harm seniors disproportionately 
and seeking ways to provide extra warnings and protections for 
older Americans.
    As I continue to look for useful approaches to help seniors 
with product hazards, I hope this committee will take note of 
this issue and support the Commission's efforts in this regard.
    Thank you so much for your time and I look forward to your 
questions.
    [The prepared statement of Mr. Adler follows:]

       Prepared Statement of Hon. Robert S. Adler, Commissioner, 
                U.S. Consumer Product Safety Commission
    Good morning Chairman Moran, Ranking Member Blumenthal, and the 
members of the Subcommittee. Thank you for the opportunity to appear 
along with my fellow CPSC Commissioners today. I am pleased to be here 
to testify about an agency that I have been associated with in some 
fashion since its establishment over forty years ago.
    At the outset, I would point out that we are far and away the 
smallest of the Federal health and safety agencies, with a current 
funding level of $123 million and a staff of roughly 560 FTEs. To put 
our budget in perspective, I note that for FY 2016, we have asked for 
an appropriation of $129 million--an increase of roughly $6 million. By 
way of comparison, our sister agency, FDA, has asked for roughly $4.9 
billion in FY 2016, an increase of $148 million. Or to put it more 
succinctly, FDA has asked for an increase that is larger than CPSC's 
entire budget.
    Notwithstanding CPSC's modest budget, our jurisdictional scope is 
extremely wide, encompassing roughly 15,000 categories of consumer 
products found in homes, stores, schools and recreational settings. 
Given this broad jurisdiction, the agency has adopted a thoughtful, 
data-based approach using its highly-skilled technical staff to figure 
out which products present the greatest risk. And, we address them 
using our regulatory and educational tools in a way designed to 
minimize market disruption while always making consumer safety our top 
priority.
    Of course, the CPSC does not operate alone on product safety. We 
have always sought to make our various stakeholders partners in our 
quest to reduce or eliminate unreasonable risks. Included in this group 
are our friends in the business and consumer communities as well as the 
various standards development bodies that work closely with the agency.
    So, while I would note that much remains to be done, I would also 
point out that an enormous amount has been accomplished. For example, 
there has been an estimated 30 percent decline in the rate of deaths 
and injuries associated with consumer products over the last 40 years. 
And, I particularly note the dramatic drop in death and injuries to 
children. We have seen:

  <bullet> An 83 percent drop in childhood poisoning,

  <bullet> A 73 percent drop in crib deaths,

  <bullet> An 86 percent reduction in baby walker injuries, and

  <bullet> An almost complete elimination of childhood suffocations in 
        refrigerators.

    Additionally, on a broader front, we have seen improvements such as 
92 percent reduction in fatal electrocutions and a 52 percent reduction 
in residential fire deaths in the past 40 years. By our calculation, 
this drop in deaths and injuries has resulted in over $16 billion in 
reduced societal costs--producing benefits that dramatically outweigh 
the pennies per citizen cost of operating the CPSC.
    I would also like to mention the tremendous strides the agency has 
taken to implement the Consumer Product Safety Improvement Act (CPSIA) 
approved by the House on July 30, 2008 by a vote of 424-1 and signed by 
President Bush on August 14, 2008. Among the actions taken by the 
agency in enforcing this law:

  <bullet> Enforced stringent limits on lead and phthalates in 
        children's products,

  <bullet> Promulgated the strongest safety standard for cribs in the 
        world,

  <bullet> Developed implementing rules for the new CPSIA requirement 
        that firms have independent laboratories do third party testing 
        of children's products before introducing them into the U.S. 
        market,

  <bullet> Made mandatory a comprehensive voluntary toy standard, ASTM 
        F963,

  <bullet> Written, and continue to write, a series of standards for 
        durable infant products like play yards and strollers,

  <bullet> Drafted and enforced new guidelines on civil penalties and 
        set broader limits on consumer product recalls, and

  <bullet> Developed new approaches to catching dangerous imported 
        products, which we hope to expand.

    As you may know, the Commission has recently experienced a 
significant turnover among its members. Although I miss my former 
colleagues, I am pleased to welcome as new colleagues, Chairman Elliot 
Kaye, and Commissioners Robinson, Buerkle and Mohorovic. Simply put, 
they are a joy to work with. They have brought new perspectives and 
insights that have freshened and sharpened my thinking on issues. And, 
they have done so in a way that has brought a new era of civility to 
the agency. We certainly disagree--vigorously--on some issues, but we 
also listen to and trust one another in ways that I have not seen for 
many years at the agency.
    Mr. Chairman, I realize that there are a number of issues that 
concern you and the other members of the Subcommittee, and I join my 
colleagues in looking to answer any questions you may have regarding 
the agency's activities in the past years. Before doing so, I would 
like to reiterate my concern about a set of issues surrounding a 
critical demographic that I believe has not received enough attention 
over the past number of years: senior citizens--a group of which I am a 
proud member. CPSC data show that the second most vulnerable population 
after kids is adults over 65. And, I note that this is a rapidly 
growing group due to the aging of the baby boomers and the greater 
longevity of our citizens. In fact, there are more of us in the over-65 
age group than there are citizens in Canada. What is particularly 
troubling to me, however, is that seniors, while comprising only 13 
percent of the U.S. population, account for 65 percent of our consumer 
product-related deaths. And, by 2020, they--we--will be 20 percent of 
the U.S. population.
    So, given my concerns, while I was Acting Chairman of the agency, I 
worked with our staff to create a Senior Safety Initiative at CPSC. 
This initiative focuses on identifying the products that harm seniors 
disproportionately and seeking ways to provide extra warnings and 
protections for older Americans. And, I continue to look for useful 
approaches to help seniors with product hazards, and I hope that this 
committee will take note of this issue and support the Commission's 
efforts in this regard.
    Thank you for your time, and I look forward to your questions.

    Senator Moran. Thank you very much. Commissioner Buerkle?

      STATEMENT OF HON. ANN MARIE BUERKLE, COMMISSIONER, 
            U.S. CONSUMER PRODUCT SAFETY COMMISSION

    Ms. Buerkle. Thank you and good morning, Chairman Moran, 
Ranking Member Blumenthal, and distinguished members of this 
committee. Thank you for holding today's hearing on the 
Consumer Product Safety Commission.
    I had the honor of serving in the House of Representatives, 
and I am very glad to be back on Capitol Hill in my capacity as 
a commissioner at CSPC.
    My full statement exceeds 5 minutes, so I will only touch 
upon a few highlights. Number one, it is crucial to our mission 
that CSPC build strong, productive relationships with all 
stakeholders, especially the regulated community. Inspiring 
cooperation rather than hostility will yield quicker 
introduction of safer designs, as well as timely removal of 
defective products, all of which ultimately benefit the 
consumer.
    That is one reason why I am deeply troubled by the recent 
pronouncements that the Commission will seek higher civil 
penalties, make changes to an important program known as the 
Retailer Reporting Program, as well as the ill considered 
proposals that would undercut our successful voluntary recall 
program and 6(b) rules, and last, the constant threat of 
mandatory standards. Without question, these initiatives 
undermine any engagement in collaborative efforts.
    One of the most important CPSC activities, as has already 
been mentioned, is import surveillance. While CPSC has improved 
import surveillance significantly over the last decade, I have 
concerns about our current direction.
    In my judgment, it makes no sense to seek funding for a RAM 
expansion before we decide what that expansion should include, 
nor can I go along with the so-called ``user fee'' that would 
impose additional costs on imports and our economy without 
providing any benefit to the user. Such a fee is unfair and of 
doubtful constitutionality.
    I also find it mystifying that we would evaluate the e-
filing certificates through a pilot program using virtually the 
same approach that was criticized when the rule was first 
promulgated more than a year ago.
    One of my highest priorities at the Commission has been to 
reduce testing burdens faced by manufacturers. I was a member 
of Congress when we passed Public Law 112-28, which relieved 
testing burdens directly in several ways, and directed the 
Commission to find other ways. When I joined the Commission, I 
was surprised to see how little progress had been made.
    At my constant urging, CPSC is taking the matter more 
seriously. I am grateful to Chairman Thune for his personal 
attention to this matter and to this entire committee and the 
Congress for dedicating $1 million to the effort in CPSC's 
Fiscal Year 2015 appropriations.
    Another significant activity at the Commission is the 
rulemaking prescribed by CPSIA in Section 108, which relates to 
the use of phthalates in certain toys and child care articles.
    Unfortunately, the Commission did not allow public comment 
on the science of the CHAP report before formulating and 
promulgating the proposed regulation. Citing the time table set 
forth in Section 108, the Commission majority decided it must 
move ahead despite the known defects of the CHAP report.
    Particularly glaring was the CHAP's decision to rely on the 
exposure data from 2005/2006 and earlier when more recent data 
was readily available. The CHAP's fundamental mistake of using 
old data is only one of my concerns that I have with this 
rulemaking.
    I also question banning chemicals based on a cumulative 
risk assessment to which they contribute little or no risk. I 
object to banning chemicals in toys when the exposure from toys 
are dwarfed by exposures in food, cosmetics, and other sources 
from outside of our jurisdiction, and I oppose banning 
chemicals that have been in use for many years and whose risks 
have been studied for a very long time when we know very little 
about the alternatives that will instead be used.
    Another priority before the Commission is window coverings. 
The reality is this, there are approximately one billion window 
covering products already in the United States of America. To 
address this hazard, we need a comprehensive educational 
campaign. A serious commitment to such a program would do more 
to save lives than a mandatory standard, which must be limited 
to newly manufactured products.
    As a Federal agency, we are stewards of the American 
taxpayers' dollars, and we must ensure that the regulations we 
promulgate are reasonable, balanced, and address a significant 
safety issue.
    The cost of regulation and compliance has been estimated at 
about $2 trillion annually in our country, and studies indicate 
that those costs fall disproportionately on small businesses. 
While regulation is a necessary function of government, the 
solutions we seek should be balanced and address a serious 
problem.
    Consumers should be protected from an unreasonable risk 
while the regulated community is protected from arbitrary 
government.
    The common goal among all of us, Congress, CPSC, industry, 
and consumers is safety. We are all people. We all have kids 
and families for whom we want safe products. I have six 
children and 16 grandchildren, one of whom arrived earlier this 
week. I do not want dangerous products hurting them or anyone 
else. However, the United States Government cannot and should 
not try to create a zero risk society.
    I thank you for this time today and I look forward to 
answering your questions.
    [The prepared statement of Ms. Buerkle follows:]

      Prepared Statement of Hon. Ann Marie Buerkle, Commissioner, 
                U.S. Consumer Product Safety Commission
    Chairman Moran, Ranking Member Blumenthal, and distinguished 
Members of the Committee: thank you for holding today's hearing on the 
Consumer Product Safety Commission. I had the honor of serving in the 
House of Representatives, and I am glad to be back on Capitol Hill in 
my capacity as a Commissioner at CPSC. I hope that today's hearing will 
strengthen our partnership to keep consumers safe from unreasonable 
risks of injury.
    I have been a Commissioner at the agency since July of 2013. 
Throughout that time, what has continued to impress me is the 
dedication of CPSC's staff. The mission of safety is taken very 
seriously. I am also thankful for the tone set by our Chairman and 
joined by my colleagues. We often differ significantly on matters of 
policy, but those differences are discussed in a mutually respectful 
manner.
    The regulated community has also impressed me, not only with their 
eagerness to understand and comply with our regulations, but also with 
their entrepreneurial drive to innovate and advance safety. It is 
crucial to our mission that CPSC builds strong, productive 
relationships with all stakeholders, especially the regulated 
community. Inspiring cooperation rather than hostility will yield 
quicker introduction of safer designs as well as more timely removal of 
defective products, all of which ultimately benefit the consumer. That 
is one reason why I am deeply troubled by recent pronouncements that 
the Commission will seek higher civil penalties, changes to an 
important program known as retailer reporting, and the ill-considered 
proposals that would undercut our successful voluntary recall program 
and 6(b) rules. Without question, these initiatives undermine any 
engagement and collaborative efforts.
    Consumer safety is our top priority, but safety can be achieved in 
a balanced, reasonable way that does not unnecessarily burden the 
regulated community, deprive consumers of products they prefer, or 
insert government into the market where it does not belong.
    One of the most important CPSC activities is import surveillance. 
Stopping unsafe products at the ports is a critical strategy--it 
prevents harm to consumers. Recalls are nowhere near as effective, and 
they impose much larger costs on everyone involved.
    CPSC's import surveillance has improved significantly over the last 
decade. CPSC has developed a Risk Assessment Methodology (RAM), 
fulfilling the requirement of Section 222 of the Consumer Product 
Safety Improvement Act (CPSIA), and is using it to target shipments 
that pose greater risks. CPSC now has employees who are located 
fulltime at the busiest ports of entry, and it has field investigators 
located throughout the Nation who can reach many other ports. CPSC also 
has developed a strong partnership with Customs and Border Protection 
(CBP). Just last month, the Commission unanimously agreed to spend $3 
million (available as a result of hiring shortfalls) this Fiscal Year 
to enhance our in-house control over the existing RAM system.
    The President's budget request for FY 2016 seeks authority for CPSC 
to impose a so-called ``user fee'' on imported consumer products so it 
can finance an expansion of the RAM system as well as boost the number 
of staff working on import surveillance. While import surveillance is 
an extremely important part of our mission, I do not agree with the 
current approach. Import safety is a complex issue and its components 
should be examined individually as well as work together collectively.
    First, before any amount of funding is requested, let alone 
appropriated, the ``requirements analysis'' that the agency is planning 
to conduct should be completed. This study is to identify what 
capabilities an expanded RAM system should have. Until there is a 
consensus on what is required to expand the RAM, and a timetable to do 
so, any request for additional funding is premature.
    Second, even when we know what is required for an expanded RAM, I 
do not believe that a user fee is the appropriate way to pay for it. A 
fee that is not matched by any benefit is unfair and of doubtful 
constitutionality. In any case, we should think long and hard before 
imposing even greater costs on American businesses, especially smaller 
ones.
    Another piece of this complex issue is the proposed regulation 
requiring electronic filing of information documenting compliance with 
our mandatory standards. That proposal, which the Commission launched 
in 2013 prior to my arrival, was developed with minimal stakeholder 
engagement, and drew strenuous opposition. At my urging, CPSC has taken 
steps to engage the trade community and develop a pilot of an 
electronic filing program before proceeding with a final rule. While I 
am pleased to see the efforts at engagement, it was my hope that 
stakeholder feedback on the proposed rule would guide the development 
of the pilot. Instead, the pilot currently being discussed retains many 
features of the proposed rule that met with such opposition in the 
first place.
    I see no reason to be wed to the original proposal. CPSC is an 
independent agency, so we are not bound by Executive Order 13659 nor is 
there any statutory requirement for CPSC to move to electronic filing. 
In my judgment, it would be better to proceed incrementally with a 
series of smaller pilots rather than a kitchen sink, try-everything-at-
once approach. Let's see if we can operate smoothly in simple cases 
before adding more complex scenarios.
    Moving to electronic filing, streamlining the import process, and 
enhancing our targeting abilities are all worthy goals, but there are 
many additional steps that must be taken before we move ahead with a 
major expansion of our import surveillance system. I want to see us do 
it right rather than in haste.
    One of my highest priorities at the Commission has been to reduce 
testing burdens faced by manufacturers. I was a Member of Congress when 
we passed Public Law 112-28, which relieved testing burdens directly in 
several ways and directed the Commission to find other ways. When I 
joined the Commission, I was surprised to see how little progress had 
been made. At my constant urgings, CPSC is taking the matter more 
seriously. I am grateful to Chairman Thune for his personal attention 
to this matter and to the entire Congress for dedicating $1 million to 
the effort in CPSC's Fiscal Year 2015 appropriation. In April of this 
year, I sent a memorandum to the leaders of this subcommittee and 
others describing CPSC's efforts in some detail. Since that time, the 
Commission has voted to fund another promising research project 
identified by our Small-Business Ombudsman and the Commission is 
anticipating a small burden reduction package to come before us this 
summer. Nevertheless, nearly four years after passage of Public Law No. 
112-28, stakeholders have received virtually no relief in response to 
its mandate. Meanwhile, the promulgation of additional mandatory 
standards, pursuant to CPSIA section 104, has added to these third-
party testing burdens. In addition, the agency has failed to act on the 
separate statutory mandate to report to Congress on opportunities for 
burden reduction that require new legal authority. The CPSC staff 
recommended a substantial opportunity of this sort to the Commission 
over two years ago, and others have been identified more recently. We 
should be more engaged with Congress on this issue and many others.
    Another significant activity at the Commission is the rulemaking 
prescribed by CPSIA section 108, which relates to the use of phthalates 
in certain toys and childcare articles. Congress directed CPSC to begin 
this process by forming a Chronic Hazard Advisory Panel (CHAP) to 
develop a scientific report on phthalates and potential substitutes. 
The CHAP's report was transmitted to the Commission in July 2014. 
Unfortunately, the Commission did not allow public comment on the 
science of the CHAP report before formulating and promulgating its 
proposed regulation. Citing the timetable set forth in section 108, the 
Commission majority decided it must move ahead despite the known 
defects in the CHAP's report. Particularly glaring was the CHAP's 
decision to rely on exposure data from 2005-2006 and earlier when more 
recent data was readily available. We should always respect 
Congressional deadlines as much as we possibly can. However, Congress 
also said that the CHAP should consider ``likely exposures'' and the 
``most recent, best available'' scientific data. Can anyone imagine us 
proposing a new standard for ATVs or toys based solely on injury data 
that is 8 or 9 years old?
    I am pleased that the Chairman directed staff to analyze more 
recent data and strongly believe that analysis, as well as staff's 
interpretation of how it will impact the final rule, should be 
available for public comment. It must be emphasized, however, that this 
approach does not cure the original problem--the decision to forego 
public comment on the science of the CHAP report before formulating the 
proposed rule. The CHAP's fundamental mistake of using old data is only 
one of many concerns that I have with this rulemaking. I question 
banning chemicals based on a cumulative risk assessment to which they 
contribute little or no risk. I am troubled by the idea of banning the 
use of chemicals in toys when the exposures from toys are dwarfed by 
the exposures in food, cosmetics and other sources outside our 
jurisdiction. And I am greatly concerned that we have proposed to ban 
chemicals that have been in use for many years, and whose risks have 
been studied for a long time, when we know very little about the 
alternatives that would be needed.
    Another priority issue before the Commission is window coverings. I 
supported the decision to proceed with an Advance Notice of Proposed 
Rulemaking because I believe CPSC needs to gather more information 
about these products before we determine how to proceed. I am anxious 
to understand how the vulnerable populations of individuals with 
disabilities and senior citizens could be adversely affected by any 
changes to the functionality and operability of corded window 
coverings.
    The reality is this: There are approximately one billion window 
covering products already in U.S. households. To address that hazard, 
we need a comprehensive educational campaign, which reaches parents, 
child caretakers, and healthcare professionals; increases awareness of 
the potential hazard of corded window coverings; and informs of safer 
alternatives that are already available. A serious commitment to such a 
program would do more to save lives than a mandatory standard, which 
must be limited to newly manufactured products.
    No matter the issue, we must always ask ourselves: what is the 
problem we are trying to fix and most importantly, is our proposed 
solution the least burdensome way to solve the problem? As a Federal 
agency we are stewards of the American taxpayers' dollars and we must 
ensure the regulations we promulgate are reasonable, balanced, and 
address a significant safety issue.
    Based on Federal Government data, past reports, and contemporary 
studies, the costs of regulation have been estimated at about $2 
trillion annually. The costs of regulation and compliance are 
staggering and unfortunately, all studies indicate that the compliance 
costs fall disproportionately on small businesses.
    Regulation is a necessary function of government, but I believe 
that CPSIA has forced too much regulation without regard to risk, let 
alone cost benefit. As a result we are unnecessarily burdening 
businesses, especially small businesses, and are further stifling an 
already stagnant economy. The solutions we seek should be balanced and 
address a serious problem. Consumers should be protected from 
unreasonable risks while the regulated community is protected from an 
arbitrary government.
    The common goal among us all--Congress, CPSC, industry, and 
consumers--is safety; we are all people who have families for whom we 
want safe products. I have six children and sixteen grandchildren. I do 
not want dangerous products hurting them or anyone; however, the U.S. 
Government cannot and should not try to create a zero-risk society.
    Thank you for this time today and I look forward to answering any 
questions that you may have.

    Senator Moran. Thank you very much. Commissioner Mohorovic?

             STATEMENT OF HON. JOSEPH P. MOHOROVIC,

     COMMISSIONER, U.S. CONSUMER PRODUCT SAFETY COMMISSION

    Mr. Mohorovic. Thank you, Mr. Chairman, Ranking Member 
Blumenthal. I would like to touch on just one area of CPSC 
developing policy but it is the area that I believe the CPSC 
has the opportunity to achieve the greatest safety risk on 
investment of the taxpayer dollar, and that is the enhancement 
of our techniques at our ports to identify and interdict 
harmful products.
    A quick look at the statistics will reveal the enormity of 
the challenge as well as the need to direct our compliance 
efforts at our ports. We have a quarter of a million importers 
that are bringing in $700 billion in consumer goods under our 
jurisdiction on an annual basis, and they are coming in through 
14 million individual shipments to 330 ports.
    We also know that in 80 percent of our recalls they involve 
imported goods. The goal is and needs to continue to be 
identifying harmful products at our ports of entry, but to do 
so in such a way that will not needlessly inhibit legitimate 
trade. That is going to be the tricky part and the part we need 
to focus on.
    I would like to identify three areas of policy with regard 
to our imports. First, you have before you a proposal from 
CPSC, what has been a very successful targeting program we call 
our RAM, our risk assessment methodology. We are asking for 
$200 million over the course of 6 years and we are asking the 
trade to pay for it in the form of user fees.
    I have been in leadership positions overseeing governance 
programs of this size and of this scale, and while I may have 
some concerns about the user fees as a payment mechanism and 
how we propose to spend all that money, I am committed to the 
fact that the time is now to nationalize our RAM program.
    The second area I would like to address is rulemaking. We 
have an 1110 rule which is an overhaul of our Certificates of 
Compliance, and in this area, we are proposing to mandate that 
certificates be filed with the CPSC in an electronic registry 
in advance of importation. We have a pilot project underway to 
test that concept.
    Be sure that this would have an enormous burden on the 
trade. We are asking for this data because we think this data 
provided in advance will better inform our targeting to 
identify unsafe products, and that is an argument that appeals 
to me greatly, but this is the area where we have to be very 
careful not to stifle legitimate trade in the United States.
    Before we ask for this mountains of data, I think it is 
important for the CPSC to more concretely prove how that data 
will better inform targeting beyond the data that is already 
available to us today.
    The third area I would like to touch upon is the Trusted 
Trader concept. As we are enhancing our abilities at the Border 
to identify unsafe products, I believe we should be partnering 
with importers who want to subject their processes to strict 
scrutiny by the CPSC in hopes that the CPSC can qualify them as 
low risk trusted traders.
    Membership should have its benefits. If they can 
consistently prove an ability to bring in compliant products, 
they should have benefits in the form of lower administrative 
burdens, lower surveillance rates, as well as quicker and more 
predictable time to market.
    In conclusion, I believe our situation at our ports 
provides us an excellent opportunity to better protect the 
American consumer, but it also comes with a very significant 
risk of needlessly inhibiting legitimate trade.
    With a nationalized RAM targeting program, I believe we can 
better and more likely identify the non-compliant goods and 
keep them out of the American stream of commerce, and with the 
robust Trusted Trader program, I think we can better likely 
identify the compliant product and get that to market faster so 
that the American consumer can enjoy them more cheaply, more 
quickly, and most importantly, more safely.
    Thank you very much.
    [The prepared statement of Mr. Mohorovic follows:]

     Prepared Statement of Hon. Joseph P. Mohorovic, Commissioner, 
                U.S. Consumer Product Safety Commission
    Chairman Thune, Ranking Member Nelson, Chairman Moran, Ranking 
Member Blumenthal, and distinguished members of the Subcommittee, I 
sincerely appreciate the opportunity to speak with you today. As many 
of you are aware, I am the only MBA--and the only non-lawyer--on the 
Commission, so I bring a bit of a different perspective. Having managed 
a global business line for one of the world's leading consumer product 
testing firms, the notion of Return on Investment is second nature for 
me. In the past, I used it to maximize profit. In the new role in which 
I have the honor of serving, the ``profit'' I'm looking for is the 
shared gain of fewer Americans suffering injuries and deaths from 
consumer products, so I'm thinking more in terms of Safety Return on 
Investment--SROI.
    I would like to focus on the area where CPSC can realize the 
highest SROI, and that is at our ports and borders. CPSC's jurisdiction 
is huge--over 15,000 product categories--and imports are a very large 
portion of that--about half. More than 235,000 importers bring in about 
14 million shipments annually worth over $700 billion. In some 
categories--like toys--more than 90 percent of products we regulate are 
imported.
    Some of those products are bound to be violative or unsafe. In 
fact, 80 percent of our recalls involve imported goods. Stopping 
products at the ports is more effective than recalling them, which is 
expensive and has limited effectiveness. To do that, however, requires 
vigorous inspection efforts. For any agency our size, vigorous 
inspection requires sophisticated targeting and prioritization. Every 
false positive--every shipment stopped that ultimately proves 
compliant--is not only an unnecessary interruption in commerce, but 
also a wasted opportunity to find and reject non-compliant products.
    I am delighted that so many members of your staffs have been able 
to see firsthand the enormous challenge our small agency faces at the 
ports, and I would like to talk about three keys to meeting that 
challenge in the 21st century economy: How we target, how we surveil, 
and how we maximize our scarce resources.
RAM Scale-Up & User Fees
    One key to enhancing our protection is to do more of one thing we 
are already doing well. As directed by the CPSIA, the Commission has 
developed a pilot Risk Assessment Methodology (or RAM), allowing us to 
focus more of our import inspections on products more likely to be 
violative. Our Fiscal Year 2016 Budget Request includes a request for 
authorization for a user fee to help fund the $180 million we plan to 
spend in the next six years to expand to a full-scale RAM.
    I have some reservations about the user fee mechanism. I also have 
some open questions about the details of our spending plans--
particularly about the IT component and missed opportunities for 
economies of scale I would expect from an operational build-up of this 
size. However, I wholeheartedly support the notion of nationalizing our 
pilot targeting program. We have a successful proof of concept, and, at 
full-scale, RAM will enable us to better-target high-risk products and 
importers. More importantly, RAM will allow us to prioritize more 
significant threats to consumer safety over paperwork violations that, 
while unacceptable, are less likely to injure anyone.
Certificates of Compliance Rule (1110)
    Along with the RAM scale-up, we are also overhauling how we bring 
information in through our proposed changes to our Certificates of 
Compliance rule, the so-called 1110 Rule. In those revisions, we 
propose to require electronic filing of certificates prior to 
importation. Currently, importers of products that require certificates 
generally only have to make them available upon demand. I am concerned 
about the details of our proposal, its size, and the extent to which 
this strategy contributes to better targeting.
    Our proposed Rule requires significantly more information in a 
certificate than what was required by Congress in the CPSIA. And by 
requiring certificates for exempt products, the sheer volume of the 
certificates we envision collecting is enormous. But we don't even have 
a good handle on what this total scope is. I hope you ask that question 
directly of us today.
    In 2013, we wrote that we expected to see over 7.5 million 
certificates a year filed through an electronic registry--I suspect 
that is an astonishing underestimate. Not only is the volume of work 
staggering--and maybe an undercount--but it is inconsistent with 
President Obama's Executive Order on creating a single import window. 
Maintaining a separate, CPSC-specific process is, if not two full 
windows, at least a window and a mail slot, and it undercuts the 
efficiency goals of the Executive Order.
    But the most important concern about our certificate proposal is: 
how is this in the public interest? How, exactly, are all these pieces 
of information contributing to better targeting and, as a result, fewer 
unsafe products? Moreover, we have not done enough to explain why we 
need all of the information the proposed rule identifies. The notion 
seems to have been that we should get all the information we can and 
then figure out what to do with it. While I understand the impulse to 
leave no stone unturned, I believe we need to make every effort to 
ensure that we get what we need while not demanding any more than that.
    One effort we can and should make is to subject this proposed rule 
to some form of cost-benefit analysis. When the agency issued its 
current rule, it did so through a direct-final rule that was 
promulgated without cost-benefit analysis or notice-and-comment. This 
decision was a pragmatic one: In addition to the certificate rule, the 
CPSIA required dozens of other rules and other agency actions across a 
wide swath of its jurisdiction, and there was simply too much to do to 
give every part of it the consideration it would otherwise have 
deserved.
    Now, nearly seven years later, we do not have the same time 
pressure. We have done almost all of the work the CPSIA required, and, 
as a result, we have both the time to get this sweeping rule right and 
a better understanding of how it fits in our regulatory puzzle.
    We are not required to perform any cost-benefit analysis of the 
certificate rule, let alone the robust examination reflected in Section 
7 of the Consumer Product Safety Act.\1\ The fact that there is no law 
telling us we must look at the costs and benefits of this proposed 
rule, however, does not mean we should not choose to do so. One of our 
basic obligations as Federal officers is to ensure that we are not 
wasting taxpayers' money. When we write a check on the people's behalf, 
we need to make sure they get something of similar value in return.
---------------------------------------------------------------------------
    \1\ That analysis is required for any mandatory consumer product 
safety standard we wish to implement, but the certificate rule is not 
such a standard.
---------------------------------------------------------------------------
    In the case of the certificate rule, my strong suspicion is that 
even a rudimentary cost-benefit analysis will show that the costs we 
would impose on the economy in collecting tens of millions of 
certificates and perhaps billions of data points would dwarf the safety 
benefits consumers would see from that information. Done properly, our 
analysis could help us understand which data elements help us target 
unsafe products and which do not, allowing us to make a conscious 
choice about exactly how much burden we will impose for exactly how 
much benefit we will receive in return.
Trusted Trader
    Even if they are better-defined, user fees and certificate pre-
filing will impose considerable burdens on importers. We should look 
for ways to offset those. One such offset I have advocated for is to 
make the import process simpler and faster for the demonstrated good 
actors in our regulated community through a Trusted Trader program.
    Our partner agencies--including CBP and TSA, and soon FDA--have 
created programs through which their regulated entities subject 
themselves to greater advance scrutiny in exchange for reduced 
regulatory supervision. The agencies, in turn, benefit from more 
insight and the opportunity to redirect scarce inspection resources, 
and they cannot sign up volunteers fast enough. CPSC should emulate 
that model with a robust, sophisticated Trusted Trader program.
    As I mentioned earlier, RAM is a valuable tool and one we need to 
maximize. However, its focus is on finding the needles in our import 
haystack. Trusted Trader shrinks the stack. It allows us to spare the 
agency and importers the waste of inspecting goods we could have 
already determined to be low-risk.
    To reach the level of confidence necessary for that determination, 
CPSC program administrators should not only put the applicant under a 
microscope, but pull back the curtains on its suppliers, as well. To 
interest companies in this poking and prodding, we should offer 
significant benefits, primarily in fewer inspections, lower 
administrative burdens and faster, more predictable, time-to-market.
    My priority is strengthening our safety efforts. While Trusted 
Traders would enjoy real benefits, those would come only after CPSC has 
developed empirical evidence of the competency of their supply chains. 
The bar should be reachable, but high. Of course, if we learned of a 
Trusted Trader falling short of its responsibilities, the response 
would be strong and swift.
    President Reagan espoused the principle that we should ``trust, but 
verify.'' In an evolved CPSC import surveillance system, we would 
verify, then trust--and continue to verify. By doing so, we reduce the 
enormity of the out-sized challenge and make the mission a more 
achievable one.
Conclusion
    The ports are a natural bottleneck in the stream of commerce. That 
creates both a great opportunity for protecting consumers and a high 
risk of stifling legitimate trade. With a robust RAM program, we can 
more readily identify likely violative products and keep them out of 
the stream of American commerce. With a robust Trusted Trader program, 
we can more readily identify likely compliant products and rapidly get 
them to market so that consumers can enjoy them more cheaply, more 
quickly, and more safely.

    Senator Moran. Thank you very much. Commissioner Robinson?

            STATEMENT OF HON. MARIETTA S. ROBINSON,

     COMMISSIONER, U.S. CONSUMER PRODUCT SAFETY COMMISSION

    Ms. Robinson. Thank you, Chairman Moran, Ranking Member 
Blumenthal, members of the Subcommittee.
    I have had the privilege of serving as a CPSC Commissioner 
for almost 2 years now and I am absolutely delighted to have 
this hearing and to be able to testify before you today.
    I must start by saying what an honor it is to work with the 
incredible group of professionals that we have at the CPSC. I 
am constantly amazed at how much we do with such a limited 
budget and so few people. Our professionals are extraordinarily 
committed to our mission as am I.
    There are two areas in my more expansive written testimony 
that I wish to highlight in my few minutes. First is how 
critical it is that the CPSC modernize how we gather, analyze, 
and share our data. We are the only statistical source of 
product related injury data in the world.
    It took me only a few short weeks in this job to realize 
that virtually all product related safety decisions being made 
by incredibly diverse entities both in this country and beyond 
with respect to the products under our jurisdiction are based 
on CPSC data. We are it.
    Presently, our data consists of our statistical data that 
is generated through our national electronic injury 
surveillance system or NEISS, which has been in place for over 
30 years. We basically take information from 100 emergency 
rooms and from that our epidemiologists extrapolate to 
formulate a national estimate annually of over 14 million 
product related injuries.
    We have our non-statistical data which are news media 
reports, consumer complaints to the CPSC hotline, and to our 
website, SaferProducts.gov, and a limited number of death 
certificates, trade information, and the Medical Examiners and 
Coroners Alerts Project.
    At the CPSC, our data on consumer product related injuries, 
incidents and deaths are the starting point for identifying 
trends that tell us a product is unsafe and are critical 
throughout our rulemaking process, particularly when we perform 
our requisite cost/benefit analyses.
    Outside of the CPSC, our data are used by other Government 
agencies, CDC, FDA, NHTSA, industry, manufacturers, retailers, 
trade associations, consumer groups, researchers and academics, 
and the media.
    For most of my time on the Commission, my staff and I have 
been very focused on improving our data sources, improving the 
formatting of the data to make it more accessible, and 
improving access to that data by all segments of our society.
    In this era of big data, we need to find ways to improve 
the CPSC data and how we use it. I am delighted that the Fiscal 
Year 2016 budget includes funding for some of the important 
data sources and programs, and I am pleased that we will be 
holding our first ever data hearing on June 24.
    I very much look forward to hearing from a diverse panel, 
including government, industry, and consumer advocates about 
the uses they have found for our data and how we may modernize 
and enhance our data practices.
    The second area I would like to address briefly is our rare 
mandatory rulemaking on ROVs. One of the most heart breaking 
and frustrating things about this job is watching week after 
week the number of people of all ages who are killed or 
seriously injured as a result of ROV incidents, primarily from 
rollovers.
    While some of the dangers of the ROVs are apparent, others 
are very much hidden from consumers, and it is those hidden 
hazards with which I am most concerned. We cannot afford to 
delay addressing this.
    Between January 1, 2003 and April 5, 2013, ROV accidents 
caused at least 335 deaths and at least 506 injuries, some very 
severe, including amputations, head and spinal injuries, and 
they just keep happening.
    A short ride on an ROV as I took in our lab recently made 
me understand the passion. They are really fun, but really made 
me understand the dangerous propensities even with a driver who 
was very much trying to make sure he did not mess up a 
Commissioner.
    I highly recommend such a visit to our lab to any of you 
who are involved in this issue.
    CPSC has tried for many, many years to get the ROV industry 
to incorporate simple affordable fixes to address the major 
hazards of ROVs in a voluntary standard but to no avail. Since 
the CPSC proposed a mandatory rule, things have finally 
changed.
    Recently, industry and the CPSC have been working closely 
to discuss ways to make the ROVs safer, and on June 2 the CPSC 
was delighted to learn from industry that they had finally 
voted to reopen the voluntary standard.
    Respectfully, the RIDE Act causes me great concern. I am 
sorry to see it came out of this committee. I believe it will 
cause unnecessary delays, that there is unnecessary expenditure 
of taxpayer money by asking the CPSC to pay the National 
Academy of Sciences to conduct tests that we have either 
already done or will be doing as part of the rulemaking 
process.
    Of most concern is I believe it will remove the incentive 
for industry to seriously address the unreasonable risks that 
are posed by the ROVs.
    Thank you again Chairman Moran, Ranking Member Blumenthal, 
and members of this committee. I look forward to your 
questions.
    [The prepared statement of Ms. Robinson follows:]

    Prepared Statement of Hon. Marietta S. Robinson, Commissioner, 
                U.S. Consumer Product Safety Commission
    I want to thank Chairman Moran, Ranking Member Blumenthal and 
Members of the Subcommittee on Consumer Protection, Product Safety, 
Insurance, and Data Security for providing the U.S. Consumer Product 
Safety Commission (CPSC) with this opportunity to appear at a public 
hearing and submit testimony. I have had the privilege of serving as 
Commissioner at the U.S. Consumer Product Safety Commission since July 
2013.
    I am delighted to have the opportunity to submit this testimony 
concerning ``Overseeing the Consumer Product Safety Commission'' and to 
give you a brief update on some of my priorities which are very much 
aligned with our FY16 budget request to Congress.
    It is an honor to work with Chairman Kaye, my fellow Commissioners 
and with the amazing group of professionals who comprise the CPSC 
staff. Our small staff includes scientists, engineers, lawyers, 
compliance and communications professionals, field investigators, 
economists, epidemiologists, and import surveillance, operations and 
administrative staff. I am constantly amazed at how much we do with 
such a limited budget and staff. Our professionals are extraordinarily 
talented and have abundant career opportunities elsewhere. However, 
they stay at the CPSC because they know they are making a difference 
and believe in our mission of protecting the public and, particularly, 
our children, from unreasonably dangerous products. I very much share 
this mission.
    I recently sat on a plane next to a woman from India who, when she 
learned where I work, told me she was very familiar with the CPSC and 
she had tears in her eyes as she said how lucky the children and 
parents in the U.S. are to be protected by our agency. I wholeheartedly 
agree with her!
Priorities
    It is important to me that my priorities and the CPSC priorities 
are aligned. It is also important to me that my fellow Commissioners 
and I work together to do our parts in implementing the CPSC's agenda.
    There are five key areas in which the CPSC must continue to engage 
and which must be funded at the appropriate levels. In order for the 
CPSC to carry out its critical public health and safety mission, it 
must be able to:

  <bullet> Gather and analyze the most appropriate data on consumer 
        product-related injuries and deaths;

  <bullet> Inform and educate all populations across our diverse 
        country concerning the real and often hidden hazards of certain 
        products or situations;

  <bullet> Effectively and efficiently monitor our ports for violative 
        consumer products;

  <bullet> Research and monitor the potential hazards to consumers of 
        new emerging technologies being used in various consumer 
        products; and

  <bullet> Review current rules and regulations to ensure they are not 
        overly burdensome on industry or inappropriate as a result of 
        technological or other industry advances.

    I would like to further explain these five areas and, in so doing, 
highlight the work my personal staff and I are doing to further support 
the CPSC's FY16 budget and public health mission.
(1) Gather and Analyze the Data
    Within days of being sworn in as a Commissioner, I started meeting 
with various groups that had issues before the agency, including 
consumer groups, trade associations, standards development 
organizations, and representatives from small and large companies. 
Multiple times each week, I would hear arguments either for or against 
additional consumer safety rules, standards or initiatives. Inevitably, 
the data cited in support of the arguments were generated by the CPSC.
    Additionally, I learned that most of our work here at the CPSC 
begins with an analysis of our data on consumer product-related 
incidents, injuries, and deaths and these data continue to be used 
throughout the rulemaking process. I quickly realized how vital our 
data are to virtually all product-safety decisions in this country and 
around the world. As a result, I am committed to ensuring that the CPSC 
gathers the best and most appropriate data possible and am constantly 
searching for new ideas to improve these data. My staff and I have been 
actively learning about the newest developments relating to data 
innovation. We have been attending events such as Health Datapalooza, 
Fedscoop summits, and similar conferences. We have also been talking 
with many of our counterparts at other government entities to learn how 
they have modernized the collection and utilization of their data to 
better serve the public.
    I am pleased to note that my fellow Commissioners and our senior 
management also believe that data must be a high priority for the CPSC. 
To that end, we will be holding our first-ever public hearing on Data 
Sources and Consumer-Product Incident Information next week, on June 
24, 2015, right after our annual Priorities Hearing. We have already 
received many enthusiastic responses to our announcement of the 
hearing, and we hope to hear from a diverse panel of representatives 
who will help us build on and improve our current data practices and 
capabilities.
    As many of you know, the CPSC collects consumer product-related 
incident data in a number of ways. The CPSC's statistically 
representative data are collected through the National Electronic 
Injury Surveillance System (NEISS). The NEISS was created over 30 years 
ago by CPSC epidemiologists. It is comprised of approximately 100 
hospital emergency departments specifically selected to allow 
statistical extrapolation of consumer product-related injuries to the 
national level and assess injuries over time. The NEISS collects 
approximately 400,000 product-related injury reports annually from 
participating hospitals that represent a national estimate of over 14 
million product-related injuries treated in hospital emergency 
departments.
    The CPSC's non-statistical data are collected in several different 
ways. The sources of our non-statistical data have for many years 
included news media reports, consumer complaints to the CPSC Hotline, a 
limited number of death certificates, trade information, and the 
Medical Examiners and Coroners Alert Project.
    In May 2011, the CPSC launched our searchable database, available 
at www.SaferProducts.gov. This database allows anyone to submit a 
report of harm or risk of harm related to the use of consumer products 
or substances within CPSC's jurisdiction. To date, there are 
approximately 23,300 publicly available reports on 
www.SaferProducts.gov, primarily received from consumers. CPSC staff 
begins their analysis of this data immediately upon receipt to identify 
potential emerging hazards.
    As I noted earlier, I have been very focused on trying to identify 
ways in which we may improve our data sources as well as the public's 
use of it. To that end, I am pleased that the FY16 budget includes:\1\
---------------------------------------------------------------------------
    \1\ CPSC FY16 Budget Submitted to Congress, p.15.

---------------------------------------------------------------------------
  <bullet> $2.2 million for the NEISS;

  <bullet> $2.7 million for our Consumer Product Risk Management System 
        (CPRMS), the CPSC's internal system that includes: 
        www.SaferProducts.gov, the publicly searchable incident 
        reporting portal; the business portal; an internal application 
        for CPSC staff to analyze and triage incident reports; and a 
        case management system for CPSC to respond to incidents; and

  <bullet> $900,000 for our CPSC hotline.

    These funds are absolutely essential to ensure that the CPSC may do 
the hard work required to protect consumers from hazardous and 
dangerous products. At its core, the CPSC is a data-driven agency. For 
those who seek to reduce burdens of unnecessary regulation, providing 
the critical, supporting data is a necessary first step towards that 
end.
(2) Inform and Educate all Populations of Hazards
    The CPSC FY16 budget states that one of the most cost-effective 
methods of reducing incidents, injuries and deaths related to consumer 
products is by effectively, efficiently and quickly ``[c]ommunicating 
safety responsibilities to industry and educating the public on the 
best safety practices and recalled products.'' \2\ The CPSC has 
committed $8 million to ``raise public awareness through timely and 
targeted information about consumer product safety issues'' \3\ 
including notifying consumers about recalls as well as ongoing hidden 
hazards. I fully support this commitment of CPSC's precious resources 
to this critical priority.
---------------------------------------------------------------------------
    \2\ Id. at 9.
    \3\ CPSC FY16 Budget Submitted to Congress, p. 21.
---------------------------------------------------------------------------
    Our ability to collect and share the best data is central to our 
efforts to inform and educate the public about consumer product-related 
hazards. We recently completed a project formatting our recall data to 
make them more usable. We have already seen young innovative developers 
use these enhancements to create apps that can help keep the public 
informed of product recalls. I am pleased that the Commission voted 
unanimously to support my amendment to our Midyear to elevate the 
priority of a similar project that will make consumer reports on 
saferproducts.gov more accessible and useful.
a. Improving Recall Effectiveness

    Because I believe one of the greatest ways of ensuring safety is to 
remove hazardous products from the marketplace, I am personally 
committed to figuring out ways to improve overall recall effectiveness 
of consumer products as a way to support the CPSC's larger goal of 
``Raising Awareness.'' \4\
---------------------------------------------------------------------------
    \4\ Id.
---------------------------------------------------------------------------
    Many of you have read the Kids In Danger Report: A Decade of Data: 
An In-depth Look at 2014 and a Ten-Year Retrospective on Children's 
Product Recalls.\5\ I found the report both very encouraging and 
somewhat discouraging. It was encouraging to see that stronger 
standards and oversight by regulatory agencies such as the CPSC have 
had a measurable effect on product safety and there have been 
significant decreases in the past decade in incidents, injuries and 
deaths related to consumer products. However, it was very discouraging 
to read that ``the majority of recalled children's products continue to 
remain in consumer hands (79.79 percent).'' \6\ And that ``[o]nly 14 
percent of all 2013 recalled children's products were destroyed or 
fixed.'' \7\
---------------------------------------------------------------------------
    \5\ http://www.kidsindanger.org/docs/research/
2015_KID_Recall_Report.pdf.
    \6\ Id. at 2.
    \7\ Id.
---------------------------------------------------------------------------
    The Kids In Danger Report concludes that companies need to devote 
their social media to publicizing recalls as effectively as they do 
marketing products. Currently, ``less than a quarter of companies with 
a Facebook presence use it to share recall information.'' \8\ Companies 
using Facebook, Twitter, Instagram, or other social networking 
platforms to market toys should also use those social media tools when 
they have a product recall. Doing so is good for both consumers and 
business. One recent study showed that companies using certain types of 
social media in connection with their recall announcements experienced 
lower stock price reductions than those companies not using social 
media.\9\ Perhaps research such as this will encourage companies to be 
more creative in using social media to get dangerous products off the 
market. I have spoken to and intend to continue to speak to industry 
about this issue as much as possible. Consumers deserve the same 
respect for their safety as companies give to their purchasing dollars.
---------------------------------------------------------------------------
    \8\ http://www.kidsindanger.org/docs/research/
2015_KID_Recall_Report.pdf, pps. 14-16 and 31.
    \9\ The Role of Social Media in the Capital Market: Evidence from 
Consumer Product Recalls, Journal of Accounting Research, Lian Fen Lee, 
Amy Hutton and Susan Shu, Accepted manuscript online: 3 FEB 2015 
01:03AM EST, DOI: 10:1111/1475-679X.12075, p. 33. (``First, we find 
that corporate social media, in general, attenuates the negative price 
reaction to product recall announcements. This finding is consistent 
with social media increasing the effectiveness of the recall process 
itself including limiting harm, as well mitigating the repercussions of 
the recall for the firm's brand equity and reputation.'').
---------------------------------------------------------------------------
b. Hidden Hazard: TV and Furniture Tip Overs

    Another one of my priorities is increasing awareness of the dangers 
associated with the hidden hazards of TV and furniture tip overs. There 
were 430 tragic and preventable deaths between 2000 and 2013 involving 
young children trapped or crushed after a dresser, TV, bookcase, table, 
appliance, or other large item fell on them.\10\ Our statistics show 
that a child dies every two weeks from a piece of furniture, a TV, or a 
piece of furniture and a TV falling onto him or her and every 24 
minutes, a child is taken to an Emergency Department due to a tip-over 
incident.\11\
---------------------------------------------------------------------------
    \10\ Product Instability or Tip Over Injuries Associated with 
Televisions, Furniture and Appliances: 2014, CPSC August 2014, p. 2.
    \11\ http://www.cpsc.gov/en/Safety-Education/Safety-Education-
Centers/Tipover-Information-Center/
---------------------------------------------------------------------------
    I am delighted that Commissioner Mohorovic is also committed to 
this issue. Together, we can leverage our positions as Commissioners to 
bring more awareness to this issue. We met with major retailors of both 
furniture and electronics at the International Consumer Product Health 
and Safety Organization Annual Conference in February to brainstorm 
ideas beyond just education, and we will be following up on these to 
try to make some real progress in this area.
    Just earlier this month, CPSC launched its ``Anchor It!'' campaign 
to reach all consumers and educate them on the serious dangers of TV 
and furniture tip overs. This national campaign encourages everyone to 
anchor TVs and furniture appropriately to avoid these completely 
preventable serious injuries and deaths. The campaign includes a public 
service announcement, a comprehensive website: www.anchorit.gov, and 
partnerships with safety advocates and other stakeholders. Going 
forward in FY16, education and outreach on TV and furniture tip overs 
will continue to be one of the areas the CPSC's Communications 
department works on as part of the $8 million allocated to them.
(3) Monitor our Ports

    During calendar year 2013 alone, more than 235,000 importers 
brought approximately $723 billion of consumer products under the 
CPSC's jurisdiction into the country.\12\ That averages nearly $2 
billion per day in imports of consumer products under the CPSC's 
jurisdiction.\13\ Since 2008, four out of five product recalls in the 
United States have involved an imported product.\14\
---------------------------------------------------------------------------
    \12\ CPSC FY16 Budget Request to Congress, p. 9.
    \13\ Id.
    \14\ Id.
---------------------------------------------------------------------------
    As you know, the Consumer Product Safety Improvement Act of 2008 
(CPSIA) was enacted, in part, because of a wave of noncompliant 
imported children's products.\15\ As part of the CPSIA, the CPSC was 
required to develop a risk assessment methodology (RAM) and work with 
U.S. Customs and Border Protection (CBP) to address the influx of 
noncompliant children's products and to date, on a pilot basis, our 
Office of Import Surveillance has done so.\16\
---------------------------------------------------------------------------
    \15\ Id.
    \16\ Id.
---------------------------------------------------------------------------
    The CPSC's FY16 budget prioritizes scaling up the pilot import 
surveillance program nationwide. The FY16 budget further requests 
Congress to authorize a product safety user fee in FY16 with 
collections beginning in FY17 in order to fund the expansion of the 
surveillance program to meet the requirements of the SAFE Port Act of 
2006 and Section 222 of the CPSIA.
    I have made it one of my priorities to understand the CPSC's 
critical import issues since I began as a Commissioner. To that end, I 
visited our port in Los Angeles and Long Beach and discussed these 
issues with CPSC's import surveillance staff at headquarters and in the 
field. I also toured the National Commercial Targeting and Analysis 
Center, and earlier this Fiscal Year, I met with CBP and Consulate 
staffs in Guangzhou and Hong Kong to discuss many of the complicated 
safety and import issues that result from a large percentage of this 
country's manufactured goods coming from abroad. In addition, I have 
been discussing the expansion of the RAM program, the requested user 
fees, the comments to our proposed rule on Certificates of Compliance 
designed to comply with the spirit of Presidential Executive Order 
13659 requiring electronic ``single window entry,'' and the development 
of our pilot program on e-filing with our stakeholders and sister 
agencies. All of these issues are interconnected, necessary, and 
critically important to a comprehensive and well-grounded consumer 
product safety import surveillance program.
    I am also pleased to note the CPSC's efforts in working with our 
stakeholders to better understand their concerns regarding e-filing. 
Chairman Kaye has taken the extraordinary step of holding two closed 
meetings with the Advisory Committee on Commercial Operations 
(``COAC'') and the Commission has also held an open meeting to discuss 
the e-filing pilot. Our staff has taken our stakeholders' comments 
seriously and I look forward to the upcoming announcement of our e-
filing pilot program.
    It is for these reasons that I fully support our proposal for 
imports in CPSC's FY16 budget.
(4) Research New Emerging Hazards
    CPSC is responsible for researching new and emerging hazards. The 
earlier the CPSC identifies trends in incidents or injuries from 
unreasonably dangerous products, the more quickly we may move to 
eliminate those dangers.
    The CPSC Directorate of Epidemiology dedicates much of its time to 
analyzing the data that I described earlier to identify these types of 
trends. However, this ``early trend identification and analysis'' has 
limitations when we are dealing with a chronic hazard.
    Another approach to identifying new and emerging hazards is to 
focus on key materials or products in which advances in technology and 
new technical discoveries have created opportunities for industry to 
make products with these new materials or new product prototypes. The 
CPSC's continuing work on nanotechnology is just that.
    Nanotechnology ``enables scientists to produce a wide array of 
materials in the size range of 1 to 100 nanometers (nm), with unique 
physical and chemical properties that can be incorporated into products 
to improve performance in areas such as greater strength, flexibility, 
stain resistance, or cleaning ability.'' \17\
---------------------------------------------------------------------------
    \17\ CPSC FY16 Budget Request to Congress, p. 12.
---------------------------------------------------------------------------
    The National Science Foundation estimates that over $3 trillion 
will be spent around the world on incorporating nanotechnology into 
finished consumer products by the year 2020.\18\ Nanotechnology will 
become increasingly prevalent in all consumer products over time, yet 
not much is known about the safety of these new and innovative 
materials when they are included in consumer products. There are 
potentially dangerous implications for using these nanomaterials in 
consumer products.
---------------------------------------------------------------------------
    \18\ Id.
---------------------------------------------------------------------------
    The CPSC has followed the lead of other Federal Government agencies 
as well as the National Nanotechnology Initiative (NNI) in conducting 
specific research on nanotechnology and the commercialization of 
products containing nanomaterials. The CPSC has been a part of the NNI 
since 2003 and during the past 12 years, the CPSC has committed an 
average of just under $1 million per year to studying the question of 
human exposure to nanotechnology in consumer products. However, due to 
the complexities of nanotechnology and the rapidly evolving technology 
of developing nanomaterials, the CPSC does not yet have the appropriate 
testing methods for characterizing and quantifying nanomaterials; the 
capability to identify, characterize and readily quantify consumer 
exposures to nanomaterials in consumer products; the capability to 
assess the potential health risks of exposure to nanomaterials in 
consumer products, or the ability to obtain reliable data on 
identifying new products containing nanomaterials or information on 
consumer use and interaction with these products once they are 
introduced into the marketplace.
    For these reasons, I support the major investment of an additional 
$5 million for the creation of the Center for Consumer Product 
Applications and Safety Implications of Nanotechnology (CPASION) in the 
CPSC FY16 budget. This allocation is necessary to adequately fund 
research on nanomaterials and the development of technology to test, 
quantify and analyze nanomaterials and our exposures to those same 
nanomaterials in consumer products and most importantly to determine 
what, if any, hazards result from such exposures.
(5) Rule Review

    Sometimes, government overlooks outdated regulation when it is 
clear that new information, data, or technology provides a better 
solution to a historical problem. The CPSC should regularly revisit its 
regulations, especially when it is clear that certain rules are 
potentially unduly burdensome to various stakeholders. Presidential 
Executive Orders 13563 Improving Regulation and Regulatory Review, 
13579 Regulation and Independent Regulatory Agencies, and 13610 
Identifying and Reducing Regulatory Burdens state the same principles.
    I proposed an amendment to the FY15 operational plan that was 
accepted and that directs staff to review the more than 40-year-old 
fireworks rule in light of current fireworks technology and provide the 
Commission with a briefing package on options to possibly revise this 
rule. After visiting fireworks manufacturing, production and testing 
facilities in Liuyang, China several months ago, and understanding the 
burdens on manufacturing and testing to the current CPSC standard, I 
was convinced this standard needed to be reviewed. I look forward to 
receiving a recommendation from our technical staff on this issue in 
FY15 and to the notice of proposed rulemaking included in the CPSC FY16 
budget. I also voted in favor of Chairman Kaye's mid-year amendment 
instructing staff to draft a CPSC Retrospective Review Plan for the 
Commission's consideration. I look forward to reviewing their proposal.
    Another issue with which I have become intimately familiar is the 
desire of many of the CPSC's key stakeholders, as well as all five 
Commissioners, to reduce certain third party testing burdens for 
children's products while assuring compliance with all applicable 
rules, bans, regulations, and standards. It is my understanding that 
many of you on this Subcommittee are deeply concerned with CPSIA's 
potentially burdensome third party testing requirements for children's 
products as well. I recently partnered with Commissioner Buerkle to 
elevate the priority of a burden reduction-related project as part of 
our mid-year funding cycle, and was pleased that the Commission voted 
unanimously in favor of this change. I am also pleased that we voted as 
a Commission to release three upcoming burden reduction rule proposals 
as ``direct to final'' rules, which should expedite the implementation 
of our burden reduction efforts.
    In FY15, Congress provided the CPSC with $1 million to conduct work 
targeted at meaningful reduction of third party testing costs of 
children's products consistent with assuring compliance with all 
applicable rules, regulations, bans, and standards. I have spent much 
time on this issue since I arrived at the CPSC. I have had detailed 
discussions with staff and many stakeholders, visited toy manufacturers 
and testing facilities both in the U.S. and China, attended the CPSC 
Workshop on this issue, and reviewed stakeholder comments. I know that 
all five Commissioners are deeply committed to this issue and I am 
hopeful that we are going to see real, concrete change soon. I expect 
to receive a recommendation from staff by the end of the FY15 and 
hopefully, as is directed in the FY16 budget, receive a recommendation 
for a final rule next year.
Ensuring the Safety of Recreational Off-Highway Vehicles
    One area that has been receiving a great deal of attention both at 
the CPSC and in Congress is our proposed mandatory rule to make 
recreational off-highway vehicles (``ROVs'') safer.
    On October 29, 2014, the CPSC voted to publish a notice of proposed 
rulemaking (``NPR'') proposing a mandatory standard for ROVs. I was 
proud to vote in favor of this important first step in addressing the 
unreasonable risk of injury and death posed by ROVs. Many ROVs, as 
currently designed, are unreasonably dangerous. Among the hazards 
associated with these dangerous ROVs are their high propensity to roll 
over, and the fact that they exhibit unpredictable handling, which 
contributes to rollover risk. CPSC's data show that in the vast 
majority of ROV incidents involving injury and death, the ROV rolled 
over.
    For many years before the NPR, CPSC engineers and representatives 
of the Recreational Off-Highway Vehicle Association (``ROHVA'') and its 
members had ongoing communications concerning a proper safety and 
testing standard for ROVs. ROHVA developed a voluntary standard in 2011 
and, again, in 2014 through an American National Standards Institute 
(``ANSI'') process known as the canvass process, which it led and 
dominated. As part of that process, the CPSC engineers informed ROHVA 
repeatedly that, based on CPSC testing and accident data, they did not 
believe either of the ROHVA/ANSI voluntary standards went far enough in 
making ROVs safer for consumers, particularly with respect to vehicle 
stability, handling, and occupant protection. Further, based on CPSC's 
experience with the Yamaha Rhino repair program, CPSC engineers 
informed ROHVA that the changes that would be required to meet the 
safety requirements advocated by the CPSC are relatively easy and 
inexpensive to make.
    When the CPSC concerns were not addressed in the draft that became 
the 2014 ROHVA/ANSI standard, CPSC staff proposed a mandatory standard 
that included the safety measures they had repeatedly and 
unsuccessfully asked ROHVA to incorporate in the voluntary standard. 
CPSC's proposals in this NPR included a thorough analysis of the draft 
2014 voluntary standard, which was identical in all key respects to 
what became the final voluntary standard. CPSC engineers are confident 
that compliance with the proposed mandatory standard would make ROVs 
much safer than compliance with the ROHVA/ANSI voluntary standard 
would. Their position is based on CPSC's thorough accident and testing 
data.
    Since CPSC published its NPR, CPSC has dedicated significant staff 
time and resources meeting with industry representatives. CPSC staff 
has been listening with an open mind to industry's comments on the 
proposed rule. Industry finally appears to be willing to rethink the 
inadequate 2014 voluntary standard. On June 2, 2015, ROHVA informed 
CPSC's staffs that its board has decided to reopen the voluntary 
standard. ROHVA also expressed its hope that CPSC would be engaged in 
the voluntary standard process, as it has been throughout. This is very 
encouraging news, and is exactly what CPSC has been urging industry to 
do. Only industry has the power to revise the voluntary standard. Some 
of my fellow Commissioners and I have repeatedly urged industry to 
improve the voluntary standards so that a mandatory standard will not 
be needed. We are pleased to see that they have taken a first step in 
that direction.
    The pace of industry's progress on improving the safety of their 
products has increased exponentially since the CPSC published its NPR. 
It is clear that the threat of a mandatory standard was the catalyst 
for these positive developments. CPSC and industry have been working 
closely together to address these safety concerns over the last several 
months. The unreasonable risk to life and limb posed by ROVs compels 
CPSC to continue working towards completing a mandatory standard, but, 
as we have stated repeatedly throughout this process, we would like 
nothing more than to see industry develop a robust voluntary standard 
that would obviate the need for such a mandatory standard.
    Unfortunately, all this progress may be put to an end if the 
pending ROV In-Depth Examination Act (``RIDE Act'') becomes law. The 
RIDE Act is a misguided piece of legislation. The RIDE Act would delay, 
if not derail, improvements in ROV safety, and thus result in 
unnecessary deaths and injuries. The RIDE Act would essentially halt 
CPSC's current rulemaking, thus removing the very incentive that has 
finally spurred industry action to curb the risks posed by ROVs. 
Second, requiring CPSC to contract with the National Academy of 
Sciences (``NAS'') to study CPSC's proposed standard would be a waste 
of taxpayer money. CPSC would have to pay NAS hundreds of thousands of 
dollars to carry out tests that CPSC is already undertaking as part of 
the development of the final rule. Third, diverting scarce CPSC 
resources to a contract with NAS would prevent CPSC from fully engaging 
in the newly reopened voluntary standard process. Finally, the NAS 
study would require an examination of the impact of the proposed rule 
on ROVs for military use. Nothing in our proposed rule effects military 
vehicles, nor is it within our purview.
    The comment period on the proposed rule is still open. CPSC is 
actively testing and analyzing the current proposal as part of the 
development of the final rule. CPSC and industry are actively and 
productively engaged in discussions on the best way to make ROVs safer. 
Industry has also heeded CPSC's call and reopened the voluntary 
standards. It would be tragic if the RIDE Act derailed these lifesaving 
developments.
Conclusion
    Finally, this is my first job in government and I continue to learn 
many new things every day. This is one of the most rewarding positions 
I have held in my career. As I said before, I am grateful for this 
opportunity to be a Commissioner at the CPSC and to testify before you 
here today about these extremely important and mission-critical issues.
    Nevertheless, there are some discouraging things about this job, 
most prominently the length of time it takes to get a mandatory 
standard passed when industry refuses to pass an appropriate voluntary 
standard that adequately reduces the risks of death or injury. While I 
understand the process takes time, it is frustrating that consumers 
continue to be unnecessarily at risk and harmed.
    I have learned much about Sections 7 and 9 of the Consumer Product 
Safety Act (CPSA) that are unique to the CPSC. These provisions require 
the CPSC to not only do a cost/benefit analysis of the regulatory 
choice we have made--a requirement of all regulatory agencies under 
Section 553 of the Administrative Procedure Act which I very much 
support--but also of each and every regulatory choice we rejected. This 
is extremely burdensome and time consuming and results in needless 
delay in passing safety standards that are truly needed to properly 
protect the public.
    When Congress relieves the CPSC of the unique requirements of 
Sections 7 and 9, the rulemaking process moves forward more effectively 
and efficiently--as it did when a bipartisan Congress tasked the CPSC 
with passing drywall safety rules, and with mandatory rulemaking under 
CPSIA on durable infant products. Since the passage of CPSIA seven 
years ago, the CPSC has issued 14 final rules on durable nursery 
products. Compare that with a total number of 10 rules completed since 
1981 when Congress amended Sections 7 and 9 of the CPSA. History shows 
us that when Congress wants effective, efficient, and timely 
rulemaking, Congress directs CPSC to use APA Section 553 rulemaking. 
The APA Section 553 process is the most appropriate process to use for 
critical consumer product safety rules. I am hopeful that Congress will 
provide the CPSC with many more opportunities to address unreasonable 
consumer product hazards by conducting rulemaking under APA Section 553 
in the future.
    I want to end on a positive note and say that that I am proud of 
having been a part of the CPSC's work since 2013. One example of 
government working at its best was our rulemaking on small rare earth 
magnets sets.
    In 2012, pediatric gastroenterologists came to the CPSC when they 
found a precipitous increase in young children being severely injured 
from swallowing these tiny magnets with eight times the magnetic force 
as is allowed in children's products. When more than one was swallowed, 
the child's intestines would clamp together from the magnetic force 
causing blood flow to be cut off and, because the parents often did not 
know the child had swallowed magnets and the first symptom was 
vomiting, the diagnosis was frequently delayed until permanent 
intestinal damage had been done. The CPSC worked with various industry 
members including retailors and others to educate people on the hazard, 
do recalls and, ultimately, prepare the mandatory standard that 
requires magnets sold in magnet sets to either be the much-weaker 
strength allowed in children's products or be large enough that a child 
cannot swallow them. The CPSC worked with interested parties and 
stakeholders to get this right. I am proud that I was able to be a part 
of this process.
    Thank you again Chairman Moran, Ranking Member Blumenthal, and the 
Members of the Subcommittee on Consumer Protection, Product Safety, 
Insurance, and Data Security, for this opportunity to submit this 
statement for the record.

    Senator Moran. Commissioner, thank you. Thank you all for 
your testimony. Commissioner Mohorovic indicated in his 
testimony--I think this is what you were saying, 80 percent of 
the recalls are associated with imported products.
    Chairman Kaye, tell me how that statistic fits into the way 
the Commission operates, where its focus is, and how it 
establishes priorities to address that statistic, if that 
statistic is true, and then tell me how the RAM pilot program 
is designed to address that issue.
    Mr. Kaye. Thank you, Mr. Chairman. That is an accurate 
figure, Commissioner Mohorovic is absolutely right. I think 
that data is from around 2008 through the present.
    We do try to focus our efforts, and this is why we made the 
proposal that we have, to try to build out our import work 
because we feel it is far more efficient and far more effective 
to be interdicting these products at the ports before they get 
into our markets.
    It is just not as efficient as a government agency at that 
point once they have been disbursed to try to capture them once 
they have hit store shelves and pull them off, and we also know 
that when they are in consumers' hands, it becomes that much 
more challenging.
    We feel like, and this is why we made the proposal we did, 
and I think this is why Congress included Section 222 in the 
CPSIA, that it is a far more effective system for our efforts 
to be located at the ports, and I thought Commissioner 
Mohorovic in particular did an excellent job in focusing his 
testimony on the value of this system.
    The way we imagine the full blown system working is that we 
would have better targeting data. We would be able to cover 
many more entries that come in. Right now, we are only looking 
at about 200 of the harmonized tariff codes that apply in a 
product area, and we would expand that to tens of thousands of 
harmonized tariff codes on products within our jurisdiction.
    We would have a far greater reach to be able to detect 
those non-compliant and dangerous products that are coming in, 
and importantly, get them before they get to the ports and 
certainly before they pass through the ports and get into 
consumers' hands.
    Senator Moran. Chairman, tell me about the relationship 
between this full build out of RAM and the 1110 rule on e-
filings and how they fit together. Is one a necessary 
ingredient of the other?
    Mr. Kaye. Correct. I think the most important contextual 
piece to all this is the President's Executive Order from a 
year ago February which requires by December of 2016 that 47 
Government agencies, of which CPSC is one, with presence and 
authorities at the ports, create a single window for entry and 
exports, so for an entry--we are focused on entry, obviously 
not export--for an entry entity, instead of having to work 
agency by agency to deal with those agencies and to understand 
the issues, everything would go into a single portal, and 
importantly, on the back end what would happen is that would 
get transmitted electronically to all the other agencies that 
have jurisdiction over those products, and then there would be 
an important messaging communication capability.
    What you have right now, when a product is stopped at the 
ports, usually it is only Customs and Border Protection that 
the entity has visibility with, but it may have been the FDA, 
it may have been us, it may have been EPA, another agency that 
may have put the hold on that product for very legitimate 
reasons, but the company does not know that.
    There is no visibility of that. They do not know why it was 
held, they do not know who held it, and they do not know 
importantly when it is going to get released. We appreciate the 
fact that first of all it is frustrating for them not to know 
that, but there are real dollars associated with any delays 
involved in that process.
    The single window envisions having a two way messaging so 
there would be instant communications with the importers so 
they understand who is holding it, why they are holding it, and 
importantly when it will be released.
    That single window is the larger concept in which all this 
fits. Our 1110 rule or so-called 1110 rule would require 
electronic filing as the CPSIA allowed so that we would be able 
to participate in the single window, and I think that is a 
critical component.
    It does not make sense to have a 46 plus 1 system, 
especially when you consider the vast jurisdiction of CPSC's 
areas.
    Senator Moran. In this particular area, you seem to be 
concerned about the cost to the importer, to the business. 
Commissioner Buerkle in particular pointed out the associated 
costs, the regulatory environment, the increased expense of 
doing business with this program.
    How do you expect to address those concerns, the ones 
raised by Commissioner Buerkle? Is there a cost/benefit 
analysis? I know you are not required to do the benefit side. 
You are required to do the cost side. I assume you are 
interested in the consequences of this pilot program and the e-
filings and what it would mean to the cost of doing business in 
the United States.
    Mr. Kaye. We are. I think all of those questions are viewed 
in the process that we are undertaking. We have actually moved 
in an incredibly slow and methodical way, and we have had, 
really I would imagine from my perspective in almost 5 years at 
the agency, almost an unprecedented amount of consultation with 
the trade.
    We set up a working advisory committee group with the trade 
to make sure we were getting that kind of feedback. We have had 
a number of meetings, both closed, to consider some of the 
proprietary information, as well as open meetings. We are now 
moving to another step with Customs and Border Protection where 
that dialogue will continue.
    At each stage, we are trying to take into consideration 
what is the right balance to strike to make sure we are 
focusing on those folks that we should be focusing on, and 
those who are following the rules are moving their stuff 
through more quickly as the system would envision.
    I think it is important to point out that is why we asked 
for a user fee, because a user fee, unlike general 
appropriations, gives us the flexibility to make sure, 
hopefully downward, that we are adjusting that fee based on 
real life circumstances as opposed to just taking a set sum of 
money and trying to make that solve the problem.
    Senator Moran. Commissioner Buerkle, any response to either 
my questions or what the Chairman indicated?
    Ms. Buerkle. Thank you. Any of my comments that I am going 
to make really should not be construed as being opposed to 
import surveillance and increasing our presence at the ports. I 
think that is all very good. My concern is that number one it 
is an extremely complex issue, as pointed out by my colleagues. 
We are looking at it like this and we should be looking at it 
as the components are separate.
    If we talk about the existing RAM, in our mid-year ops 
plan, we had some excess money, we made an allocation of $3 
million so we could purchase the software of the current RAM 
system and then we can have more control over the parameters 
and the rulemaking for that system. I think that will allow us 
right now to enhance the current RAM program.
    We also are in the process of getting a requirements 
analysis done to expand the RAM. That is going to cost the 
agency about $1 million.
    Why are we talking about and asking for more money or even 
discussing a user fee until we know what the needs are and what 
the costs will be of that expanded RAM?
    That is the next piece of it. Then the 1110 rule, and I 
want to agree with the Chairman, there has been unprecedented 
engagement on that issue, but my concern is when the rule came 
out, there was a tremendous amount of opposition to that 
proposed rule, and we have had all of this engagement, but now 
close to 2 years later, we are going to put out a rule, we are 
going to conduct a pilot, and basically we are using the exact 
same elements and components of that proposed rule.
    Again, we had those engagements but we have not implemented 
the concerns, and my hope is that the agency would take on this 
pilot and they can have several small pilots, but pilots that 
are small enough, manageable enough that we do not bring trade 
to its knees, and that we get an understanding of simple, and 
as we begin to develop it, we can get to the more complicated 
scenarios, but the pilot would be incremental rather than one 
size fits all, move ahead full speed.
    Senator Moran. Thank you very much. I know a number of 
questions will follow on this topic, perhaps from Senator 
Blumenthal.
    Senator Blumenthal. Yes, I do have a number of questions, 
but I am hoping also we will have a second round where we can 
explore some of the other issues as well.
    There is no question in my mind and I hear no dissent on 
the issue here that import surveillance is of tremendous 
benefit to consumers, but also frankly to American businesses 
that play by the rules and do not put lead paint in their 
products, do not produce defective tires, as the Chinese have 
done, stopping defective or dangerous products at our Borders 
is a benefit to American business as well as consumers.
    I support the expansion, and I hear differences in our 
panel only as to how quickly it is done, and what the 
methodology should be.
    Chairman Kaye, let me ask you to respond to the point made 
by Commissioner Buerkle. What would be the cost? Do you have a 
cost estimate for a full scale national program?
    Mr. Kaye. So, there are three different components, 
Senator, and we had made an estimate based probably at this 
point on outdated information, but the best we had at the time 
back in 2011 when we reported to the Congress on the status of 
the pilot, and there is an IT component, a personnel component, 
and then there is also a lab capacity component, to make sure 
that at every stage we can handle the increased volume.
    We need more folks at the ports if we get this funding 
mechanism. We certainly need an enhanced IT system to be able 
to build out, and then we need the capacity to be able to 
handle all the samples that come from pulling these potentially 
violative products and to test them in a timely fashion.
    My recollection is the IT component was probably about $60 
million. I think what we are looking at overall is about $36 
million per year of an import program. It is currently funded 
at $17 million a year, so we are talking about increasing it by 
$19 million.
    I do think it is important to address the point of the 
timing of it. If Congress, and we hope Congress does, but if 
Congress were to approve a user fee authority, it does not go 
into effect immediately. It would still take years of notice 
and comment rulemaking and working with the trade and trying to 
refine the proposal, and frankly, working with this committee 
and working with Congress to make sure we got that number 
right.
    I do not think we can move much more slowly at this point, 
and I think there is a real risk as I mentioned when 2016 hits 
that if we are not part of that single window, that is going to 
slow things down.
    Senator Blumenthal. Just one Senator's opinion, I hope you 
will move more quickly. I have no question, none, about the 
constitutionality of this system. It is of obvious benefit. A 
user fee is well precedented in our experience as a means of 
paying for this kind of program. I think it will help save 
lives. I hope you will move as quickly and expeditiously as 
possible.
    As important as import surveillance is, because it keeps 
dangerous products off the shelves, before they reach the homes 
of consumers, I am also concerned about more robust mechanisms 
to recall products once they have entered the market.
    There is a report, you may have seen it, Kids in Danger, a 
non-profit organization dedicated to protecting children by 
improving product safety, issued a report in February showing 
what strikes me as truly dismal recall effectiveness 
statistics.
    This is a really urgent and important problem. According to 
the report, the vast majority of consumers who own a recalled 
product never find out about it, about the recall. Nearly 80 
percent of all recalled children's products are still in the 
hands of those children as opposed to the manufacturer, the 
retailer or distributor, and of those recalled products that 
had reached consumers, only four percent are returned, 
destroyed, or fixed. Only four percent of all those dangerous 
products are returned, recalled, or fixed.
    The question I have for you, Chairman Kaye, is what 
additional enforcement tools do you think are necessary to make 
sure that manufacturers do their part to ensure that consumers 
promptly remove potentially hazardous products from their 
homes.
    And specifically in 2013, as you know, the CPSC issued a 
Notice of Proposed Rulemaking which would make a manufacturer's 
corrective action plan legally binding. What is the status of 
that rulemaking?
    Mr. Kaye. Senator, thank you for raising the issue of 
recall effectiveness. It is one of those topics where I feel it 
cannot get enough attention because of the frustration that we 
face and really all Federal agencies with recall-related 
authorities have faced for decades.
    I note, for instance, NHTSA recently had a forum on recall 
effectiveness, and if folks are having a hard time or not 
paying attention to taking their automobiles in when there is a 
recall, then I think that gives you a sense of the problem.
    We have certainly looked at this a number of times in a 
number of different ways, and we are very grateful for the Kids 
in Danger report for putting it in relief how stark the numbers 
can be. I have had discussions with our compliance staff about 
trying to figure out what more we can do once a recall is 
announced to make sure we are really following up on certain 
recalls, those of the highest priority, to try to get 
consumers' attention to take more action.
    All recalls are not alike. There are some recalls that I 
think it is good to issue them, but in terms of really devoting 
the resources, there are other recalls that have much more of a 
life saving aspect to them, and I would like to see our staff, 
and this is a discussion we have had, I would like to see them 
really dedicate more resources to discerning better between the 
two different types of recalls and focusing more post-recall 
announcement effort on those recalls that really need the work.
    Senator Blumenthal. What about the rulemaking on the 
corrective action plan?
    Mr. Kaye. This was a proposal that came up a couple of 
years ago when there was a different configuration of the 
Commission, and the staff has proposed a template basically for 
how voluntary recalls should be processed.
    When it got to the Commission level, there were a series of 
amendments that certainly made the rule more controversial.
    When I took over this position about a year ago, I made it 
very clear then and I have said it on a number of occasions, 
that with such limited resources, I wanted to make sure the 
agency was focusing on those rules that were addressing 
persistent long term hazards, ROVs, window coverings, those 
types of issues where lives were being lost on a regular basis 
because of those products, and if we were able to turn our 
attention to items like the voluntary recall notice rule, it 
would be great if we could.
    There is certainly value to it, having more of a systemized 
process. I know some of the other Commissioners, Commissioner 
Robinson in particular, feels very strongly about it. My hope 
is that we can figure out as a commission a way working 
together as a group to come up with a compromise that we feel 
like will further consumer safety and accelerate the process.
    Senator Blumenthal. Thank you. My time has expired. I want 
to come back to this issue. I think you have answered it well, 
particularly in light of Commissioner Robinson's very important 
testimony about gathering and analyzing data and the need for 
more transparency and facts when we view and evaluate the 
effectiveness of a recall.
    Thanks, Mr. Chairman.
    Senator Moran. Thank you. Senator Daines?

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman. I want to talk 
about this issue of voluntary standards, and particularly as it 
relates to recreational off highway vehicles.
    Last month this committee passed the Recreational Off 
Highway Vehicle bill, which I co-sponsored, postponing the 
Commission's controversial ROV rulemaking. Mr. Russ Ehnes is a 
gentleman from Montana. He is executive director of the 
National Off Highway Vehicle Conservation Council located in 
Great Falls.
    He says at best when describing the benefit and safety 
aspects of ROVs for farmers, for ranchers, for sportsmen, and I 
quote, he says ``There is no doubt that we are seeing 
increasing numbers of vehicles as riders transition from ATVs 
and 4x4s to ROVs. More and more Montanans are realizing the 
benefits of the latest ROVs. They are very comfortable. They 
are inexpensive to operate and maintain. They are practical. 
They provide access to places that Montanans want to go, and 
most of all, they are safe when used responsibly.
    The manufacturers themselves will tell you these vehicles 
were not designed to be operated on streets and on highways. 
They are not safe when used at high speeds on asphalt surfaces.
    The CPSC statutory authority requires it to rely on 
voluntary standards rather than issue mandatory standards 
whenever compliance with a voluntary standard would eliminate 
or adequately reduce the risk of injury identified and there is 
likely there will be substantial compliance with the voluntary 
standard.
    I was struck by the term Commissioner Buerkle used around 
trying to ``inspire'' cooperation. Contrasting that perhaps 
with inspiring conflict. As somebody who spent 28 years in the 
private sector in businesses prior to coming to Congress, I 
would hope the former versus the latter would be the culture we 
try to continue to incentivize.
    For the Chairman, why did the CPSC rush to issue the Notice 
of Proposed Rulemaking on ROVs when further testing was 
necessary and the industry was already developing new voluntary 
standards?
    Mr. Kaye. Thank you, Senator. I am really glad you raised 
this issue because I think, especially considering where we are 
in the current status of the discussions between staff and the 
ROV industry, it is a great example potentially of how this 
process should work with all parties playing their parts.
    I would respectfully disagree that we rushed, considering 
that the ANPR, the Advanced Notice of Proposed Rulemaking, 
preceded the Notice of Proposed Rulemaking by about 5 years, so 
a lot of work, a lot of study, a lot of testing had already 
gone into it over those years to try to refine a proposal that 
the staff felt like would maintain the utility and 
functionality of ROVs but would also address some of the 
unnecessary features that were leading to an unreasonable risk 
of injury and death, which we still continue to see--75 or so 
deaths per year associated with those products.
    The Commission definitely did not move quickly, and at the 
time the Commission proposed the NPR, what industry has told us 
was they had just updated their standard, our staff had 
evaluated that, had participated actually in the process of 
getting to the point of when that standard was finalized, had 
continually weighed in and expressed its concerns about where 
there were perceived shortcomings.
    When the industry told us they were done updating their 
standard, I felt it was time for the Commission to move ahead 
on the Notice of Proposed Rulemaking.
    Senator Daines. Was there any particular data that really 
compelled you to take action now?
    Mr. Kaye. Yes, I think the yearly death totals and the fact 
that children continue to be harmed, maimed, injured severely 
by these products.
    Senator Daines. Of course, on these products, there is 
always a choice. I guess as somebody who grew up in Montana--
there is inherent risks certainly, and we want to reduce the 
injuries, but if you are not in an ROV, there are other choices 
that can be more hazardous as well, the bottom line on this.
    I grew up around horses. That is an alternative. There is a 
lot of risk in taking a horse up in the back country as well.
    I want to ask Commissioner Buerkle and perhaps Mr. 
Mohorovic, do you agree with that assessment, and what specific 
steps should the CPSC have taken and cooperatively worked with 
stakeholders to ensure the actual safety of ROVs? Commissioner 
Buerkle?
    Ms. Buerkle. Thank you, Senator. I can only speak to the 
period of time I have been at CPSC, which is almost two years. 
When I arrived there, the ANPR was in place, as the Chairman 
mentioned, but then the NPR, we had to vote on the NPR, we 
received the package as we always do for the rule, and I must 
respectfully disagree with the Chairman because it was my 
admonitions and my concerns because we had bipartisan letters 
from the Senate saying do not go forward with a mandatory 
standard, try to find a solution with a voluntary standard, 
that is a better way to go.
    To the Chairman's credit, we did have a technical meeting 
in September, and that was really the first time there was real 
engagement with our technical staff and the industry's 
technical staff, and that was very fruitful, and what it 
revealed was there was a willingness on both sides to work to a 
voluntary standard and reach reasonable agreement.
    That was even more of an impetus to delay, to stop the 
rulemaking and to get back to the voluntary standard, and that 
has been my position right along, and now we are at a point 
where I personally think that the rule should be withdrawn.
    We are at a place where industry and our staff are working 
together to get to a place and an agreement with a voluntary 
standard. That is a goal we should inspire, we should really 
aspire to, because that is the best outcome. That is a win-win 
for everybody.
    Senator Daines. I am out of time. Mr. Chairman, thank you.
    Senator Moran. Thank you. Senator Heller?

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Thank you, Mr. Chairman. I want to continue 
on what my friend from Montana was questioning about, on these 
ROVs, but I want to thank you and the Ranking Member for 
today's hearing. I appreciate it. I think these oversight 
hearings are critical in ensuring product safety and consumer 
safety.
    I, too, would like to discuss the Commission's proposal 
that would impose a mandatory safety standard focused on the 
lateral stability and the vehicle handling and other related 
issues for recreational off highway vehicles.
    As the Committee is well aware of, I have had long concerns 
over this rulemaking, and I have strong concerns that these 
proposed standards will actually make the vehicles much less 
safe and much more dangerous. That is where we are today. Your 
ideas, your direction, is going to make vehicles less safe and 
more dangerous.
    We have a commission that is treating these ROVs like road 
vehicles and not the vehicles that were intended for, and that 
is for rugged terrain. I was pleased to know that Commissioner 
Robinson finally sat in one. Long overdue probably for someone 
who has to make these rules. Unfortunately, it was done in a 
test case in a facility that I am sure had them on asphalt, did 
not have them on rugged terrain, but on some testing facility 
that is supposed to guarantee to show they are not safe, and 
that is unfortunate that is where we are.
    Last year, a bipartisan group of Senators including myself, 
Manchin, Klobuchar, McCaskill, Blunt, Ayotte, Fischer, and 
Wicker all sent letters, and you mentioned that, urging the 
Commission to abandon its proposed mandatory standards in favor 
of a voluntary consensus standard. Unfortunately, things have 
not progressed as we had hoped as Senators and that is why 
Manchin and I introduce the SAFE Act--the RIDE Act.
    Our bill, which passed this committee on May 20 by a strong 
bipartisan vote, would help seek to answer technical questions 
surrounding this particular mandate. It would put the brakes on 
the CPSC's proposal until the National Academy of Sciences 
completes a technical study on the proposed requirements.
    I think we can all agree it is important we get to the 
engineering and technical issues right, ensuring that any 
mandate, voluntary or mandatory, actually contribute to an 
overall increase in safety, making these vehicles safer, which 
I believe is everyone's goal.
    Mr. Chairman, do you believe the industry's goals are to 
make these vehicles safer?
    Mr. Kaye. I believe, Senator, that the industry certainly 
does not want to have the consumers of their products 
experience an unreasonable risk of injury. I just think they 
might have a different risk tolerance or definition of what 
``unreasonable'' would be than we might.
    Senator Heller. What is the difference between your risk 
tolerance and theirs?
    Mr. Kaye. I think from my perspective, and this is just me 
speaking, I am not speaking for any of the commissioners or the 
Commission itself, my sense of it is that because our statutory 
obligations require us to consider foreseeable misuse, meaning 
if somebody chooses not to wear a seatbelt, which many people 
we know choose not to do, or somebody chooses not to wear a 
helmet, as many people choose not to do, statutorily, we are 
still obligated to consider those factors as part of what is 
unreasonable or not.
    Whereas, I think industry, understandably, I get it from 
their perspective, they view anybody who chooses not to wear a 
helmet or not to wear a seatbelt as assuming risk and having to 
deal with the consequences of that, and that might not be the 
first group of consumers that they are trying to take care of.
    Senator Heller. Do you believe every driver or passenger of 
an ROV should wear a seatbelt or helmet?
    Mr. Kaye. I do.
    Senator Heller. Under any circumstances regardless of what 
terrain they may be on?
    Mr. Kaye. Well, you are talking to somebody who has two 
young boys who is trying to reinforce a message especially when 
you are in a moving vehicle of that nature or on some type of 
bike or playing a sport, where you should take care of your 
head, and head injuries and brain injuries has been a 
particularly important area for me, so certainly I am going to 
say a helmet, absolutely.
    Senator Heller. Right.
    Mr. Kaye. In terms of a seatbelt, if you are going five 
miles an hour and you are jumping on and off the vehicle, I can 
understand from the utility perspective where that might not 
make as much sense.
    Senator Heller. Do you own an ROV?
    Mr. Kaye. I do not, but I do not think I would be allowed 
to where I live.
    Senator Heller. Have you driven or rode on an ROV?
    Mr. Kaye. I have sat on them but not while they were 
moving.
    Senator Heller. That does concern me. You said in a hearing 
recently that an adequate voluntary standard is the preferred 
solution. Do you still feel that way?
    Mr. Kaye. Absolutely.
    Senator Heller. You had a recent meeting with the off road 
industry. I understand there were productive discussions. Is 
that accurate?
    Mr. Kaye. Yes, I believe that is accurate.
    Senator Heller. Do you think you are nearing an agreement 
on voluntary standards?
    Mr. Kaye. That is the report I have been getting and I have 
to admit I have been surprised by that because you are talking 
about years of an industry and agency staff that have not had a 
lot of trust, but in the last six or so months, I would say 
something significant has happened, and we are in a much 
different place, so I really hope that is where we get.
    Senator Heller. Would you anticipate extending rulemaking 
at this point or at a minimum extending the public comment 
section on this issue?
    Mr. Kaye. We have already extended the public comment 
section by a long period of time. I think at this point it is 
closed, that we received a significant number of comments.
    I am concerned about if we keep extending the comment 
period and folks keep submitting comments, that is going to 
take CPSC staff off the productive dialogue that is going on. I 
am hesitant to get in the middle of that and do anything that 
is going to change the dynamics because I really do think this 
is in a unique place and we all have our fingers crossed that 
this is going to result in a win-win.
    Senator Heller. Thank you. Mr. Chairman, my time has run 
out.
    Senator Moran. Thank you. Senator Booker?

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. I have ridden one.
    Senator Heller. So have I, by the way.
    Senator Booker. Somebody should have stopped me because I 
was kind of reckless on the one I rode.
    Senator Heller. Were you wearing a seatbelt?
    Senator Booker. I did not use my seatbelt, and I cannot 
confirm or deny what I did on that ROV.
    From the ground, I would like to go to the sky. It seems 
stunning to me that we have this slant that goes sort of away, 
that the system is so skewed against when it comes to drones 
and UAS technology, it is slanted against universities and 
reputable U.S. businesses, when it comes to using drone 
technology. Other countries shooting out way ahead of us, 
saving money, doing things quicker in time, saving lives.
    Here in the United States we have a regulatory regime that 
to me is outrageous and restrictive when it comes to drone 
technology, but when it comes to the other side of that, when 
it comes to recreational users, there are virtually no limits 
really put on users, although now they cannot fly around the 
White House. I just think something is wrong with that.
    Often what gives the commercial efforts a bad name is all 
the problems we are having with recreational users.
    Do you agree that these products could use the expertise of 
CPSC to ensure the safety of the use of these devices, and is 
it time now, is this an area where we should have voluntary 
standards for our drone technology? Anybody can take that if 
they would like.
    Mr. Kaye. I will jump in because I am sure I will get no 
objection from----
    Senator Booker. Have you ever used a drone yourself. No, I 
am joking.
    [Laughter.]
    Mr. Kaye. Certainly not while riding an ROV. I do not want 
to get in the way of our sister agency, the FAA, but my sense 
of it is they have primary jurisdiction. I think that is 
something we will have to explore more fully. On the larger 
picture of voluntary standards, absolutely. We always 
encourage, as early as possible, voluntary standards to try to 
get ahead of these issues, and I will just quickly talk about a 
couple of other emerging technologies, 3D printers, wearable 
technologies, and also remote control devices like remote-
controlled home appliances, all those are areas that we are 
trying to work with industry partners similar to drones to try 
to get ahead of the issues and provide a playing field and 
ground rules that everybody can live by and take advantage of 
those technologies.
    Senator Booker. That is encouraging. I will just add you 
gave me a perfect transition when you said ``playing field.'' 
Senator Heller and I both used to wear football helmets, we 
stopped last week. No. I mean when we played football in 
college. Obviously, concussions is a big, big problem.
    I am wondering if you could sort of update me on where your 
thoughts are, how big a priority is this for you. It is 
actually a very, very serious reality going on for athletes. I 
know back in my days playing, I am a guy that got knocked 
unconscious, you just get yourself right back out there. 
Obviously, the helmets themselves, especially some that are 
being advertised now as stopping concussions, it is just not 
the case. I am curious where you all are.
    Mr. Kaye. Thank you, and I have a feeling Senator Udall is 
going to ask about this topic as well, so I might have more 
time than I think.
    I cannot do justice to this topic in just five or ten 
minutes, there is no doubt about that. There is no issue that I 
have spent more time on as a single issue since I have been at 
the Commission than brain injuries in youth sports, bar none.
    My take on it is we absolutely want kids playing sports, 
let's just make that very clear and put that out there. 
Everyone agrees, I think, we want kids to play sports. They 
offer tremendous benefits, whether you are playing an 
individual sport or a team sport.
    The issue is how do you play those sports, how do they 
engage in those sports in a way that do not impact their brains 
long term. As frustrating as it might be for an athlete and as 
career-devastating as it could be to deal with an ankle, a 
knee, a shoulder, an elbow, what have you, you cannot function 
in your life if you have a degenerative brain condition, 
especially one that continues over time and erodes your 
executive function and takes away all of your abilities to make 
decisions.
    Sadly, that is what we have seen. I believe the answer to 
this while we wait to see if a product, and I say ``if,'' if a 
product is the solution, is culture change. I will liken it to 
this bottle. When many of us grew up, we did not recycle these 
because that did not exist. Now, if I try to throw this bottle 
out, I would not, but if I tried to throw this bottle in the 
garbage, my 10-year-old son would call the police on me, and 
that is the kind of culture change I think we need in youth 
sports.
    We need kids that when their coach tells them in an 
uninformed way go out and do this, tackle this way, they say I 
cannot do that, I have to take care of my brain. We have been 
working very closely with the five professional sports leagues 
to try to get them to drive the message much more strongly and 
in a coordinated fashion to the youth levels and to parents to 
make sure kids are taking care of their brains.
    There is a limit to what you can expect from a product. I 
think DeSean Jackson, before he was cut by the Eagles a few 
years ago, he took a hit against the Falcons going over the 
middle and he got hit in the shoulder. His head was not engaged 
whatsoever, so there was nothing for a helmet to do, and he 
ended up with a concussion.
    There is only so much you can ask of a helmet, and if you 
consider that a helmet is like an egg with your brain, if you 
take an egg and you wrap it in bubble wrap as much as you want, 
you could probably drop that egg and not crack it, but the yolk 
is still going to bounce around in the inside, and it is the 
same thing with the helmet.
    You can wrap your head in whatever you want to wrap it in 
and bang your head against the wall and not get a skull 
fracture or brain bleeding, but you are likely to have your 
brain banging around in the inside, and we do not know enough. 
There is so little science to understand what those injury 
mechanisms are, what is the dose-response for the acute 
concussion issue and the long-term CTE issue from a chronic 
nature to understand that.
    We are trying to drive culture change to minimize the hits 
to the head as what we see as the best solution at this point.
    Senator Booker. Thank you, Mr. Chairman.
    Senator Moran. Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Mr. Chairman. Thank you, Senator 
Booker, for your questions on that. I think it is tremendously 
important and knowing you two guys were knocking heads, that 
explains a lot of things.
    [Laughter.]
    Senator Udall. Chairman Kaye, thank you for that very good 
explanation there. I know you have a passion for this. There is 
absolutely no doubt that parents want their kids to play 
sports, sports are a healthy activity, and I think it clearly 
outweighs the risk.
    As a result of that, you know I have worked on this issue 
for a while, and in the 113th Congress, this committee approved 
my Youth Sports Concussion Act, which deals with product safety 
standards and misleading advertising claims.
    Since 2010, I have been urging this entity here, the CPSC, 
to ensure football helmets meet a safety standard that 
addresses concussion risk and reflect the state-of-the-art in 
helmet technology.
    I can just say I am alarmed by the lack of progress by 
NOCSAE, and I think you all know what NOCSAE is, in updating 
its voluntary industry helmet standards.
    To make a couple of points here on NOCSAE, NOCSAE does not 
meet the requirement of the American National Standards 
Institute for Standard Developers. This is a code of good 
practice. It helps ensure balance of the interests. There is no 
youth specific football helmet standard. There is no NOCSAE 
requirement that all helmets be reconditioned on a regular 
basis.
    Chairman Kaye, I have a yes or no question for you, are you 
satisfied with how NOCSAE develops and maintains the current 
voluntary industry standards for football helmets?
    Mr. Kaye. No.
    Senator Udall. Tell me why.
    Mr. Kaye. You touched on a lot of it, Senator. They 
obviously do not even follow the ANSI process, so there are 
certain aspects to their process that we do not have a window 
to because they are not as transparent.
    When the issue broke, and thank you for your leadership 
because you have really been the biggest champion in the U.S. 
Congress in both the Senate and the House on this issue.
    When this issue broke, as you well know, in October 2010, 
at that point we really had no access at all to the NOCSAE 
process, and we had to negotiate with them to allow us to 
participate just as observers, because we cannot participate, 
the Commission staff cannot participate unless it is an open 
meeting, they had to open up, and they only opened up just a 
portion of their meetings so we could be there, and then they 
closed the rest of it.
    There is a lack of transparency. From having worked with 
the NOCSAE staff and gotten to know them, I do not think it is 
their staff that is the issue there. I think there is a larger 
organizational issue that is going on and a lot of pressures 
that are brought to bear on them.
    I do think there is a lot more they can do to be more open, 
more transparent, and move more quickly. The last thing I will 
add is from my perspective, again, I am not speaking for my 
colleagues here or the Commission, there is a better process 
even than the ANSI process, and that is the ASTM process. That 
is the process when I see an industry is approaching ASTM and 
working through the ASTM process, that is the area I feel has 
the best process in place to ensure the best outcome, the most 
open and transparent, involves the most consensus building, and 
really gives me the most confidence that everybody has been 
heard and the right solution has been reached.
    Senator Udall. Yes. Thank you very much. There are these 
youth products that are being put out. A good example, and I 
think my staff is going to show you some posters here, we have 
a DonJoy head protector, and we also have this Full 90 high 
performance head guard.
    The representations that these folks make on these products 
are pretty astounding. Unequal head bands, which you are going 
to see up here, they say unequal head bands predict a 
significantly lower risk of concussions. The full performance 
head gear says it reduces impact forces by 50 percent.
    These are the kinds of claims that really I think do not 
hold any water. The DonJoy head band, the advertising for this 
says it prevents the young person from being injured. You can 
see it shows him with a head protector, and the kid without 
one, he is getting hurt. You are really encouraging more 
impact.
    My question, and I know I am running over time, I see a 
role for the CPSC. Given the real risk of brain injury, could 
the CPSC require product warning labels for soccer head bands 
in order to assist parents, coaches, and players in evaluating 
the safety of these products?
    Mr. Kaye. We certainly have the authority under the 
Consumer Product Safety Act to impose labeling requirements, 
and since your staff raised this with us in the last couple of 
days, we are going to look into that.
    Unfortunately, that is not a quick process because of our 
regulatory requirements. When I saw the slides, thanks to Kevin 
Cummins of your staff, I did immediately share those with the 
Federal Trade Commission because I do think issues like this do 
need to be addressed, and they have the ability, it is within 
their jurisdiction for potential false advertisement, they have 
the ability to act quickly to try to get these products removed 
or to get this type of potentially misleading information off 
the market.
    I have to say as a parent again of two young children, I am 
deeply concerned by marketing concerns that might mislead 
parents into thinking they have a level of protection that they 
do not, and I think what it probably does is gives folks a 
false sense of security, and kids are more likely to do 
something more dangerous than they would without having 
something on their heads at all.
    I am really glad you raised this, and I look forward to 
working with you on this going forward.
    Senator Udall. Thank you. I am sorry I have already run 
over my time. I wanted some of your other commissioners to be 
able to comment. Mr. Chairman, thank you. If we have a second 
round, I may stay here so they can also comment on this. 
Appreciate your courtesies. Thank you.
    Senator Moran. I am reluctant to announce a second round in 
the hopes that some of you leave.
    [Laughter.]
    Senator Udall. Mr. Chairman, do not do that to us.
    Senator Moran. Senator Markey?

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much. When 
Congress last reauthorized the Consumer Product Safety 
Commission in 2008, my language to create a public consumer 
product safety database was included. It was true then and 
remains true today parents should not have to play toy box 
roulette, wondering if the toys they buy for their children for 
birthdays and holidays might kill them, make them sick, or 
injure them because they contain dangerous levels of toxins, 
like lead, asbestos, or contain choking hazards.
    Chairman Kaye, how many consumers have reported potentially 
defective products to the SaferProducts.gov database?
    Mr. Kaye. Thank you, Senator, for raising the database. Of 
course, thank you for the incredible work you did to create the 
database. I would say it is one of the biggest success stories 
of what is otherwise also a very large success story as an Act.
    In the time since the database went live in 2011, I believe 
it was spring of 2011, we have had 70,000 plus reports of harm 
that have been sent into the database.
    Not all those reports go up live immediately because there 
is a process in place to make sure all the critical elements 
have been included, and about 25,000 or 26,000 of those have 
gone through that, they had all the required elements, and 
those have made it to the public side, and the remaining 45,000 
or so, we still use those.
    Senator Markey. How many consumers have gone to the website 
to find out if there are dangerous products that could affect 
their families?
    Mr. Kaye. I would have to get back to you, but it is a 
gigantic number.
    Senator Markey. What is a gigantic number?
    Mr. Kaye. I do not want to guess. I remember seeing the 
number recently.
    Senator Markey. Is it in the millions?
    Mr. Kaye. Yes, absolutely it is in the millions.
    Senator Markey. Millions of Americans have gone to the 
website?
    Mr. Kaye. I believe, but please do not hold me to that, I 
want to make sure we give you the right numbers.
    Senator Markey. That is helpful. Thank you. Could you tell 
us how the information reported by consumers have been helpful 
to the CPSC in providing an early warning system?
    Mr. Kaye. It is a critical source of data, one of our 
critical sources of data that we use that we feed to an 
integrated team of experts that review this data in relatively 
real time as it comes in, and are able to adjust both our 
enforcement priorities as well as our hazard identification and 
reduction priorities, based on the data that we collect.
    It would be a detriment to that if we did not have the 
availability of the public database information that is 
submitted.
    Senator Markey. There are many in the industry who are 
afraid that there would be filing of fraudulent complaints 
about their competitor's products or inaccurate consumer 
complaints that would damage corporate profits unfairly. It 
would kill jobs, undermine investment in new products.
    What have you found as you examined the database and its 
impact on investment and new jobs?
    Mr. Kaye. I have not seen any of those concerns bear out.
    Senator Markey. Thank you. In 2000, asbestos was found to 
have been inadvertently added to children's crayons. The CPSC 
recommended reformulation of the crayons to eliminate the 
asbestos, and American companies voluntarily agreed to do that.
    Unfortunately, we sometimes see recurrences in problems 
like this. For example, earlier this year, reports surfaced of 
dangerously high levels of formaldehyde in laminate flooring 
products imported from China. The same problem was reported in 
2013 and 2014.
    Now with formaldehyde, CPSC has published guidance that 
explains to consumers what formaldehyde is, where it may be 
found, how exposure affects a person's health, and informing 
consumers what safe, normal levels of formaldehyde are.
    There is not any guidance for asbestos. How could CPSC go 
about establishing an asbestos regulation if it found more 
children's toys contained it?
    Mr. Kaye. Under our authorities, we would have to not only 
have evidence of the basic toxicity associated with it. I think 
in the case of asbestos, that is pretty clear. We would have to 
also have established paths of exposure.
    It is not good enough, and this is not a public policy 
comment on my part, this is just the way the law is written, it 
is not good enough that a crayon, for instance, might be 
entirely filled with asbestos. If there is no path of exposure 
for a child, we would not be permitted to regulate under the 
Federal Hazardous Substances Act.
    We would need to undertake a product by product and 
exposure path by exposure path regime to see what was actually 
coming out.
    Senator Markey. Quickly, do you need more funding, more 
authority to deal with nanotechnologies as they are 
increasingly inserting themselves into consumer products across 
the country and potentially endangering children in our 
society?
    Mr. Kaye. Absolutely. It was part of our budget request. We 
are seeking significant funds to address a lag in the 
scientific area of looking at exposure for consumer products. 
It has been identified as a potential health hazard similar to 
asbestos where it might get embedded in the lungs.
    Nanotechnology is phenomenal. We want it to expand, but we 
also want to protect children.
    Senator Markey. I agree with you. I think it is the new 
frontier for doing good but it is also the new frontier for 
potentially endangering Americans, especially children, and we 
have to do a lot more about it.
    Thank you, Mr. Chairman.
    Senator Moran. You are welcome. Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you, Mr. Chairman. Thank you, 
Commissioners. I think you know I have done a lot of work in 
this area and we have had some success together with lead in 
toys as well as the safe pools, going way back. I really 
appreciate your work.
    One of the newest things I am looking at are these laundry 
pods. I was just so surprised at how many cases we have had 
coming out of Minnesota, 350 cases of accidental poisonings in 
one state in 2014. Even though there is starting to be more 
education, which I think is going to be key here, we are still 
seeing young toddlers--we had a toddler who was in intensive 
care for a week. She was in an apartment building.
    People say, oh, why not put these up on the top shelve. 
Well, it is not always that easy sometimes if people are in 
apartment buildings or kids can open up things.
    The key, and I know the industry is working hard on trying 
to make it so it does not taste good, trying to come up with 
better ways to seal the containers they are in, and I wondered, 
Mr. Kaye--of course, Senator Nelson has worked a lot on this, 
this is his pod, which I am going to throw to him right now.
    [Laughter.]
    Senator Klobuchar. Senator Nelson and Senator Durbin have 
worked on this extensively. Do you want to give me an update on 
what is happening and what the CPSC is doing?
    Mr. Kaye. I do. Thank you, Senator, and as you mentioned, 
you have been an incredible supporter of the agency and so many 
of the key initiatives we have undertaken originated with you 
and your efforts.
    This issue emerged a couple of years ago. At that point 
under the prior chairman, Chairman Tenenbaum, strongly urged 
the industry to come together and create a voluntary standards 
process, which it did do. CPSC has a robust participation in 
that. We provide a lot of the data and a lot of the technical 
support to try to move industry forward.
    There was a period of time where unfortunately it was 
lagging and I thought some of the areas that the industry was 
proposing really were not going to get to the heart of it. We 
always prefer to get as close to the hazard as possible.
    You mentioned some of the packaging ideas and warnings and 
labels, which are all well and good, but we really wanted more 
work done on the hazard itself.
    If Senator Nelson could just hold that pod up one more 
time, please, that film that is on the outside of that from our 
perspective is too permeable. It is too easily punctured. One 
of the critical breakthroughs in this was the willingness of 
industry to adopt a much firmer film, to make sure that as 
children are exposed to these products, whether it is saliva or 
pinching or squeezing, that the film does not burst sooner than 
it should.
    We understand it needs to function when it is put into a 
laundry machine, and it is exposed to water, but it was a 
critical breakthrough, and I think we are now at a point where 
we have had developed in the last few weeks a voluntary 
standard that is soon going to go to ballot, that we believe 
actually will be effective.
    Senator Klobuchar. Thank you very much. The other question 
I have, as you know, I worked hard on a bill with Senator Crapo 
that we passed on formaldehyde, and it has continued to be an 
issue right now, the Wood Products Act, the Standards Act.
    I know again Ranking Member Nelson has also requested the 
CPSC independently investigate the presence of formaldehyde in 
wood products from China.
    What is happening with those efforts with formaldehyde? It 
has been a long time in waiting where Senator Crapo and I 
passed our bill.
    Mr. Kaye. We have not gotten involved in the implementation 
by EPA of its reg.
    Senator Klobuchar. I know that. I did not mean to imply you 
guys were behind.
    Mr. Kaye. Thank you, I appreciate that. As soon as the news 
story broke, we immediately had convened a group the next 
morning to obtain samples and to develop test methods to make 
sure we were looking at this issue in real life exposure 
scenarios.
    We went out and bought a significant number of materials 
that would range from the periods of concern over the last 2 
years up until the present day, and from different sources and 
different manufacturers, to try to make sure we had a full 
picture.
    We developed test methods and then contracted that out 
because it is faster to do it that way to labs that have that 
experience. They have engaged in that testing, not all the 
results are back, but a number of them are back.
    In the meantime, our health sciences staff, our 
toxicologists, have had weekly consultation with our sister 
agencies, EPA, ATSDR, CDC, to make sure we are gathering all 
the Federal resources necessary, and what we are going to do is 
take that test data and run it through the exposure scenarios 
against the known harmful levels of formaldehyde, and try to 
reach some preliminary risk analysis conclusions from both an 
acute and chronic standpoint.
    We are going to need more help from our Federal partners. 
They know that. They have more expertise on the chronic side. 
Things are moving along. I promise you that you will know when 
we know.
    Senator Klobuchar. OK. Very good. Carbon monoxide. I am out 
of time. I introduced a bill, the Nicholas and Zachary Burt 
Memorial Carbon Monoxide Poisoning Act. We are just continuing 
to see more and more of these cases across the country. I hope 
you will continue to work on this issue with me and do whatever 
we can. I think we will probably do a letter or question for 
the record on that.
    I know some of my colleagues have raised the issue of ROVs, 
and I understand the comments on the rule are due this Friday. 
As I stated in our last markup, I strongly urge both industry 
and the agency to come together on strong voluntary standards 
that will protect people and also work for consumers.
    I know the meetings from the industry's standpoint, given 
that I have two of the manufacturers in Minnesota, the biggest 
domestic manufacturers, seem to be going well, and I hope the 
issue can be resolved.
    Thank you very much.
    Mr. Kaye. Thank you.
    Senator Moran. Senator, thank you. I will now call on the 
Ranking Member of the Full Committee, Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman. Thank you very 
much. I will just hold this pod up again. It feels so nice. You 
can imagine for an infant, put it on their little tender skin, 
it feels so nice and it smells so nice. As a matter of fact, 
this one does not smell like grapes, but I have smelled those 
that have grapes.
    Is it any wonder for an infant that it ends up in their 
mouth. Because it is so easy to break this seal, that liquid 
gets in. Of course, we have had a number of children poisoned 
like that.
    I came in in the middle of Senator Klobuchar's questioning. 
Do you all clearly have jurisdiction to go after this?
    Mr. Kaye. Yes, sir.
    Senator Nelson. Unfortunately, you do not have jurisdiction 
to go after this?
    Mr. Kaye. No, sir.
    Senator Nelson. This is liquid nicotine. Of course, the 
same thing happens. Senator Klobuchar, this is Juicy Juice. I 
have seen them other than this, they have all kinds of pictures 
of fruit on it. It is very attractive. They have all kinds of--
the names are very appealing. Therefore, the labels that go on 
them have all kinds of pretty pictures.
    What you do with this apparently for people who want to get 
nicotine by inhaling it in less concentrated form than a 
cigarette, they put it in these little devices that are 
electronic cigarettes. I do not know why they would want to do 
that, but they do. It brings this committee to be concerned 
when these things are not childproof and when children can open 
them up.
    The problem is you all do not have the jurisdiction, the 
FDA does. We have the jurisdiction in part on the FDA in this 
committee and share that with the health committee. We are 
pushing that.
    Another one that you do have jurisdiction on is the carbon 
monoxide poisoning that we are finding on these generators, and 
unfortunately, it is hurricane season, and people have 
generators. If they are the old generators and they do not have 
the automatic cutoff when they have some detection of the 
carbon monoxide--would you bring us up to date on what is 
happening there?
    Mr. Kaye. Absolutely. I want to thank you for your recent 
letter on this issue that was addressed to me as well as the 
voluntary standards bodies associated with this effort.
    Senator Nelson. It is not just recent. I have been at this 
for about 5 years.
    Mr. Kaye. I should say your most recent, how about that. It 
is moving on two tracks. There is the voluntary standards 
capacity, and I apologize, this might get a little bit 
detailed. There are two different voluntary standards bodies, 
as you noted in your letter. There is UL and then there is 
PGMA, the Portable Generators Manufacturers Association. That 
is not a helpful aspect that there are two different bodies to 
deal with.
    The bottom line has been UL has been a much more receptive 
avenue to try to have a performance standard that would 
significantly reduce the amount of emissions of carbon 
monoxide, which is really where our staff has been going.
    The theory that they have developed, and I think this is a 
sound theory, is the more time consumers have to recognize 
symptoms and to depart the premises, the more likely they are 
to survive.
    They had done a Proof of Concept with the University of 
Alabama a couple of years ago on taking a certain generator and 
changing its configuration, an electronic fuel injected 
generator, adding a catalyst to it in a way that would allow it 
to both take care of EPA related emissions, which are 
important, as well as carbon monoxide.
    It showed a drastic increase in the amount of time that 
somebody would have to escape in the normal hazard scenarios 
where somebody either runs it in their basement, inside their 
house, they run it in a garage.
    What the staff has been trying to do is to turn that into 
performance requirements as part of the Notice of Proposed 
Rulemaking. I anticipate that coming up early next Fiscal Year. 
The staff certainly knows how I feel about it. They know this 
is an area as you mentioned and that you have mentioned for a 
long time, that these are preventable deaths and we need to do 
something about it.
    Back to quickly the voluntary standards body, ultimately we 
do need movement, and that would be the faster mechanism to 
have UL in particular adopt part of these technologies in the 
next version of its standards, but it has been slow going. 
There have been productive conversations, but it has been slow 
going.
    I am hopeful that your letter will help light a fire.
    Senator Nelson. I want to thank all of you. You are much 
more professional as the CPSC than was the case about 10 years 
ago. The way I got into this was through the Chinese drywall, 
which after those hurricanes of 2004 and 2005, and there was 
such a need for building materials, this contaminated drywall 
is being supplied. People could not live in their homes. The 
bank would not help them on their mortgages. The insurance 
company says it is not covered. They are stuck in their homes 
and they cannot breathe and their children are getting sick.
    The CPSC to begin with was just pitiful. Its research 
department was a cardboard table with stuff put out on it. You 
all have professionalized it a lot more, so I want you to know 
my personal appreciation.
    Mr. Kaye. Thank you.
    Senator Nelson. Thank you.
    Senator Moran. Thank you, Senator Nelson, for joining us. 
Senator Blumenthal?
    Senator Blumenthal. Thank you. Just a few quick questions. 
First of all, on laundry detergent pods, Senators Durbin, 
Ranking Member Nelson and I introduced the Detergent Packs Act 
of 2015, which would require the CPSC to set standards to make 
detergent pods less attractive to children.
    I am heartened to hear that you may be moving toward a 
voluntary set of standards. Is that what I heard earlier?
    Mr. Kaye. Yes, Senator, that is correct.
    Senator Blumenthal. What would those standards do?
    Mr. Kaye. It would have basically three components, so it 
would have strengthened packaging. It would strengthen the 
film, as I mentioned when Senator Nelson kindly held up the 
pod, it would strengthen the film around that, which is a 
critical component, and it would also increase the warnings and 
labels associated with them.
    Senator Blumenthal. Would it affect at all the coloring or 
the smell that all too often makes these very attractive?
    Mr. Kaye. We have been having those discussions 
individually with a lot of the companies to try to have them 
dial back the marketing and the way they are doing that. I 
think some of them are more receptive than others.
    I do not think the current version would do that because I 
just do not think from a technical perspective they are able to 
tackle that, but they have already committed, and I have made 
it very clear to them, that I expect them to continue at this.
    This may be the first version of the standard that they are 
ready to put out, but that might not be good enough.
    Senator Blumenthal. These first standards may be followed 
by others. I am still troubled when we talk about voluntary 
standards regarding enforceability. If those voluntary 
standards are violated, your enforcement mechanisms are 
severely limited; correct?
    Mr. Kaye. Yes, there is a slight exception to that under 
Section 15(j) of the Consumer Product Safety Act, which is if 
there is a voluntary standard that is effective and it is 
substantially complied with----
    Senator Blumenthal. The problem with these voluntary 
standards is that they are like children who lack teeth. They 
are fine as long as companies follow them, but there is no real 
deterrent, no real hook, no real hammer that your agency can 
use to protect the public if an outlier or the industry as a 
whole decides hey, I do not really care about making these 
detergent pods unattractive to children, and those voluntary 
standards are just not to my liking.
    Mr. Kaye. So, we do have that on occasion. We have to 
pursue that under a defect theory. It is just a lot harder of a 
case to make, as you can appreciate from your background as an 
AG for five terms, to go case by case is far less efficient and 
effective than to have an industry wide standard.
    Senator Blumenthal. Exactly. I want to come back to 
artificial turf because as much as we pursue the consumer 
danger de jour, liquid nicotine, detergent pods, artificial 
turf has been around for a long time. In fact, in 2008, well 
before you were in your present position--by the way, just as a 
parenthetical I thank all of you for your very rigorous and 
dedicated service on the subject of consumer safety.
    As much as we may seem to be critical, it is the system 
really that is lacking, and I know you are doing your best 
within the system.
    Back when I was attorney general, I called on the CSPC to 
remove and revise a 2008 report on its website that ``Synthetic 
turf fields OK to install, OK to play on.'' An article that 
really deceptively misled many into thinking artificial turf 
had been proven safe, deceptive information or misinformation 
that was the CPSC's responsibility.
    In a 2015 article--I am going to ask that all these 
articles be entered into the record, Mr. Chairman.
    Senator Moran. Without objection.
    [The information referred to follows:]

                 WSB-TV/Channel 2 Action News--Atlanta

           CPSC no longer stands by safety of artificial turf

    Updated: 7:21 a.m. Thursday, April 30, 2015/Posted: 11:29 p.m. 
                       Wednesday, April 29, 2015

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                           By Rachel Stockman

    ATLANTA-- The Consumer Product Safety Commission is no longer 
standing by the safety of crumb rubber used in artificial turf and 
playgrounds.
    In 2008, the agency posted an article called: ``CPSC Staff Finds 
Synthetic Turf Fields OK to Install, OK to Play On.'' However, the 
agency appears to be re-evaluating its position.
    ``Chairman Elliot Kaye has deep concerns with the (2008) press 
release and it is not the agency's current position,'' Scott Wolfson, 
the Communications Director for the Consumer Product Safety Commission, 
told Channel 2's Rachel Stockman. ``What was done in 2008 was not good 
enough to make a claim either way as to the safety of those fields.''
    The Federal agency is not investigating further because they don't 
have the resources at the present time, Wolfson said.
    ``You've got your kids out here playing sports, you want them to be 
safe and healthy but if there is stuff that's not healthy. You don't 
want your kids around that,'' said parent Marticia Woodward. ``Money 
shouldn't be an issue when it comes to safety--not just for our kids 
(but) for anybody.''
    Jeff Ruch, an attorney for the nonprofit organization Public 
Employees for Environmental Responsibility, has been pushing the 
Federal agency to further investigate the safety of tire crumbturf.
    ``The (turf) industry has been very active in lobbying the 
commission but the commission has not appeared to have taken any action 
to protect children,'' Ruch said.
    Ruch's organization acquired public records which he says show the 
turf lobbyists' influence on Federal officials.
    ``They are supposed to protecting the consumer not the industry and 
if they are letting the industry tell the commission what is in these 
products, what level there is for children, they aren't getting the 
straight story,'' Ruch said.
    ``There is no visible sign we have been influenced one way or the 
other,'' Wolfson said.
    The Artificial Turf Council, located in the Atlanta area, sent 
Stockman a statement saying:
    ``The Synthetic Turf Council met with CPSC in 2008. As a result of 
its independent study, the CPSC issued a news release on July 30, 2008 
saying that `young children are not at risk from exposure to lead in 
these [synthetic turf] fields.'
    ``Since 2008, the STC provided the CPSC with the 50 independent, 
science-based studies and reports that have been published in the last 
20 years. All have validated that there is no elevated human health or 
environmental risk from synthetic turf with crumb rubber infill.
    ``PEER, serving its own interests and biased agenda, chooses to 
ignore these persuasive studies, all of which are easily obtained from 
the Synthetic Turf Council website, www.syntheticturfcouncil.org.''

(http://www.wsbtv.com/news/news/local/cpsc-says-they-no-longer-think-
crumb-rubber-artifi/nk6Ch/#__federated=1)

    Senator Blumenthal. I am very pleased that you have 
acknowledged that CPSC report does not represent the agency's 
current position. I am still troubled that the spokesperson in 
that article says your agency ``Is not investigating further 
because they do not have the resources.''
    I mentioned earlier 153 reported cases of cancer linked to 
play on synthetic turf. Given the number of children exposed, 
do you not think that health and safety requires the CPSC 
should be prioritizing this issue?
    Mr. Kaye. I actually agree with you, and this is why I 
detailed to my office when I became Chairman, a toxicologist 
from our career staff because I do care very deeply about the 
lack of certainty that parents face with regard to chemical 
exposure, and you hit on one of the critical areas.
    One of the things that I have tried to do, recognizing that 
we do have limited resources and other agencies have 
overlapping jurisdictions and significantly more resources, is 
to try to reinvigorate cross agency collaboration on the 
critical chemical areas of concern.
    I have spent time with the leadership of EPA, CDC, ATSDR, 
of the National Toxicology Program in the National Institutes 
of Health Sciences, and I am due to see soon the Acting 
Commissioner of the FDA. My pitch to all of them has been the 
public is owed a lot more, we can do a lot more working 
together. Putting aside TSCA reform and the understandable 
issues associated with that, we have current authorities and 
resources that, pulled together, can go a long way to trying to 
address some of this uncertainty, and crumb rubber and 
artificial turf was at the top of that list.
    There is more to come on this, and I promise you as long as 
I am in this position, it will continue to be a critical area.
    Senator Blumenthal. I very much appreciate that commitment. 
My time has expired for the second time this morning. I want to 
thank our magnificently tolerant Chairman of this subcommittee, 
my favorite Chairman.
    [Laughter.]
    Senator Blumenthal. Of any Subcommittee in the United 
States Senate. I very seriously want to thank members of the 
CPSC who are with us today for your public service. Thank you 
very much, Mr. Chairman.
    Senator Moran. I finally got what I thought I was seeking 
from you until you said that the remainder of what you were 
saying was serious, suggesting the earlier part of your 
conversation was not.
    Senator Blumenthal. It is all serious.
    Senator Moran. Senator Udall?
    Senator Udall. Chairman Moran, I also thank you and thank 
you for your patience. You have some pretty persistent 
questioners here. We appreciate your patience on that.
    I would like to follow up on my earlier questions on youth 
sports equipment, safety standards, and product labeling. Could 
I ask each commissioner if they support Chairman Kaye's focus 
on improving brain safety in youth sports? Mr. Adler, why not 
start with you?
    Mr. Adler. Yes.
    Senator Udall. Would you want to elaborate?
    Mr. Adler. I will elaborate in the following sense. I was 
Acting Chair when Chairman Kaye was the Executive Director of 
the agency. One of the things I was most impressed by was how 
he had taken it upon himself both while he was the Executive 
Director and while he was the Chief of Staff to former Chairman 
Tenenbaum to get involved in this issue. It is a passion of 
his. It is inspirational to me.
    I think the work he has done has been absolutely terrific, 
so I fully support what he has been doing. I thank you also for 
all the work you have done.
    Senator Udall. Thank you. Ms. Buerkle?
    Ms. Buerkle. Thank you, Senator. Yes, I do support those 
efforts. To the Chairman's credit, this has been a passion of 
his and he is strongly committed to it. He mentioned changing 
culture earlier in his previous comments, and I think in this 
instance, education and changing culture through education will 
be extremely helpful in raising awareness about these issues. 
Thank you.
    Senator Udall. Thank you. Mr. Mohorovic?
    Mr. Mohorovic. Thank you, Senator Udall. First, if you do 
not mind, I would like to applaud your leadership with regard 
to chemical safety in the United States. We also have under our 
mission the need to provide a uniform set of standards, to be 
able to minimize conflicting state, local, and municipal 
regulations and standards on consumer products.
    We recognize our abilities and where our shortcomings are 
and we very much appreciate your efforts. I do support those 
that you mentioned and those of Chairman Kaye. He has exercised 
tremendous leadership in this area.
    As a former football coach for the Sandia Matadors for four 
years and a member of the Apple Board of Directors, I 
appreciate the fact that the Chairman has taken a real holistic 
view of this while I think he appropriately identifies that a 
product solution would be the best. It is a matter of culture 
and a cultural change, and that goes down to coaching and 
education.
    For those ways, I appreciate and support his leadership.
    Senator Udall. Thank you very much. Commissioner Robinson?
    Ms. Robinson. Thank you, Senator. We first discussed this 
before my Senate confirmation hearing. I applaud your efforts 
along these lines. I very much support the Chairman in these 
efforts.
    Having represented a former offensive lineman at the 
University of Michigan football team many years ago, I am very, 
very aware of the injuries that we unreasonably inflict on our 
children as they are playing sports, and I very much support 
these efforts.
    Senator Udall. Thank you. Thank you, Chairman Moran, really 
appreciate your courtesy.
    Senator Moran. Thank you, Senator Udall. I am told Senator 
Nelson has no follow-up questions. Now that almost everyone is 
gone, I can do my second round.
    Let me start with a conversation that Senator Blumenthal 
had with the Chairman about recalls. My question would be 
phrased like this, what is an example of a recall that worked 
well and what is the example of a recall that worked poorly, 
and what are the factors that determine the difference?
    Mr. Kaye. I do not want to get into company specific 
issues, but I can talk about the factors probably. The recalls 
that work best, not surprisingly, are where you have the fewest 
amount of products and you have a mechanism where there were 
direct sales to consumers, especially in recent years, where 
you will have an e-mail trail, or some ability to reach 
consumers directly.
    We actually call those ``recall alerts,'' because there is 
a certain percentage, about 90 percent of the consumers, that 
we know from the company, they have the ability to reach 
automatically in a direct fashion. We do not need to issue--we 
do usually just for the record, but we do not need to issue a 
news release to get the public's attention. Companies can reach 
directly to the consumers, and those are the most effective 
recalls.
    Senator Moran. How common is that circumstance?
    Mr. Kaye. It just is not that common in part because 
consumers, of course, are not required to submit their e-mail 
or there is no mechanism that has come from a manufacturer 
through a retailer to a consumer, so there is not that ability 
for the manufacturer to reach them in that direct way.
    We would like to see them take on more efforts, 
particularly in social media, and the last bit is from our 
perspective, companies have very sophisticated marketing teams 
and personnel. They spend a lot of money trying to figure out, 
especially for children's products, how to capture the 
attention of very busy parents to get them to buy their 
product.
    All we are asking them to do is take that same creativity, 
that same energy, that same team and pull the resources and 
focus that on trying to get that same parent's attention when 
there is a recall. We do not see that same level of commitment, 
and I think that would go a long way.
    Senator Moran. Thank you. Let me turn to a topic that I 
raised with Commissioner Adler, than acting chairman, more than 
a year ago. Fourth of July is around the corner. Fireworks is a 
product that you are responsible for. It is an important aspect 
of what you do.
    When was the last time the CSPC updated its mandatory 
fireworks standards?
    Mr. Kaye. It has been a number of years, and we actually 
have in the works, thanks to Commissioner Robinson as part of 
our current Fiscal Year operating plan, an amendment to do a 
complete review on it. I am hopeful we will see an improvement.
    I do want to quickly add that this is one of those areas, 
and Congress was clearly thinking about it in the most recent 
Appropriations Act, asking us to provide examples where the 
voluntary standards have exceeded from a safety perspective the 
mandatory standards, but because the mandatory standards are in 
place and the testing requirement is to the mandatory standard, 
companies are not testing to the higher quality standard or the 
higher safety level, they are testing to a lower one.
    Fireworks is a good example of that. We will be submitting 
today a report in response to that request by Congress. I think 
that is the type of authority that it would be good for us to 
have to be able to more quickly adopt a voluntary standard that 
has surpassed from a safety perspective our mandatory standard.
    Senator Moran. The issue I raised with Commissioner Adler, 
I think it was back in January of last year, dealt with the 
audible standard. My understanding is there is no more clarity 
today for a person in the business of fireworks to know how to 
comply with the standard than there was when I raised this 
topic a year and a half ago.
    The audible standard by its nature, and I think this is a 
fact, is subjective. You hear things differently. The test, as 
I understand it, is based upon someone listening to a device 
being exploded.
    What is it that prevents us from moving toward a more 
objective science based standard on the topic of audible?
    Mr. Kaye. Unfortunately, I think it has been the science 
that has prevented that from happening. I know the staff in the 
last few years has spent a lot of time trying to find an 
enhanced method for that particular part of the testing 
protocol, and to measure, for instance, force, and to see if 
there is some correlation between force and the propensity for 
consumer fireworks for what would be an injury that we would 
find to be unreasonable.
    I do hope, as I mentioned earlier, with this rule review 
underway, that staff will have identified working with industry 
and really looking at the voluntary standards that exist--I 
think there might be two out there--see and spend more time on 
those provisions that relate to this in those standards to see 
if that is a better model or if there is some way of taking 
that model and enhancing it.
    I think there is work underway on this. My staff will be in 
touch with yours as we have something to report.
    Senator Moran. That would be useful. My understanding, my 
impression from the response I received previously was that 
effort was put on hold, with nothing really happening toward 
trying to change the ear test as the methodology.
    Mr. Kaye. When Acting Chairman Adler was in to see you, he 
spoke accurately about the state at the time, and what happened 
in the interim, as I mentioned, was Commissioner Robinson's 
efforts as part of our operating plan to have a holistic rule 
review of the fireworks standard, including this issue, and 
that is where this more recent update comes in.
    Senator Moran. What kind of time-frame do you think you are 
on in this regard?
    Mr. Kaye. The staff is due to provide us with a briefing 
package, giving us the options and telling us where they are 
from a technical standpoint by the end of the Fiscal Year. 
Again, we will certainly share that with you when that comes 
up.
    Senator Moran. Let me go to Senator Nelson.
    Senator Nelson. I just want to point out again on this 
liquid nicotine, it is absolutely ridiculous that you, the 
CPSC, are prevented from requiring the childproofing of a 
container like this that poisons children and has killed 
several of them when they ingested it. That is ridiculous.
    There is an exemption for any tobacco product, and 
therefore, what we have done, Mr. Chairman, with both Senator 
Ayotte and Senator Grassley co-sponsoring the bill, and trying 
to get it passed, and we are actually trying to pre-conference 
with the House, something that is so common sense to get it 
done.
    If for some reason it does not happen, and I wish you all 
would keep pushing your general counsel since you have the 
statutory responsibility of making things safe, like 
childproofing containers, even though you are exempted from 
anything being a tobacco product.
    I hope I do not have to come back to you about that, if we 
can pass this legislation. Thank you.
    Senator Moran. Senator Nelson, thank you. Let me just 
follow up on our earlier conversation about fireworks, and then 
conclude this hearing.
    First of all, I would appreciate the information that you 
indicate will be forthcoming, and we would be very interested 
in receiving that. Thank you for that.
    Are you continuing to enforce the rule related to audible 
testing and seeking penalties for its violation? If that is the 
case, how can a manufacturer or importer meet those 
specifications without really knowing what the standard is? Is 
that a good use of Commission resources?
    Mr. Kaye. I think this might end up being a fuller 
conversation that we might have to have in a different setting, 
just because it does involve specific compliance actions.
    I can say we still stand behind the entire fireworks 
regulation. You made the point that July 4 is coming up. It is 
the deadliest month every year and the worse month every year 
around July 4 associated with fireworks' injuries.
    There are many aspects of this standard, even above and 
beyond this particular provision, that we think make a 
difference and saves lives and prevents injuries.
    We still stand behind it. We still have active cases. As 
you also mentioned, it is not a new standard. The fact there is 
now this issue is something again that we may have to discuss 
in a different forum on a particular compliance case, but 
industry has for a long time been aware of the issues 
associated with this, and we continue to work with them, we 
continue to work with the trade association to try to have a 
better dialogue.
    I feel like we have certainly heard each other, and 
hopefully the work that is being done at the technical level 
that I am assuming has included industry or will include 
industry as we do notice and comment, will get to a place where 
everybody can feel better about it.
    Senator Moran. Mr. Chairman and Commissioners, thank you 
very much for your time today. Thank you for your testimony and 
the conversation that I hope my committee found valuable. I 
did. I hope you will take into account the messages that 
Members of Congress deliver in these settings.
    I have been in these hearings before in which all the 
Commissioners were present, and it did not seem quite as civil 
as you are seem to each other today. That was refreshing.
    The hearing record will remain open for 2 weeks. During 
this time, Senators are asked to submit any questions for the 
record. Upon receipt, the witnesses are requested to submit 
their written responses to the Committee as soon as possible.
    With that, I adjourn the Subcommittee hearing.
    [Whereupon, at 11:59 a.m., the hearing was adjourned.]

                            A P P E N D I X

              Specialty Equipment Market Association (SEMA)
                                      Washington, DC, June 19, 2015

Hon. Jerry Moran,
Chairman,
Committee on Commerce, Subcommittee on Consumer Protection, Product 
Safety, Insurance, and Data Security,
United States Senate,
Washington, DC.
Hon. Richard B1umentha1,
Ranking Member,
Committee on Commerce, Subcommittee on Consumer Protection, Product 
Safety, Insurance, and Data Security,
United States Senate,
Washington, DC.

    Re: June 17, 2015 Hearing, ``Oversight of the Consumer 
                                Product Safety Commission''

Dear Chairman Moran and Ranking Member Blumenthal:

    On behalf of the Specialty Equipment Market Association (SEMA), I 
thank the Subcommittee for conducting an oversight hearing of the 
Consumer Product Safety Commission (CPSC). SEMA is concerned about the 
CPSC's pending rulemaking that would establish a mandatory safety 
standard for recreational off-highway vehicles (ROVs). SEMA supports S. 
1040, the ``ROV In-Depth Examination Act,'' to prohibit adoption of the 
rule pending a closer examination of its potential impact. We 
respectfully request that you include this letter in the record of the 
Subcommittee's June 17, 2015 hearing.
    SEMA represents the $33 billion specialty automotive aftermarket 
industry. Our trade association is made up of about 6,800 mostly small 
businesses nationwide that design, manufacture, distribute and retail 
specialty parts and accessories for motor vehicles. The industry 
employs over 1 million Americans and produces performance, functional, 
restoration and styling enhancement parts for use on passenger cars, 
trucks and collector vehicles along with ROVs and other off-highway 
vehicles (OHVs). ROVs and related equipment represent an important 
segment of products manufactured by SEMA members.
    ROVs are a popular form of recreational transportation on 
backcountry roads and trails. They can attain speeds greater than 30 
miles-per-hour and are configured differently than all-terrain vehicles 
(ATVs). ROVs generally accommodate a side-by-side driver and passenger 
in a compartment equipped with roll bars. They also include automotive-
type controls for steering, throttle and braking.
    ROVs are currently subject to a nationally-recognized industry 
standard developed by the American National Standards Institute (ANSI) 
and the Recreational Off-Highway Vehicle Association (ROHVA), which has 
been effective at protecting OHV riders. The ANSI-approved standard 
(ANSl/ROHVA 1-2014) is based on 2014 data and is the result of many 
years of cooperative efforts by industry and the CPSC to develop a 
voluntary approach to regulating these vehicles.
    Despite the industry standard's success, the CPSC announced in 
November 2014 that it would pursue a rulemaking to establish a 
mandatory ROV safety standard. The Commission cited safety as its 
reason for promulgating the standard. However, it is not clear that a 
CPSC standard would reduce accidents beyond the reductions achieved 
under the ANSI standard. In fact, with respect to the dynamic lateral 
stability and vehicle handling requirements, the CPSC acknowledges that 
it does not ``have sufficient data to estimate the injury rates of 
models that already meet the requirements and models that do not meet 
the requirements. Thus, we cannot estimate the potential effectiveness 
of the dynamic lateral stability and vehicle handling requirements in 
preventing injuries'' (79 Fed. Reg. 69004 (2014)).
    SEMA questions whether the CPSC has sufficient basis for abandoning 
the current industry standard since the law directs the Commission to 
pursue a voluntary consumer product safety standard whenever possible. 
15 U.S.C. Sec. 2056 directs the CPSC to ``rely upon voluntary consumer 
product safety standards rather than promulgate a consumer product 
safety standard prescribing requirements described in subsection (a) of 
this section whenever compliance with such voluntary standards would 
eliminate or adequately reduce the risk of injury addressed and it is 
likely that there will be substantial compliance with such voluntary 
standards.'' Given the unambiguous wording of the law and the lack of 
evidence that a rulemaking would result in increased safety, CPSC's 
basis for abandoning the current industry standard is without merit.
    SEMA joined with ROHVA and a number of other organizations and 
companies in voicing concerns about the proposed ROV mandate at the 
CPSC's public meeting (January 7, 2015). Many attendees at the hearing, 
including SEMA, noted that the CPSC's proposed rule is based on test 
data from 2010 and largely reflects the outdated 2011 version of the 
ANSVROHV A rule. As a result, the Commission 's proposed rule would 
have the unintended effect of imposing design restrictions and stifling 
future safety innovations . The proposal also includes restrictive 
lateral stability and vehicle handling requirements that could 
potentially limit vehicle use.
    Conversely, the industry standard recognizes that there are a wide 
variety of uses and terrains for which ROVs are constructed, from 
utility to recreation. ANSVROHVA standards, which reflect collaboration 
with the CPSC, are also much easier to update than a Federal standard, 
which requires a lengthy rulemaking process.
    The CPSC has not yet indicated if it will withdraw its mandatory 
rule and adopt the industry standard. Given this circumstance, SEMA 
supports S. 1040, the ``ROV In-Depth Examination Act,'' and thanks the 
Committee for advancing this important piece of legislation. The bill 
would ensure that the CPSC's rulemaking, if pursued, is based on sound 
science and examines whether it would actually undermine ROV 
capabilities and intended uses.
    Thank you for your consideration. Please feel free to contact me if 
you have any questions.
            Sincerely,
                                           Stuart Gosswein,
                          Sr. Director, Federal Government Affairs.
                                 ______
                                 
       Portable Generator Manufacturers' Association (PGMA)
                                       Cleveland, OH, July 27, 2015
Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Via E-Mail

SUBJECT: Reply to Your Letter Dated June 15, 2015

Dear Senator Nelson:

    Thank you for your letter dated June 15, 2015.
    The Portable Generator Manufacturers' Association (PGMA) shares 
your concern regarding the safe use of portable generators.
    Portable generators are safe when used properly and offer many 
benefits to society. The benefits range from saving lives and helping 
families and communities quickly regain normalcy during the aftermath 
of severe weather to enhancing recreational activities such as camping 
or tailgating.
    In September 2012, CPSC released a report detailing the development 
a prototype low CO emission portable generator in conjunction with the 
University of Alabama. Analysis of this prototype demonstrated 
substantial issues regarding reliability and performance. As part of 
this project, a second prototype portable generator was developed that 
would attempt to sense when the portable generator was operating in an 
enclosed space and respond by automatically shutting off the engine. 
The CPSC report stated that the second prototype with the shutoff 
feature suffered from reliability issues. It is our understanding that 
CPSC subsequently chose not to pursue the automatic shutoff technology 
further. Instead, CPSC has been pursuing a strategy of reducing CO 
emissions in portable generators.
    Nevertheless, PGMA members continue to work collaboratively with 
other stakeholders to identify viable solutions that address portable 
generator CO issues through the UL CO Task Group. This Task Group 
consists of over 30 representatives including CPSC staff, health and 
safety professionals, medical professionals, and industry. While PGMA 
has actively participated in the Task Group, we have reservations about 
the current direction of the Group. We request that since PGMA 
successfully led consensus of the only ANSI recognized portable 
generator safety standard (G300), that PGMA lead and direct the Task 
Group.
    Regarding the use of low CO emission technology in portable 
generators, in a press release (#12-278) on September 14, 2012, the 
CPSC stated:

        ``The CPSC continues to urge consumers to never run their 
        portable generators in their attached garages, in or even near 
        their houses, including avoiding placement near windows or 
        vents. Generators should only be used outside, far away from 
        homes. CPSC cautions that even if portable gasoline powered 
        generators were to incorporate this technology, they would 
        still need to be used outside, far from the home. The 
        technology does not make them safe for indoor use.''

    According to CPSC data, for cases where the location of the 
portable generator was known, 96 percent of carbon monoxide deaths 
associated with portable generators occurred as a result of using a 
portable generator inside a home or garage. We believe that two 
critical components for addressing this overwhelming statistic are the 
increased use of carbon monoxide detectors in homes as well as expanded 
public information and education campaigns that inform the public to 
never use portable generators indoors.
    Additionally, regarding the use of carbon monoxide detectors, CPSC 
stated the following in their September 14, 2012 press release:

        ``Another important line of defense against CO poisoning is 
        having CO alarms on each level of the home and outside sleeping 
        areas. Based on available alarm data, 93 percent of CO-related 
        deaths involving generators take place in homes with no CO 
        alarms. Much like smoke alarms designed to alert consumers 
        about smoke or fires, CO alarms are designed to alert consumers 
        to dangerous CO levels and give them time to get out of the 
        house before becoming incapacitated.''

    States and local communities throughout the United States have 
recognized the role carbon monoxide detectors play in protecting 
consumers from the multiple sources of CO present in everyday life--
furnaces, space heaters, and charcoal grills to name a few. As of 
January 2015, 29 states have enacted laws regarding the use of carbon 
monoxide detectors.
    We believe strongly in the effectiveness of public information and 
education campaigns. PGMA developed Safety First, safety awareness 
information that can be downloaded from the PGMA Website. In mid-2014 
PGMA began a media relations campaign to promote the safe use of 
portable generators. Through the use of targeted news releases, PGMA 
was able to garner more than 2600 media placements, building awareness 
of the preventative measures relating to carbon monoxide safety.
    In 2015, PGMA has expanded its media relations program with a 
significant marketing campaign to broaden the reach of efforts in the 
areas where the use of portable generators is high. PGMA is continuing 
the media relations efforts and this new safety awareness campaign will 
include a website, social media, PSAs, fact sheets, and partnerships 
with utility companies to better educate consumers on the safe use of 
portable generators. As the program develops we would be happy to share 
this information with you.
    In addition, we were pleased to learn of a recent proposal from 
CPSC Commissioner Joseph Mohorovic for a CPSC branded carbon monoxide 
information and education campaign focused on preventing CO deaths 
associated with portable generators. Although the proposal was not 
accepted by the Commission, it is our hope that CPSC will reconsider 
the need for this campaign in the future.
    In other efforts related to portable generator safety, we would 
like to report that the ANSI/PGMA G300 standard, Safety and Performance 
of Portable Generators has been published. The standard obtained 
recognition as an American National Standard in June after achieving 
consensus and acceptance from a wide range of interests including 
government, users, producers, and other bodies such as test labs, 
consultants, and safety professionals.
    In closing, PGMA remains committed to promoting the safe use of 
portable generators and will continue to work in good faith to achieve 
this important goal.
            Sincerely,
                                            John Addington.
JHA/SO/JH/jlb
pgma

cc: Elliot F. Kaye, Chairman, CPSC
John Thune, Chairman, Senate Committee on Commerce, Science,
    and Transportation
Robert S. Adler, Commissioner, CPSC
Ann Marie Buerkle, Commissioner, CPSC
Joseph P. Mohorovic, Commissioner, CPSC
Marietta S. Robinson, Commissioner, CPSC
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                          Hon. Elliot F. Kaye
    Question 1. In July, the House appropriations bill to fund the CPSC 
for FY 2015 included an amendment that would direct $1 million to be 
used by the CPSC to proceed with regulations that would decrease the 
costs associated with third party testing. Additionally, the Commission 
amended its FY 2015 Operating Plan to spend the money allocated to it 
by Congress to find ways to reduce testing burdens. How, specifically, 
does the Commission intend to spend these funds? Please identify any 
specific deliverables and deadlines that the Commission has established 
in its work to provide third party testing relief.
    Answer. Below please find a chart in response to your question 
regarding ongoing work to potentially reduce the costs of third party 
testing while assuring compliance with all applicable rules, bans, 
standards and regulations.

----------------------------------------------------------------------------------------------------------------
                                                                 FY 2015
         Item                       Description                 Estimated              Deliverable (FY)
                                                              Expenditures
----------------------------------------------------------------------------------------------------------------
FY 2015 Operating      Activities related to Component Part         $35,000       Notice of Proposed Rulemaking
 Plan 4.1               Testing Update--Heavy Metals in                                               (FY 2015)
                        Toys
----------------------------------------------------------------------------------------------------------------
FY 2015 Operating      Activities in support of                     $75,000                                    COMPLETED IN FY 2015: Direct Final
 Plan 4.2               Determinations Expansion--Heavy                      Rule/Notice of Proposed Rulemaking
                        Metals in Toys
----------------------------------------------------------------------------------------------------------------
FY 2015 Operating      Additional work on Determinations           $250,000                                    Contractor report (FY 2016)
 Plan 4.3               Expansion--Phthalates in Additional
                        Plastics
----------------------------------------------------------------------------------------------------------------
FY 2015 Operating      Research and Development effort for         $510,000        Report from Award Recipients
 Plan 4.4               FTIR Study Expansion--Phthalates                                              (FY 2016)
                        Testing
----------------------------------------------------------------------------------------------------------------
FY 2015 Operating      Work in support of Determinations           $163,000                                    Contractor report (FY 2016)
 Plan 4.5               Expansion--Lead in manufactured
                        woods
----------------------------------------------------------------------------------------------------------------
FY 2015 Operating      Work in support of Determinations            $10,000       Notice of Proposed Rulemaking
 Plan 4.6               Clarification--Textiles dyes/prints                                           (FY 2015)
----------------------------------------------------------------------------------------------------------------
FY 2015 Operating      Supporting work on Equivalency--Toy              N/A                             Ongoing
 Plan 4.7               Standards (Chairman's office)
----------------------------------------------------------------------------------------------------------------
FY 2015 Midyear        Work in support of Determinations           $100,000                                    Contractor Report (FY 2016)
                        Clarification--Regulated chemicals
                        (Lead, phthalates, ASTM elements)
                        in manufactured fibers
----------------------------------------------------------------------------------------------------------------
                           Total                                 $1,143,000
----------------------------------------------------------------------------------------------------------------

    Question 2. What outreach has the CPSC done to the regulated 
community in order to better understand how best to fulfill the 
Commission's third party testing burden reduction directive under 
current law?
    Answer. Engaging with the regulated community has been a priority 
for the Commission. Regarding the issue of test burden reduction 
consistent with assuring compliance, even beyond the numerous 
conversations we have continued to have with stakeholders on this 
matter, the Commission has specifically requested data and information 
in the following notices:

  <bullet> Request for Comments: Application of Third Party Testing 
        Requirements; Reducing Third Party Testing Burdens. 76 FR 
        69596; 11/8/11.

  <bullet> Request for Information Regarding Third Party Testing for 
        Lead Content, Phthalate Content, and the Solubility of the 
        Eight Elements Listed in ASTM F963-11. 78 FR 22518; 4/16/13.

  <bullet> Announcement of Meeting and Request for Comments: CPSC 
        Workshop on Potential Ways to Reduce Third Party Testing Costs 
        Through Determinations Consistent with Assuring Compliance. 79 
        FR 11088; 2/27/14.

    Each notice, supplementary information, and the comments are 
available at: www.regulations.gov, in CPSC Docket No. CPSC-2011-0081.
    Additionally, since I have been Chairman, I have made it a priority 
to improve significantly the lines of communication with our 
stakeholders in all areas. To that end, I have met with industry groups 
when they have visited the Washington area, as well as meeting them on 
their own turf, whether it is at an association's annual conference or 
at an individual company's manufacturing facilities. As long as I am 
Chairman, we will continue to welcome comments and input from all of 
our stakeholders and continue to find ways to maintain a productive 
dialogue.

    Question 3. In your September 16, 2014 letter, you, along with 
Commissioner Joe Mohorovic, highlighted three policies that, in your 
opinion, ``would provide a substantial amount of third party testing 
relief.'' These policies included: CPSC determinations with respect to 
seven of the eight heavy elements currently regulated in ASTM 5963-11; 
a Commission finding that compliance with internationally recognized 
standards is equivalent to the ASTM Toy Standard; and creation of a de 
minimis third party testing exemption for materials in children's 
products where the total amount of material in or on the children's 
product is less than 10 mg. What is the timeline for implementing these 
three policies?
    Answer.

  <bullet> A Direct Final Rule/Notice of Proposed Rulemaking on 
        Determinations regarding the ASTM elements in certain untreated 
        wood was published in the Federal Register on July 16, 2015.

  <bullet> My staff, which includes a nationally-recognized expert in 
        toy safety and standards, has explored the concept of whether 
        compiling an alternative standard composed of the most rigorous 
        test methods from each alternative standard might allow 
        multinational marketing of toys with a single test protocol. In 
        discussions with the regulated community about this strategy on 
        burden reduction consistent with assuring compliance, several 
        challenges have been identified, making the likelihood that 
        this strategy could actually provide meaningful benefits 
        questionable. In addition to this effort, agency staff 
        considered whether the statutory framework for certification 
        might permit broader application of testing among standards and 
        concluded that allowing certification to foreign standards 
        would run counter to the intent of the law. My staff and I have 
        repeatedly put out a call to industry to provide us with their 
        thoughts on how to best address this issue in furtherance of 
        consumer product safety. We will eagerly pursue any promising 
        information or leads we receive.

  <bullet> The timeline for any de minimis determinations work has not 
        yet been established.

    Question 4. In addition to the three policies you identified in 
your September 16, 2014 letter, has the Commission contemplated moving 
forward on any of the other recommendations for reducing third party 
testing burdens as put forth by CPSC staff, such as developing a list 
of materials determined not to contain prohibited Phthalates or 
allowing a de minimis testing exemption for phthalates in certain 
products?
    Answer. The Commission has awarded contract task orders to study 
the presence of phthalates, lead, and the ASTM elements in specified 
plastics, manufactured woods, and manufactured fibers (e.g., polyester, 
rayon). The Commission will receive the earliest of these contractor 
reports in late FY 2015, with the other reports due in FY 2016. 
Thereafter, staff would use these reports to inform its recommendation 
about whether the Commission could determine that certain plastics and/
or manufactured woods and/or manufactured fibers do not require third 
party testing to assure compliance. In addition, CPSC staff is working 
closely with ASTM, industry, and other stakeholders to develop 
alternate lead and heavy metal testing methods for toys and children's 
products using HD XRF. The Commission has not yet determined a timeline 
for any de minimis determinations work.

    Question 5. In October 2012, the CPSC voted to direct staff to 
proceed with nine of the staff recommendations, which included: 
international standards equivalency to Children's product safety rules; 
determinations regarding heavy metals; determinations regarding 
phthalates; the use of Fourier Transform Infrared Spectroscopy (FTIR) 
technology; determinations regarding adhesives in manufactured woods; 
determinations regarding synthetic food additives; guidance regarding 
periodic testing and periodic testing plans; accreditation of certain 
certification bodies; and staff findings regarding production volume 
and periodic testing. What is the status of this work?
    Answer.

  <bullet> On the issue of equivalency, as previously mentioned, my 
        staff, which includes a nationally-recognized expert in toy 
        safety and standards, has explored the concept of whether 
        compiling an alternative standard composed of the most rigorous 
        test methods from each alternative standard might allow 
        multinational marketing of toys with a single test protocol. In 
        discussions with the regulated community about this strategy on 
        burden reduction consistent with assuring compliance, several 
        challenges have been identified, making the likelihood that 
        this strategy could actually provide meaningful benefits 
        questionable. In addition to this effort, agency staff 
        considered whether the statutory framework for certification 
        might permit broader application of testing among standards and 
        concluded that allowing certification to foreign standards 
        would run counter to the intent of the law. My staff and I have 
        repeatedly put out a call to industry to provide us with their 
        thoughts on how to best address this issue in furtherance of 
        consumer product safety. We will eagerly pursue any promising 
        information or leads we receive.

  <bullet> A Direct Final Rule/Notice of Proposed Rulemaking, 
        determining that wood from tree trunks does not require third 
        party testing to assure compliance with the ASTM element 
        solubility limits was published in the Federal Register on July 
        16, 2015.

  <bullet> Two contract task orders have been awarded to study the 
        potential presence of phthalates in specified plastics and 
        classes of plastics. The first of these contractor reports is 
        due in late FY 2015, with the other contractor report due in FY 
        2016.

  <bullet> CPSC is soliciting grant proposals to develop FTIR 
        technology capable of detecting the prohibited phthalates at 
        1,000 ppm, as an alternative testing/screening technology to 
        the wet chemistry methods currently used. CPSC expects to award 
        Phase I grants during FY 2015.

  <bullet> CPSC awarded a contract task order to study the presence of 
        phthalates in manufactured woods. The contractor's report is 
        due in FY 2016.

  <bullet> The guidance regarding periodic testing and periodic testing 
        plans was published July 18, 2015, on our website at 
        www.cpsc.gov/testing.

    Question 6. During your confirmation hearing, you highlighted a 
track record of reaching out ``to a wide coalition of stakeholders to 
try to find safety solutions.'' You continued by stating, ``[i]f 
confirmed, I would look forward to working across the agency and 
hopefully with our stakeholders to find solutions.'' At the same 
hearing, Commissioner Mohorovic also highlighted the need to leverage 
the expertise of stakeholders.

    a. How would you characterize the current relationship between the 
CPSC and key stakeholders, particularly manufacturers, retailers and 
importers?
    Answer. I believe our relationship with those members of the 
stakeholder community who wish to engage with us in good faith and in a 
collaborative and constructive fashion is strong. I have made a 
concerted effort since I became Chairman to enhance significantly those 
relationships, and I believe those efforts have paid off. CPSC takes 
its mission to provide guidance and advice about our requirements 
seriously. To reach a large number of relevant stakeholders, we attend 
large industry trade shows, like the Toy Fair, the Hong Kong Toys & 
Games Fair, the All Baby & Child (ABC) Expo, and smaller, specialized 
trade shows, like the American Specialty Toy Retailers Association 
(ASTRA) Marketplace & Academy and others, to provide presentations and 
question and answer sessions. We also provide webinars in specific 
topic areas upon the request of industry groups, such as a webinar 
requested this Fiscal Year by RadTech, the association for ultraviolet 
and electron beam technologies. In June 2015, we conducted training on 
regulatory requirements for toys in a joint presentation with our North 
American colleagues at Health Canada and over 400 people registered to 
attend. We also initiated a product safety buyer training program for 
sourcing professionals based in China who export to the United States.
    Our staff in the Office of Compliance and our Small Business 
Ombudsman is also very accessible and assist with thousands of 
individual safety and compliance-related questions every year, through 
our website at www.cpsc.gov/smallbiz/contact and via e-mail at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4330262037727603203330206d242c356d">[email&#160;protected]</a>
    We work closely with industry and other stakeholders on voluntary 
standards committees and in other meetings to find solutions to unique 
and emerging safety issues, often identified through CPSC's own data 
systems. Where possible, we elect to rely on the substantial compliance 
of an industry with robust voluntary standards. One hopefully promising 
area, for instance, appears to be our recent work with the recreational 
off-highway vehicle (ROV) industry. We have had extensive engagement 
with stakeholders form that industry and continue to place a priority 
on working with the industry to develop a standard that provides the 
needed safety improvements without undue burden. We have had numerous 
meetings and sent many detailed letters to industry and the two 
standards development organizations. Staff has also broadly shared 
technical work with the industry, making all technical reports and 
letters publicly available.
    CPSC staff also has a positive relationship with importers and 
brokers. We respond to concerns from the import community, and we stay 
current with U.S. Customs and Border Protection (CBP) changes to inform 
risk-targeting strategies to alleviate the burden of stopping cargo 
unnecessarily. We have received praise from the brokerage community on 
allowing the electronic filing of critical targeting data to give the 
trade significant time to work with us and test as a pilot rather than 
forcing finalization of a mandatory rule before the December 2016 
deadline to comply with filing in the Automated Commercial Environment 
(ACE).

    b. You have sought to prioritize import surveillance under your 
Chairmanship. How has the CPSC engaged stakeholders on this important 
issue?
    Answer. I believe a very recent news release from the Retail 
Industry Leaders Association (RILA) best reflects the state of our 
sustained and extensive dialogue with stakeholders on this critical 
consumer safety issue. In the subheading of that news release, RILA 
stated ``[r]etailers applaud CPSC for incorporating industry input'' 
into the agency's development of our import-related e-filing alpha 
pilot program as (The RILA news release is available at http://
www.rila.org/news/topnews/Pages/Retailers-React-to-CPSC-e-Filing-
Decision.aspx.) The release also requested that the agency continue to 
collaborate with our stakeholders which we will certainly continue to 
do. Moreover, the Office of Import Surveillance has been actively 
involved for many years with the Advisory Committee on Commercial 
Operations (COAC) within CBP to reach out to members in the trade 
community about imported product safety solutions. CPSC staff also 
participates in all three of the Border Interagency Executive Committee 
(BIEC) groups, including the External Engagement Committee, which 
frequently meets with participating government agencies and members of 
the trade community involved in the integration with ACE. Staff has 
also been actively engaging stakeholders through numerous webinars, 
more than 10 in-person port meetings with hundreds of representatives 
from the trade community, and other public workshops to solicit input 
from various stakeholder groups. I have also personally met with 
numerous members of the trade community, including holding three long 
sessions with them during the past few months, to assist in informed 
decision-making.

    c. What are your plans to work with the trade community--
manufacturers, retailers and importers--as you work to develop and 
nationalize the Risk Assessment Methodology (RAM)?
    Answer. CPSC plans to work through the Trade Support Network (TSN) 
and trade associations, such as the American Association of Exporters 
and Importers (AAEI) and the National Customs Brokers & Forwarders 
Association of America (NCBFAA), to think creatively about solving 
problems regarding improving, and hopefully, nationalizing a full-
production RAM. Until funding is secured, CPSC will not be able to 
support moving to a full national program. For Fiscal Year 2016, the 
Commission has requested that Congress authorize a CPSC product safety 
user fee to fund the agency's import surveillance activities in lieu of 
additional appropriations. A number of agencies across the Federal 
Government fund their import processing activities with a user fee paid 
by the importer. The CPSC estimates that a modest user fee of about 7 
cents per every thousand dollars of import value could fully fund the 
import surveillance program without the need for additional 
appropriations.

    d. Will you be creating a formal advisory committee, as industry 
has requested on multiple occasions?
    Answer. CPSC has no plans at this time to create a formal advisory 
committee. The Federal Advisory Committee Act (FACA) imposes 
significant and time consuming obligations on formal advisory 
committees. In the interest of efficiency, CPSC has leveraged the COAC 
structure, which is operated as a formal advisory committee and which 
already meets FACA requirements. The COAC advises the Secretaries of 
the Department of the Treasury and the Department of Homeland Security 
(DHS) on the commercial operations of CBP and related DHS and Treasury 
functions. By relying on access to stakeholders provided by COAC task 
forces/work groups, CPSC has secured valuable input, without the time 
delay that a new formal FACA advisory body would require, and without 
incurring the associated costs. For example, the TSN provides a forum 
for the discussion of significant modernization and automation efforts 
with the trade community. The TSN creates an environment where various 
stakeholders can provide input for both CBP and CPSC to consider. 
Creating and maintaining such an advisory committee takes a great deal 
of resources to operate. CBP is better positioned to manage the 
operation and maintenance of a formal advisory committee and our 
leveraging of the CBP advisory group has been extremely helpful. 
Moreover, as mentioned, I have been directly engaged with a large and 
representative group of members of the trade community and plan to 
continue to engage with them going forward as needs arise.

    e. Is the CPSC a member of the Customs and Border Patrol Advisory 
Committee on Commercial Operations (known as the COAC)?
    Answer. Since the COAC is limited to members of the trade 
community, government agencies are not actual members of the COAC. 
However, CPSC has participated in specific workgroups within COAC to 
align the 1 USG (1 U.S. Government at the Border) approach to 
importation issues for many health and safety concerns. We also 
participate in the COAC quarterly meetings and provide updates on 
product safety import changes to the COAC and the trade community.

    Question 7. Congress established a clear preference that the 
Commission defer to a voluntary standard that adequately addresses a 
risk of harm and is widely followed by industry where one exists. 
Uniformity is encouraged, and the Commission's own rules (16 C.F.R. 
Sec. 1031.7(a)(7)) provide that it may encourage state and local 
governments to reference or incorporate the provisions of a voluntary 
standard in their regulations or ordinances. There are a number of 
voluntary standards regarding chemical restrictions that apply to toys, 
apparel, children's jewelry and other products, most recently adopted 
by a local ordinance in the City of Albany.

    a. What specific steps has the Commission taken to notify state and 
local governments of its support for standards like the toy safety 
standard (ASTM F963), the children's jewelry standard (ASTM F2923) and 
others?
    Answer. Upon the request of trade associations, my office has 
attempted to engage jurisdictions about these issues. To date, we have 
not found jurisdictions to be receptive to our initiation of that 
engagement. When asked by states and localities, the Commission staff 
provides technical assistance regarding technical position or views of 
safety standards and will continue to do so.

    b. If you haven't communicated with state and local bodies to relay 
the Commission's support for these standards, why not?
    Answer. Please see my answer to the previous question.

    Question 8. While it is my understanding that the CPSC Inspector 
General and the Commission share a good working relationship, other 
Inspectors General have mentioned issues concerning access and 
independence. Will you commit to providing the CPSC Office of Inspector 
General with complete and timely access to all agency information and 
materials?
    Answer. As you mentioned, we enjoy a good working relationship with 
our Inspector General. As I strongly believe that Inspectors General 
serve a vital role, as long as I am in this position we will continue 
to provide the CPSC's Office of the Inspector General with any relevant 
agency information and materials in a timely manner.

    Question 9. According to the Consumer Product Safety Commission 
Inspector General, almost 200 of his recommendations remain open.

    a. Will you commit to working with the OIG and this Committee to 
address these outstanding recommendations?
    Answer. Yes. A number of months ago I directed staff to work with 
the OIG to address the 181 open and unimplemented recommendations 
identified in OIG's March 23, 2015 report. Since that time, significant 
progress has been made to address the outstanding recommendations. The 
OIG's June 12, 2015 report reflects a change from 181 to 127 open and 
unimplemented recommendations. We will continue to address these 
outstanding recommendations.

    b. What is the current plan for CPSC to address these open 
recommendations?
    Answer. CPSC management plans to have 80 percent of the outstanding 
audit/report recommendations implemented during FY 2015. The remaining 
items deal with outstanding IT security recommendations that are 
planned to be implemented by FY 2017, subject to adequate funding.

    c. The majority of the open recommendations involve the 
Commission's compliance with the Federal Information Security 
Management Act (FISMA). According to the Office of Management and 
Budget's annual report to Congress on FY 2014 FISMA compliance, CPSC's 
score is one of the lowest of all micro agencies for its FISMA 
compliance. Especially in light of the many recent, high profile data 
breaches, particularly of government agencies, what is CPSC doing to 
prioritize addressing the identified deficiencies in its FISMA 
compliance?
    Answer. CPSC contracted with a security vendor to review all open 
FISMA findings and to provide a risk-based priority for each open 
finding. Using the results of this analysis, we have created a high-
level plan that addresses each of the open IG findings by the end of FY 
2017. In a review of the findings, we determined that additional 
resources would be required to remediate successfully some of the 
findings. Therefore, IT has added additional security staff and has 
submitted funding requests for additional support--specifically to 
address FISMA findings. It is anticipated that ongoing annual funding 
will be required specifically to ``maintain'' FISMA compliance, once 
acceptable levels of compliance have been achieved.

    Question 10. On May 15, 2015, Inspector General Dentel submitted 
the Improper Payments Elimination and Recovery Act (IPERA) review to 
the Commission. While the independent certified public accounting firm, 
Kearney & Company, found that CPSC was not compliant with IPERA, as 
amended by IPERIA, and OMB-M-15-02, the CPSC management did not concur 
with that finding.

    a. Why did the Commission staff disagree with the findings of the 
independent certified public accounting firm?
    Answer. The CPSC conducted a quantitative risk assessment for 
improper payments and reported the results of that assessment in its FY 
2014 Agency Financial Report. The risk assessment results showed that 
the agency was not at-risk of ``significant improper payments,'' as 
defined in the Improper Payments and Elimination and Recovery Act and 
in OMB's implementing guidance (M-15-02); the independent auditor 
acknowledged the agency's robust statistical analysis procedure in the 
audit report. The auditor and management disagreed as to whether the 
audit documentation describing the agency's policies and procedures was 
consistent with OMB's implementing guidance, and whether certain OMB 
notifications were triggered. Management's technical analysis of the 
audit finding was provided to the IG and published in the final report. 
Although management disagreed with the auditor's conclusion, the agency 
acknowledges that the documentation provided was unclear to the 
auditor. Management implemented a remediation plan, which was submitted 
to this Committee on August 13, 2015, and is actively working to revise 
those procedures before the FY 2015 review. In addition, management has 
consulted with OMB to clarify the notification requirements.

    b. What is the current state of discussions with the Inspector 
General and the accounting firm to resolve this disagreement?
    Answer. The IG has published the FY 2014 IPERIA Review and 
concluded audit work. The IG will reassess the program as part of the 
required FY 2015 review, and at that time, the IG will formally assess 
the documentation improvements management is implementing. As an 
interim measure, management has shared the remediation plan with the IG 
and plans to share its revised policies and procedures under that 
remediation plan later this calendar year and before the FY 2015 
review.

    c. As required under OMB M-15-02, agencies that are not compliant 
with IPERA must submit a plan to certain congressional committees 
describing the actions that the agency must take to become compliant. 
Please provide a copy of that report to me and the Senate Commerce 
Committee, as soon as possible, but no later than August 15, 2015.
    Answer. CPSC transmitted the report on August 12, 2015, and is also 
submitting a copy for the record here.
                         Consumer Product Safety Commission
                                      Bethesda, MD, August 12, 2015

Hon. Ron H. Johnson,
Chairman,
Committee on Homeland Security and Governmental Affairs,
United States Senate,
Washington, DC.

Hon. Thomas R. Carper,
Ranking Member,
Committee on Homeland Security and Governmental Affairs,
United States Senate,
Washington, DC.

Dear Chairman Johnson and Ranking Member Carper:

    This letter reports the U.S. Consumer Product Safety Commission's 
(``CPSC'') progress in meeting the requirements of the Improper 
Payments Elimination and Recovery Act (``IPERA'') of 2010, further 
amended by the Improper Payments Elimination and Recovery Improvement 
Act of 2012 (``IPERIA'').
    The CPSC conducted a quantitative improper payment risk assessment 
in Fiscal Year 2013, and again in Fiscal Year 2014. I am pleased to 
report that the risk assessments have demonstrated that the CPSC is at 
low risk for significant improper payments, defined as 1.5 percent of 
program outlays and $10,000,000 of all program or activity payments 
made during the fiscal years reported.
    The Office of the Inspector General (``OIG''), through the services 
of Kearney & Company, an independent accounting firm, conducted a 
Fiscal Year 2014 IPERIA program review (``review''). The review noted 
several improvements to the CPSC's processes from the prior year, 
specifically complimenting the agency's robust statistical sampling of 
all payment activities, the centralized documentation supporting the 
review, and the enhanced description in the agency's year-end financial 
report.
    The review identified two findings: (1) noncompliant audit 
documentation; and (2) failure to make Office of Management and Budget 
(``OMB'') required disclosures. The agency management did not agree 
with finding (1) and did agree with finding (2). The agency management 
acknowledges the need to have clear, understandable audit documentation 
and to provide the needed disclosures; therefore, we have implemented a 
remediation plan with measurable milestones. I have designated CPSC's 
Executive Director as the senior official accountable for ensuring that 
the plan is executed successfully to meet the requirements for 
compliance. In addition, the agency has established an accountability 
mechanism by adding the remediation plan as a performance requirement 
under the SES Performance Management System, Executive Performance 
Agreement for the Executive Director.
    The attached remediation plan addresses the statutory requirements 
to comply with IPERIA 2012 and OMB M-15-02.
            Sincerely,
                                            Elliot F. Kaye,
                                                          Chairman.
Enclosure
cc: Christopher Dentel, CPSC Inspector General
Patricia H. Adkins, CPSC Executive Director

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Question 11. On September 30, 2014, the CPSC Inspector General 
issued an evaluation of the CPSC's efforts to ensure its employees are 
satisfying their obligations for Federal, state, and local taxes. The 
Inspector General identified deficiencies in the CPSC's oversight 
procedures over wage garnishments related to tax deficiencies.

    a. Please explain why CPSC management did not concur with the 
Inspector General's findings.
    Answer. Management receives and monitors employee debts and 
garnishments through regular payroll reports and through the background 
investigation and reinvestigation processes, which include a credit 
check. Appropriate corrective actions are taken, as necessary. These 
procedures have been in place and are expected to improve tax 
compliance among CPSC employees. Management concurred that there were 
no written procedures for monitoring and processing wage garnishments 
and subsequently has developed those written procedures.

    b. What steps has the CPSC taken to address the Inspector General's 
recommendations issued in this report?
    Answer. As recommended by the Inspector General, the CPSC has 
developed a Standard Operating Procedure on the reporting and 
processing of employee garnishments through our payroll provider. 
Management receives reports from our payroll provider to actively 
monitor garnishments and implement corrective actions, as necessary. 
Our payroll provider performs an annual review and audit of garnishment 
processing.

    c. Has the CPSC taken any action with regard to the 20 CPSC 
civilian employees that may owe back taxes?
    Answer. Twenty CPSC employees were identified in the 2011 IRS 
Federal Employee/Retiree Delinquency Initiative report as owing Federal 
taxes. Currently, CPSC has 6 employees that owe Federal taxes and have 
tax garnishments. CPSC is monitoring payroll reports to ensure these 
garnishments are processed and takes corrective/adverse action, where 
appropriate.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Jerry Moran to 
                          Hon. Elliot F. Kaye
Fireworks
    Question 1. In regards to 16 C.F.R. Sec. 1500.17(a)(3), please 
state the objective performance specifications used in the ``Ear 
Test'', and describe the protocol employed to make the threshold 
determination that a fireworks device is intended to produce an audible 
effect.
    Answer. The regulation at 16 C.F.R. Sec. 1500.17(a)(3) limits 
devices intended to produce an audible effect to not more than 2 grains 
(130 mg) of pyrotechnic composition, which is easily measurable. If the 
manufacturer, or importer, labels the device as ``shoots flaming balls 
and reports,'' for example, then the pyrotechnic composition is 
measured to see if the objective regulatory limit of more than 2 grains 
is exceeded. In upholding the regulation, one Federal court referred to 
this particular test as ``the amount test,'' accurately reflecting the 
objective character of the standard. See United States v. Shelton 
Wholesale, Inc., 34 F. Supp. 2d 1147 (W.D. Mo. 1999), aff'd 277 F.3d 
998 (8th Cir. 2002), cert. denied, 123 S.Ct. 514 (2002). Whether 
fireworks subject to the standard ultimately ``pass'' or ``fail'' is 
entirely dependent on the amount of pyrotechnic composition.
    CPSC testing procedures are public. Fireworks devices are field 
tested per the ``Consumer Fireworks Testing Manual'' (https://
www.cpsc.gov/PageFiles/121068/testfireworks.pdf). If the devices show 
indications of being designed to produce an audible effect, then in 
accordance with the Consumer Fireworks Testing Manual IV (A)(11)(b-e), 
the pyrotechnic composition is measured to ascertain whether the 
regulatory standard is met. Through field testing observations, if 
there is an indication that the device is designed to produce an 
audible effect, then the weight of the pyrotechnic composition is 
measured using a calibrated scale in a controlled laboratory 
environment. Significantly, fireworks that are designed to produce an 
audible effect will not be found to be noncompliant unless the 
objective regulatory limit on pyrotechnic composition is exceeded.

    Question 2. How are these objective performance specifications 
communicated to manufacturers and importers of aerial fireworks to 
enable them to determine if their product is intended to create an 
audible effect?
    Answer. The Consumer Fireworks Test Manual has been publicly 
available for more than 20 years (https://www.cpsc.gov/PageFiles/
121068/testfireworks.pdf) and has been a valuable resource for the 
fireworks industry for reference and for training. CPSC Compliance 
staff continues to inform industry members on the mandatory regulations 
by meeting with firms and by actively participating in industry 
conferences. The letters of advice sent to firms for products that fail 
to comply with the mandatory standards explain the regulatory violation 
and the options that firms have to address their concerns with staff.

    Question 3. Understanding the agency's limited budget and 
resources, please comment on the validity of continued enforcement of 
16 C.F.R. Section 1500.17(a)(3) when ``compliance determinations can be 
made only after a subjective determination of intent to produce an 
audible effect'' [CPSC Fireworks Safety Standards Development Project 
FY 2013 Status Report, October 2013].
    While I am disappointed that efforts to resolve the Ear Test issue 
first and foremost were put on hold in the agency's FY 2015 Operating 
Plan, I am encouraged by Chairman Kaye's stated intent to engage 
industry stakeholders as the CPSC continues its holistic review of 
fireworks standards. I look forward to any updates the agency can 
provide my staff throughout this process.
    Answer. Fireworks continue to cause death and injuries every year, 
including to children. Based on the incident numbers as well as the 
trends, I am not comfortable choosing not to enforce this standard. The 
regulation, 16 C.F.R. Sec. 1500.17(a)(3), has been in place since the 
CPSC was created and explicitly has been upheld by the Federal courts 
after legal challenge. See United States v. Shelton Wholesale, Inc., 34 
F. Supp. 2d 1147 (W.D. Mo. 1999), aff'd 277 F.3d 998 (8th Cir. 2002), 
cert. denied, 123 S.Ct. 514 (2002). Further, the standard is properly 
characterized as a limit on ``amount,'' rather than as dependent on a 
subjective evaluation. See Shelton Wholesale, Inc., 34 F. Supp. 2d 
1147. No firework intended to produce audible effects will ``fail'' 
unless the amount of pyrotechnic composition, which is easily 
measurable, exceeds 2 grains (130 mg).
    CPSC staff has many decades of experience in applying the standard. 
As previously noted, fireworks devices are field tested in accordance 
with the ``Consumer Fireworks Testing Manual'' (https://www.cpsc.gov/
PageFiles/121068/testfire
works.pdf). The current testing structure continues to provide 
enforcement staff with an adequate identification method for audible 
effects in aerial devices. Staff's experience is that a majority of 
aerial devices tested that were found to be ``intended to produce 
audible effects'' in fact had pyrotechnic composition over the 2 grain 
limit. In many instances, the products tested have been found to 
contain grossly overloaded pyrotechnic composition, creating especially 
severe hazards. Staff's identification of such devices at the ports and 
continued testing has prevented such products from reaching U.S. 
commerce.
    As part of its approval of the CPSC's FY15 Operating Plan, the 
Commission directed the staff to conduct a complete review of the 
agency's fireworks regulations. Staff's effort includes a review of 
consensus standards, such as the American Pyrotechnics Association 
``Standard for Construction and Approval for Transportation of 
Fireworks, Novelties, and Theatrical Pyrotechnics'' (APA 87-1) and 
standards that have been developed by the American Fireworks Standards 
Laboratory. Staff is preparing a briefing package to the Commission, 
recommending whether to maintain, revise, clarify, or update the 
regulations per Commission direction and will deliver it to the 
Commission in FY 2015. I have directed my staff to be certain to 
provide a copy to your office when it is available.
Liquid Laundry Packets
    Question 4. My understanding is that your agency is working closely 
with manufacturers of liquid laundry packets, consumer groups and other 
stakeholders to develop an industry standard for the packaging and 
labeling of these products. Please update me on the progress of the 
American Society for Testing and Materials International (ASTM) 
standard for these products, and when you expect the standard will be 
finalized.
    Answer. CPSC staff is very active in the ASTM voluntary standards 
process for liquid laundry packets, which relies heavily on input from 
all stakeholders, including consumer advocate groups. To keep the 
process moving, CPSC has hosted a number of subcommittee meetings. The 
subcommittee has twice balloted for approval a voluntary standard, and 
is working to resolve issues related to: (1) whether all packaging must 
meet the Poison Prevention Packaging Act protocol; (2) whether the 
packet compression test must be changed; and (3) whether additional 
requirements to reduce packet attractiveness are needed. CPSC staff 
believes a consensus can be reached after one more round of balloting, 
with the standard approved and published before the end of the calendar 
year. The subcommittee and CPSC plan to closely monitor the incidents 
after publication to measure the effectiveness of the standard. If the 
voluntary standard is ineffective in reducing injuries, I believe that 
formula changes, individually wrapping each laundry packet, and child-
resistant packaging should be vigorously pursued by all interested 
parties. I have directed my staff to continue to monitor this issue 
very closely and to keep my updated on its progress or lack thereof.
Portable Gas Cans
    Question 5. In a statement provided to WISH TV for their November 
13, 2014, story titled ``Could small change stop gas can explosions?'' 
I understand that the CPSC Communications Director provided the 
following statement: ``If a consumer was to see a gas can at a retail 
that contained a flame arrestor system, we would encourage them to 
select such a model, as it provides a vital layer of fire protection.'' 
What information, studies, or other relevant scientific research or 
testing data was relied upon by the CPSC to conclude that gas can 
models containing a flame arrestor system provide better safety?
    Answer. CPSC staff has long been dedicated to protecting children 
and adults from a life of pain and suffering from gasoline-related burn 
injuries due to flashback fires or explosions. Manufacturers of 
portable gas cans must comply with the Children's Gasoline Burn 
Prevention Act, which CPSC implemented in January 2009. To prevent 
children younger than 5 from accessing, ingesting, or spilling 
gasoline, all portable gas cans must include a child-resistant cap.
    CPSC is proud of the role we played in encouraging the residential 
gas water heater industry to develop a consensus safety standard that 
incorporated flame arrestor technology into their products and safety 
standard. Residential gas water heaters sold in stores today have 
built-in flame arrestors that prevent flashback fires, and CPSC staff 
believes that this technology also should be included in gasoline 
containers.
    Flame arrestors are intended to keep flames that are external to 
the gasoline container from passing into the container. CPSC staff 
continues to call on the industry and voluntary standards organizations 
to incorporate a flame-arrestor system into their designs and 
applicable safety standards for gas cans.
    Worcester Polytechnic Institute engineers have shown that flammable 
mixtures of air and gasoline vapors can exist inside portable gasoline 
containers, especially when there are small amounts of liquid gasoline 
in a large container. Under certain circumstances, the gasoline vapors 
can ignite, causing the container to explode in the presence of a flame 
or heat source outside of the container. This research was published in 
the Fire Science Journal (http://www.sciencedirect.com/science/article/
pii/S0379711213000143) in May 2013.
    Manufacturers, retailers, researchers, voluntary standards 
organizations, safety advocates, and CPSC staff should continue to work 
together to address foreseeable risks and solutions that will make gas 
cans as safe as possible. The Communication Director's statement to a 
television station in Indiana was taken out of context. He was 
indicating that if an individual manufacturer or ASTM International 
were to support the potentially life-saving incorporation of flame-
arrestor technology in consumer models of portable gas cans, then that 
would be a product that CPSC would encourage consumers to buy.

    Question 6. If CPSC indeed believes that flame arrestor systems 
should be included in portable consumer fuel containers, why has the 
CPSC not undertaken steps to promulgate a rule mandating the inclusion 
of such technology in gas cans?
    Answer. CPSC staff has focused its efforts on actively 
participating in the ASTM Subcommittee F15.10 on flame arrestors for 
gas cans, working with ASTM members representing industry, consumer 
groups, and other stakeholders to improve the safety of portable 
consumer fuel containers.
Third Party Testing Burden Reduction
    Question 7. I am pleased that an amendment was included in the 
agency's FY 2015 Operating Plan accounting for the $1 million Congress 
has directed to be used for third party testing relief. What is your 
plan for spending these funds to reduce testing burdens? Can you submit 
in writing a plan with concrete deadlines and deliverables?
    Answer. Below please find a chart in response to your question 
regarding ongoing work to potentially reduce the costs of third party 
testing while assuring compliance with all applicable rules, bans, 
standards and regulations.

----------------------------------------------------------------------------------------------------------------
                                                               Fiscal Year
                                                                  2015
         Item                       Description                 Estimated              Deliverable (FY)
                                                              Expenditures
----------------------------------------------------------------------------------------------------------------
FY 2015 Operating      Activities related to Component Part         $35,000       Notice of Proposed Rulemaking
 Plan 4.1               Testing Update--Heavy Metals in                                               (FY 2015)
                        Toys
----------------------------------------------------------------------------------------------------------------
FY 2015 Operating      Activities in support of                     $75,000                                    COMPLETED IN FY 2015: Direct Final
 Plan 4.2               Determinations Expansion--Heavy                      Rule/Notice of Proposed Rulemaking
                        Metals in Toys
----------------------------------------------------------------------------------------------------------------
FY 2015 Operating      Additional work on Determinations           $250,000                                    Contractor report (FY 2016)
 Plan 4.3               Expansion--Phthalates in Additional
                        Plastics
----------------------------------------------------------------------------------------------------------------
FY 2015 Operating      Research and Development effort for         $510,000        Report from Award Recipients
 Plan 4.4               FTIR Study Expansion--Phthalates                                              (FY 2016)
                        Testing
----------------------------------------------------------------------------------------------------------------
FY 2015 Operating      Work in support of Determinations           $163,000                                    Contractor report (FY 2016)
 Plan 4.5               Expansion--Lead in manufactured
                        woods
----------------------------------------------------------------------------------------------------------------
FY 2015 Operating      Work in support of Determinations            $10,000       Notice of Proposed Rulemaking
 Plan 4.6               Clarification--Textiles dyes/prints                                           (FY 2015)
----------------------------------------------------------------------------------------------------------------
FY 2015 Operating      Supporting work on Equivalency--Toy              N/A                             Ongoing
 Plan 4.7               Standards (Chairman's office)
----------------------------------------------------------------------------------------------------------------
FY 2015 Midyear        Work in support of Determinations           $100,000                                    Contractor Report (FY 2016)
                        Clarification--Regulated chemicals
                        (Lead, phthalates, ASTM elements)
                        in manufactured fibers
----------------------------------------------------------------------------------------------------------------
                           Total                                 $1,143,000
----------------------------------------------------------------------------------------------------------------

Phthalates
    Question 8. Mr. Chairman, it appears the CHAP recommendations to 
continue the temporary ban relied solely on the basis of a cumulative 
risk assessment, and it recommended that any chemical that contributed 
in ``any degree'' to the risk should be banned.
    I understand that cumulative risk assessment has not been a basis 
for regulating the use of chemicals in consumer products to date. I 
also understand that EPA is still in the process of reviewing how, and 
if, cumulative risk assessment can be used to regulate chemicals. Have 
you considered that the use of cumulative risk assessment as a 
regulatory tool has not been fully vetted or reviewed and is still in 
its formative stages for use in the Federal regulatory process?
    Answer. The Congress in the Consumer Product Safety Improvement Act 
(CPSIA) explicitly directed the CHAP to ``consider the potential health 
effects of each of these [specified] phthalates both in isolation and 
in combination with other phthalates,'' and to ``consider the 
cumulative effect of total exposure to phthalates, both from children's 
products and from other sources, such as personal care products.'' 
CPSIA, Sec. 108(b)(2)(B)(ii) and (iv). Moreover, according to CSPC 
technical and scientific staff, the methods that the CHAP used to 
assess cumulative risk are consistent with the recommendations of the 
National Research Council, which issued a report on the cumulative risk 
assessment of phthalates in 2008 (http://www.nap.edu/catalog/12528/
phthalates-and-cumulative-risk-assessment-the-task-ahead). Methods for 
assessing the effects of chemical mixtures have been available for many 
years. The Environmental Protection Agency (``EPA'') Office of 
Pesticide Programs uses cumulative risk methodology to assess the risks 
from pesticides, consistent with the Food Quality Protection Act of 
1996. For example, EPA applies cumulative risk assessment methods to 
five classes of pesticides: organophosphates, carbamates, triazines, 
chloracetanilides, and pyrethrins (http://www.epa.gov/pesticides/
cumulative/). The Agency for Toxic Substances and Disease Registry 
(ATSDR) uses a similar methodology for assessing chemical mixtures 
found in hazardous waste sites (http://www.atsdr.cdc.gov/mixtures/). 
EPA (http://www.epa.gov/oppfead1/trac/science/cumulative guidance.pdf), 
ATSDR (http://www.atsdr.cdc.gov/interactionprofiles/IP-ga/ipga.pdf), 
and the International Program on Chemical Safety (http://www.who.int/
ipcs/methods/harmonization/areas/workshopreportdocument7.pdf) have 
issued cumulative risk assessment (i.e., chemical mixtures) guidelines.

    Question 9. Mr. Chairman, the CHAP seemed to ignore its charge to 
make recommendations on whether phthalates or alternatives should be 
``banned hazardous substances''--that is, they did not analyze whether 
the chemicals met the statutory definition of a banned hazardous 
substance. They instead relied on the standard that any chemical that 
contributed to ``any degree'' of a cumulative risk should be banned. 
Your charge is to determine whether the interim prohibition on 
phthalates should continue to provide a ``reasonable certainty of no 
harm'' to susceptible groups.
    Given the CHAP's failure to follow its specific charge, do you feel 
the CHAP report reliably provides what you need to make your 
determination of whether there is a reasonable certainty of no harm and 
declare any children's product containing any phthalates to be a banned 
hazardous product under section 8 of the CPSA?
    Answer. CPSC staff believes the CHAP report provides the Commission 
with the information necessary to make the determination required by 
section 108(b)(3). The staff believes the CHAP followed its charge in 
section 108(b)(2)(B) to, among other things, ``consider the potential 
health effects of each of these phthalates both in isolation and in 
combination with other phthalates.''

    Question 10. Mr. Chairman, I am concerned that the peer review 
process for the CHAP's draft report was conducted in secret and that 
those peer review comments were not subject to peer or public review 
and comment, as OMB's guidelines require. I am also concerned that 
despite the fact that there were a number of public CHAP meetings in 
the first several years, there had not apparently been any public 
meetings for at least two years prior to the report being issued, in 
apparent violation of the Federal Advisory Committee Act and the 
agency's own regulations and policies requiring public notice and 
openness of such meetings.
    How does this meet the agency's commitment to full openness, 
transparency and public scrutiny of the CHAP process given the 
importance of the issue and rulemaking? Do you know why the public 
meetings of the CHAP apparently ceased during the latter (and in many 
respects the most critical) phase of the CHAP's activities, including 
when it finalized its report, and can you please explain to the 
Committee why the CHAP ceased public meetings over such a long duration 
of time?
    Answer. The CHAP requested peer review of their draft report, and 
my predecessor, Chairman Tenenbaum, made the decision to support that 
request, a decision which I believe was correct. Peer reviewers were 
nominated by the National Academy of Sciences and met the same conflict 
of interest requirements as CHAP members. CPSC took the additional step 
of posting on CPSC's website the CHAP draft report submitted to peer 
review, the peer reviewer's identities, and the peer review comments at 
the same time as the CHAP provided its final report to CPSC.
    During the preparation of its draft report, the CHAP held seven 
public meetings and six public conference calls. The CHAP sought input 
from interested members of the public and invited scientific experts on 
topics relevant to the CHAP report. The CHAP also heard oral 
presentations and received numerous written comments from interested 
parties, all of which are posted on the CPSC website at http://
www.cpsc.gov/CHAP. The last CHAP public meeting was February 2012. Due 
to the peer review process, the final report was not delivered to the 
Commission until July 2014.

    Question 11. Mr. Chairman, there has been some controversy with the 
recommendations made in the CHAP report on phthalates and whether or 
not it complies with the legal standards that it was intended to comply 
with. We understand that the CPSC General Counsel provided guidance in 
this regard in a memo to the CHAP panel and to CPSC staff. Will you 
please provide the Committee with a copy of that memo, and do you 
concur that the CHAP complied with the legal standards enunciated by 
the CPSC General Counsel in their recommendations to your agency in 
their report?
    Answer. This question appears to refer to a December 20, 2011 e-
mail from Cheryl Falvey, General Counsel for CPSC at that time, to the 
members of the CHAP and CPSC staff. The e-mail is available on the 
portion of the CPSC website that contains CHAP-related documents and 
information. See http://www.cpsc.gov/PageFiles/125699/
cfalvey12202011.pdf. The Falvey e-mail provided the CHAP and CPSC staff 
members with guidance regarding the charge to the CHAP and procedures 
as set forth in section 108 of the CPSIA. The Falvey e-mail did not 
enunciate any legal standards. The Commission's notice of proposed 
rulemaking (``NPR''), ``Prohibition of Children's Toys and Child Care 
Articles Containing Specified Phthalates,'' explained the legal 
requirements for the CHAP and the phthalates rulemaking. 79 Fed. 
Reg.78324 -26 (December 30, 2014); available at: http://www.gpo.gov/
fdsys/pkg/FR-2014-12-30/pdf/2014-29967.pdf. We believe that the CHAP 
complied with the legal requirements as specified in section 108 of the 
CPSIA and explained in the NPR.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                          Hon. Elliot F. Kaye
    Question 1. Chairman Kaye, you said in your testimony regarding 
nanomaterials that ``in the absence of CPSC driving this work as it 
relates to consumer products, it will not be done by any other Federal 
agency.'' Are there Federal agencies you believe are spending resources 
on nanotechnology research that aren't leading in developing sound 
science and data? What kind of work does CPSC currently perform on 
nanotechnology research today that's providing a better return on 
investment than the work being done by the FDA, EPA, and other 
agencies? What is the justification for the CPSC to become more 
involved in this area and what would an additional $5 million for a 
proposed interagency Center for Consumer Product Applications and 
Safety Implications of Nanotechnology provide?
    Answer. CPSC is the sole regulatory authority over thousands of 
consumer products that may contain nanomaterials, including children's 
products. For example, CPSC-supported research has found that 
nanosilver is used in children's clothing and toys, and carbon 
nanotubes in anti-ballistic backpacks intended for children's use. The 
backpacks are commercially available due to increasing concerns over 
shooting in schools. However, the efficacy and safety of using 
nanomaterials in this product that involves direct handling by 
children, is unknown. CPSC is sponsoring studies on (1) the 
effectiveness of these backpacks as ``safety'' products to reduce the 
potential for a bullet penetration; and (2) determining if there are 
any exposure concerns from the nano-carbon materials over time while 
the backpack is in use by children. Other Federal agencies do not 
conduct such studies of consumer products under CPSC's jurisdiction, 
unless CPSC provides funding and a research strategy, thus the 
potential hazards associated with products such as the backpacks and 
toys will not be addressed otherwise. The research currently sponsored 
by CPSC meets critical data gaps on exposure and risk, trains the next 
generation of scientists, and provides robust methods that 
manufacturers can use to test their products.
    The CPSC and National Nanotechnology Initiative (NNI) co-sponsored 
an international workshop Quantifying Exposure to Engineered 
Nanomaterials (QEEN) http://www.nano.gov/node/1327. The consensus was 
that there is an urgent need for more information on nanomaterial use 
and risk in consumer products. The absence of significant and 
coordinated research on nanomaterial exposure due to consumer products 
has been identified as a critical gap by the NNI. The NNI has involved 
considerable interagency collaboration to develop this emerging 
technology. An important component of this initiative includes the 
development of strategic plans and other documents that outline 
research needs and data gaps that must be addressed to develop this 
technology responsibly. Each Federal agency participating in the NNI is 
tasked with identifying the research needed to support its research or 
regulatory mission. CPSC, as an NNI participant, identified the 
nanotechnology center to address data gaps specific to CPSC's 
regulatory mission. This proposal was vetted with the National Science 
Foundation, the EPA, and the White House Office of Science and 
Technology Policy. CPSC's current funding levels do not allow for the 
development of robust test methodologies to answer questions regarding 
how exposure to a consumer product could be measured or how any 
potential identified risks can be addressed. Although CPSC staff 
possesses knowledge of consumer product use, human factors, testing 
requirements, and regulatory approaches for chemicals, this proposal 
would be an effective and efficient way to conduct the necessary 
research into exposure from consumer products containing nanomaterials.
    We are requesting funding to: (1) develop robust test methods to 
determine and characterize human exposure to nanomaterials from 
consumer products; (2) characterize and understand consumer use of 
products containing nanomaterials; and (3) provide support to 
manufacturers, especially small businesses, with approaches to testing 
their products for the release of, and potential exposure to 
nanomaterials. All of these efforts are critical to ensuring the 
responsible commercialization of nanotechnology. In addition, these 
efforts will assist CPSC in assessing nanomaterials in products; assure 
consumers of the safety of these materials; and provide manufacturers 
with a robust and reliable means to test and assess these materials 
when used in products. In terms of return on investment, I believe it 
is far more prudent for Congress to allocate funds for us to address 
this critical knowledge gap now as opposed to waiting to address any 
health effects, especially to children, in the future.

    Question 2. Chairman Kaye, in your testimony you mentioned that 
there are three regulatory changes the Commission is going to consider 
that would reduce the costs for small businesses associated with third-
party testing. When can small businesses expect to see results on these 
changes and what other relief measures is the CPSC considering?
    Answer. The first regulatory change, Direct Final Rule (DFR)/NPR on 
Determinations with respect to the ASTM elements was published in the 
Federal Register on July 16, 2015. Before the end of FY 2015, staff 
will bring to the Commission the other two proposed regulatory changes, 
an NPR on component part testing for heavy metals in toys and an NPR or 
DFR as appropriate on determinations clarification on textile dyes and 
prints.

    Question 3. Chairman Kaye, as you know, industry stakeholders have 
been working collaboratively with the American Society for Testing and 
Materials International to develop standards for packaging, education 
and a labeling of liquid laundry packets. The voluntary standards for 
safe use and storage of these products are expected to be released 
later this year. Do you agree that we should allow industry to see this 
process through before moving forward with onerous regulations and 
mandates? Can you provide an update on CPSC's engagement on this issue 
and its interaction and collaboration with industry leaders to develop 
these standards?
    Answer. CPSC staff is very active in the ASTM voluntary standards 
process for liquid laundry packets, which relies heavily on input from 
all stakeholders, including consumer advocate groups. To keep the 
process moving, CPSC has hosted a number of subcommittee meetings. The 
subcommittee has twice balloted for approval a voluntary standard, and 
is working to resolve issues related to: (1) whether all packaging must 
meet the Poison Prevention Packaging Act protocol; (2) whether the 
packet compression test must be changed; and (3) whether additional 
requirements to reduce packet attractiveness are needed. CPSC staff 
believes a consensus can be reached after one more round of balloting, 
with the standard approved and published before the end of the calendar 
year. The subcommittee and CPSC plan to closely monitor the incidents 
after publication to measure the effectiveness of the standard. If the 
voluntary standard is ineffective in reducing injuries, I believe that 
formula changes, individually wrapping each laundry packet, and child-
resistant packaging should be vigorously pursued by all interested 
parties. I have directed my staff to continue to monitor this issue 
very closely and to keep my updated on its progress or lack thereof.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                          Hon. Elliot F. Kaye
    Question 1. Carbon monoxide is a silent, odorless killer that can 
strike at a moment's notice if the proper safeguards aren't put in 
place. According to the Center for Disease Control, there are over 400 
deaths and approximately 15,000 emergency room visits as a result of CO 
poisoning each year. Just this winter in Minnesota a father and his 11 
year-old daughter died of carbon monoxide poisoning because they didn't 
have carbon monoxide detectors installed in their home. That is why I 
introduced the Nicholas and Zachary Burt Memorial Carbon Monoxide 
Poisoning Prevention Act, which is named for two young brothers of 
Kimball, Minnesota who died from CO poisoning. This legislation would 
allow the CPSC to provide support for public safety education and to 
encourage installment of safe and reliable carbon monoxide detectors. 
Will you support my bill and commit to working with me to help reduce 
the number of deaths from carbon monoxide poisoning each year?
    Answer. Working on preventing carbon monoxide (``CO'') poisoning 
has been, and will continue to be, a priority as long as I am Chairman. 
The latest CPSC data indicates there were 160 non-fire CO poisoning 
deaths (in 2011) associated with consumer products, and more than 400 
deaths per year from all products (according to the Centers for Disease 
Control and Prevention). The silent and unseen nature of this hazard 
makes the need to warn consumers even more pressing.
    CPSC staff published a report in 2013 studying non-fire CO 
incidents and deaths associated with engine-driven generators and other 
engine-driven tools from 1999 to 2012. This report indicated that where 
alarm presence (or not) was known, over 90 percent of CO incidents and 
deaths occurred where there was no CO alarm. Accordingly, I support 
your continued efforts, including the Nicholas and Zachary Burt 
Memorial Carbon Monoxide Poisoning Prevention Act, to achieve greater 
installation and use of working carbon monoxide alarms in U.S. homes. 
My staff has spoken to the Burt family in the past, and we do not want 
any other family to suffer as they did after the loss of their two 
sons. If the Act is enacted and funded, CPSC will work closely with 
your office to make sure steps are taken to ensure its effective 
implementation.

    Question 2.. Chairman Kaye, do you agree it is important to ensure 
that every home has access to a reliable carbon monoxide detector? What 
more can be done to ensure that all Americans have access to a reliable 
carbon monoxide detector? In your opinion, how aware is the public 
about the dangers of carbon monoxide poisoning and proper use of carbon 
monoxide detectors? Do you believe we should be doing more to increase 
awareness?
    Answer. CPSC believes in the life-saving value of carbon monoxide 
(``CO'') alarms in homes. As I noted above, when studying incidents and 
deaths associated with CO poisoning, where alarm presence (or not) was 
known, over 90 percent of CO incidents and deaths occurs where there is 
no CO alarm present. Because this issue is so important, CPSC takes a 
multi-faceted approach to educating the public:

  <bullet> Information center: The agency has a CO information center 
        on its website (at: CPSC CO Education Center) and regularly 
        puts out a variety of educational materials intended to reach 
        diverse audiences on the need for a CO alarm on every level of 
        every home and outside each sleeping area.

  <bullet> Outreach to middle school students: As part of our safety 
        campaign, we have twice sponsored a CO poster contest for 
        middle school students across the United States. The aim is to 
        educate young people about the dangers of this invisible killer 
        and leverage their knowledge, passion and posters to inform the 
        population more broadly. The contest materials encourage 
        science teachers and schools generally to educate their 
        students about the dangers of CO poisoning and to communicate 
        that message more broadly. The posters created by the students 
        help educate their fellow Americans. This outreach effort has 
        been successful. On May 13, 2015, CPSC announced the 10 winners 
        of the contest out of a record 700 entries. Complete details, 
        including the winning poster entries, can be found here: CPSC 
        Carbon Monoxide Poster Contest Winners Announced.

  <bullet> Timely Press Releases/Blogs: Twice every year, coinciding 
        with the beginning and end of Daylight Savings Time, CPSC 
        issues media and consumer alerts recommending that consumers 
        change the batteries in their CO and smoke alarms when they 
        change their clocks. These communications also provide an 
        opportunity for the agency to remind consumers about the need 
        for CO alarms.

  <bullet> Death and incident data: Annually CPSC releases two reports 
        relating to incidents and deaths associated with CO poisoning. 
        One analyzes the non-fire CO deaths associated with the use of 
        consumer products in order to help educate the public, the 
        media, and all related stakeholders about the seriousness of 
        the hazard. The most recent report can be found here: Non-Fire 
        Carbon Monoxide Deaths Associated with the Use of Consumer 
        Products 2011 Annual Estimates--released January 2015. 
        Unfortunately, the data show that the number of non-fire CO 
        deaths in 2011 was 160, which was an increase from previous 
        years. The next version of this report is due to be completed 
        this Fiscal Year.

    The second report is focused specifically on generators and engine-
        driven tools, because those products represent the largest 
        percentage of incidents and deaths related to CO poisoning from 
        consumer products. The next version of this report is also due 
        to be released this fiscal year.

  <bullet> Rule development: As noted, the largest percentage of 
        consumer product-related CO deaths are associated with engine-
        driven tools such as portable generators. It is for this reason 
        that I have continued to support CPSC staff's work on the 
        mandatory portable generator standard. In the interest of 
        inter-agency collaboration and in order to further this 
        important effort I have personally traveled to the National 
        Institute for Standards and Technology (NIST) and met with my 
        counterpart, Director Willie E. May, to further the work of 
        both agencies in this area that will be vital to our final 
        rule. In addition, CPSC staff continues to work with 
        manufacturers and other stakeholders to improve the existing 
        voluntary standards for portable generators to reduce or 
        eliminate the exposure to CO that consumers face when using 
        these products--particularly after a disaster such as a storm 
        or hurricane that results in power outages.

    In addition, CPSC is continuing to work on voluntary standards in 
        the areas of CO sensors for gas furnaces. Currently, there is a 
        proposal in development with one of the voluntary standards 
        organizations to augment the existing requirements of the 
        standard to require the furnace to shut itself down should 
        excess CO be emitted. Our mid-year budget adjustment included 
        additional resources to research and evaluate this technology.

    There is no question that more can be done to increase public 
awareness of the dangers of CO poisoning and proper use of CO 
detectors. As revealed in the U.S. Census Department American Housing 
Survey in 2011, only 42 percent of all U.S. households reported having 
working CO detectors and for those living below the poverty line, the 
percentages dropped to 31 percent. We look forward to working with you 
and your office to help support these important efforts to increase the 
use of this safety device to help protect American families from the 
dangers of this invisible killer.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Joe Manchin to 
                          Hon. Elliot F. Kaye
    Question 1. I appreciate the hard work of the men and women at the 
Consumer Product Safety Commission, and I thank you for your commitment 
to protecting children, pregnant women and all Americans from unsafe 
products on our shelves. I have recently begun hearing a lot about 
phthalates, chemicals used to soften plastic and make it more durable. 
Advocates say that it can be a very useful additive for children's toys 
and other plastic products that are heavily used and could, without 
them, become brittle and more susceptible to cracking and breaking. 
While I agree that we do not want our children's toys disintegrating 
into plastic shrapnel that could become a choking hazard, I remain 
somewhat confused about the CPSC's perspective on phthalates. From my 
understanding, the Chronic Hazard Advisory Panel on phthalates and 
phthalate alternatives recommended a continuation of the current 
temporary ban because of the ``cumulative risk'' posed by phthalates.

    Question 1a. Cumulative risk is a pretty general term. Please 
explain the specific dangers that phthalates pose in this cumulative 
risk assessment.
    Answer. Section 108 of the Consumer Product Safety Improvement Act 
stated that the Chronic Hazard Advisory Panel (CHAP) ``shall . . . 
consider the cumulative effects of total exposure from phthalates, both 
from children's products and from other sources, such as personal care 
products.'' The CHAP based its cumulative risk assessment on male 
developmental reproductive effects, also known as the ``phthalate 
syndrome.'' Research has shown that prenatal exposure to certain 
phthalates (including DEHP and DINP) leads to undescended testes, 
malformations of the penis (hypospadias), anatomical variations 
(reduced anogenital distance), and reduced fertility in adulthood. 
Although the male fetus is the most sensitive, infants, juveniles, and 
adult males, and females are also affected. Laboratory studies 
demonstrate that mixtures of certain phthalates are additive; that is, 
they have cumulative effects. In addition, a growing number of studies 
have found associations between phthalate exposure and adverse health 
effects in humans, including infants and adults. Studies have indicated 
that the health effects in humans are generally consistent with the 
effects seen in animals.

    Question 1b. Are cumulative risk assessments a proven and effective 
means of regulating chemicals?
    Answer. Cumulative risk assessment (CRA) and mixtures risk 
assessment methods have been in development for many years. The U.S. 
Environmental Protection Agency (EPA) began developing a cumulative 
risk framework in the 1990s. The EPA's Office of Pesticide Programs 
uses cumulative risk methodology to assess the risks from pesticides, 
consistent with the Food Quality Protection Act (FQPA). The Agency for 
Toxic Substances and Disease Registry (ATSDR) uses similar methodology 
for chemical mixtures in the environment. EPA, ATSDR, and the 
International Program on Chemical Safety have issued cumulative risk 
assessment guidelines. The National Research Council, in 2008, 
recommended male reproductive development as the appropriate health 
endpoint for cumulative risk assessment of phthalates. After reviewing 
all the available data, the CHAP reached a similar conclusion. The 
methods that the CHAP used to assess cumulative risk are consistent 
with the recommendations of the National Research Council.\1\
---------------------------------------------------------------------------
    \1\ NRC, 2008. Phthalates and Cumulative Risk Assessment. The Task 
Ahead., Committee on the Health Risks of Phthalates, National Research 
Council, National Academy Press, Washington, DC.
---------------------------------------------------------------------------
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                          Hon. Robert S. Adler
    Question. Carbon monoxide is a silent, odorless killer that can 
strike at a moment's notice if the proper safeguards aren't put in 
place. According to the Center for Disease Control, there are over 400 
deaths and approximately 15,000 emergency room visits as a result of CO 
poisoning each year. Just this winter in Minnesota a father and his 11 
year-old daughter died of carbon monoxide poisoning because they didn't 
have carbon monoxide detectors installed in their home. That is why I 
introduced the Nicholas and Zachary Burt Memorial Carbon Monoxide 
Poisoning Prevention Act, which is named for two young brothers of 
Kimball, Minnesota who died from CO poisoning. This legislation would 
allow the CPSC to provide support for public safety education and to 
encourage installment of safe and reliable carbon monoxide detectors. 
Will you support my bill and commit to working with me to help reduce 
the number of deaths from carbon monoxide poisoning each year?
    Answer. I share your concern about carbon monoxide (``CO''), and am 
heartbroken by the lives this silent killer takes: over 400 consumers 
each year. These deaths are made all the more tragic knowing that they 
are preventable with the use of a properly functioning CO alarm. I 
fully support your bill, the Nicholas and Zachary Burt Memorial Carbon 
Monoxide Poisoning Prevention Act, and believe it could do much to 
raise awareness of this critical public health issue. I assure you that 
CPSC continues to dedicate significant resources to reducing the risk 
of CO poisoning from consumer products, and our staff stands ready to 
implement the grant program described in the bill if enacted and 
funded.
    I thank you for your efforts, and hope that you will call on me if 
I can assist in any way with protecting consumers from this silent 
killer. I encourage everyone to install working CO alarms in homes for 
an early warning. I remind consumers to use precaution when operating 
portable generators, and to get a professional inspection of all fuel-
burning appliances every year, including furnaces, chimneys and water 
heaters to guard against CO leaks. We can work together to stop this 
invisible killer from threatening the safety of our friends, family, 
and community.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Joe Manchin to 
                          Hon. Robert S. Adler
    Question 1. I appreciate the hard work of the men and women at the 
Consumer Product Safety Commission, and I thank you for your commitment 
to protecting children, pregnant women and all Americans from unsafe 
products on our shelves. I have recently begun hearing a lot about 
phthalates, chemicals used to soften plastic and make it more durable. 
Advocates say that it can be a very useful additive for children's toys 
and other plastic products that are heavily used and could, without 
them, become brittle and more susceptible to cracking and breaking. 
While I agree that we do not want our children's toys disintegrating 
into plastic shrapnel that could become a choking hazard, I remain 
somewhat confused about the CPSC's perspective on phthalates. From my 
understanding, the Chronic Hazard Advisory Panel on phthalates and 
phthalate alternatives recommended a continuation of the current 
temporary ban because of the ``cumulative risk'' posed by phthalates.

    Question 1a. Cumulative risk is a pretty general term. Please 
explain the specific dangers that phthalates pose in this cumulative 
risk assessment.
    Answer. Senator, I appreciate your interest in phthalates. As the 
process required by Section 108 of the Consumer Product Safety 
Improvement Act (CPSIA) continues, I consult with CPSC's highly-trained 
technical staff of scientists and engineers, who are best qualified to 
quantify the risks phthalates pose to consumers. Section 108 of the 
CPSIA stated that the Chronic Hazard Advisory Panel (CHAP) ``shall . . 
. consider the cumulative effects of total exposure from phthalates, 
both from children's products and from other sources, such as personal 
care products.'' The CHAP based its cumulative risk assessment on male 
developmental reproductive effects, also known as the ``phthalate 
syndrome.'' Prenatal exposure to certain phthalates (including DEHP and 
DINP) leads to undescended testes, malformations of the penis 
(hypospadias), anatomical variations (reduced anogenital distance), and 
reduced fertility in adulthood. Although the male fetus is the most 
sensitive, infants, juveniles, and adult males, and females are also 
affected. Laboratory studies demonstrate that mixtures of certain 
phthalates are additive; that is, they have cumulative effects. In 
addition, a growing number of studies have found associations between 
phthalate exposure and adverse health effects in humans, including 
infants and adults. The health effects in humans are generally 
consistent with the effects seen in animals.

    Question 1b. Are cumulative risk assessments a proven and effective 
means of regulating chemicals?
    Answer. According to CPSC's technical staff, cumulative risk 
assessment (CRA) and mixtures risk assessment methods have been in 
development for many years. The U.S. Environmental Protection Agency 
(EPA) began developing a cumulative risk framework in the 1990s. The 
EPA's Office of Pesticide Programs uses cumulative risk methodology to 
assess the risks from pesticides, consistent with the Food Quality 
Protection Act (FQPA). The Agency for Toxic Substances and Disease 
Registry (ATSDR) uses similar methodology for chemical mixtures in the 
environment. EPA, ATSDR, and the International Program on Chemical 
Safety have issued cumulative risk assessment guidelines. The National 
Research Council, in 2008, recommended male reproductive development as 
the appropriate health endpoint for cumulative risk assessment of 
phthalates. After reviewing all the available data, the CHAP reached a 
similar conclusion. The methods that the CHAP used to assess cumulative 
risk are consistent with the recommendations of the National Research 
Council.\1\
---------------------------------------------------------------------------
    \1\ NRC, 2008. Phthalates and Cumulative Risk Assessment. The Task 
Ahead., Committee on the Health Risks of Phthalates, National Research 
Council, National Academy Press, Washington, DC.
---------------------------------------------------------------------------
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Jerry Moran to 
                         Hon. Ann Marie Buerkle
    Question 1. Commissioner Buerkle, when the Commission voted on the 
NPR on Section 108 of the CPSIA, there was a lot of discussion 
concerning the CPSIA's requirement for the Commission to make a 
determination on whether to keep the interim bans in place ``based on'' 
the CHAP report.
    If it shown that the CHAP analysis was scientifically flawed or is 
now outdated, do you believe the Commission has the discretion to make 
a determination that would contradict the recommendations of the CHAP 
with respect to the interim bans in the final rule?
    Answer. Yes, I believe the Commission has not only the discretion 
but the duty to make our determination based on the best available 
scientific evidence. Under Section 108 of the CPSIA, the Chronic Hazard 
Advisory Panel (CHAP) was charged to make recommendations on which 
phthalates should be banned and which interim bans should be continued. 
The CHAP operated in an advisory capacity to the Commission. The CPSIA 
also directed the Commission to provide an opportunity for public 
comment. That would be an empty gesture if the Commission were 
obligated to follow the CHAP's recommendations in spite of public 
comment showing that those recommendations were not based on the best 
available science.

    Question 2. Commissioner Buerkle, the CHAP report on phthalates was 
supposed to make recommendations on whether any phthalates or 
alternatives were supposed to banned as hazardous substances--a term 
defined by CPSC statute and regulation. Instead of making 
recommendations on the basis of CPSC precedent on the safety of 
chemicals, the CHAP recommended to ban chemicals based on the fact that 
they could contribute, even if only in a marginal way, to a cumulative 
risk.
    In the same report, the CHAP indicated that they did not have any 
data to evaluate the chemical safety of the alternatives that will 
replace banned phthalates. Do you feel comfortable recommending a ban 
of something that ``only very marginally contributes'' to a cumulative 
risk, in favor of an untested alternative?
    Answer. No, I am very uncomfortable with a ban under such 
circumstances. If one chemical contributes only ``very marginally'' to 
a cumulative risk--and more recent data suggest even that may be 
overstated, then it is quite possible that an untested alternative 
could pose a substantially greater risk to consumers. That cannot be 
what Congress had in mind when it enacted CPSIA.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Debra Fischer to 
                         Hon. Ann Marie Buerkle
    Question. Commissioner Buerkle, you highlighted some of the issues 
surrounding the Notice of Proposed Rulemaking regarding phthalates. 
Specifically, you mentioned the use of data from 2005 and 2006 when 
data from 2009 and 2010 was available, as well as a lack of 
transparency in the peer review process. Additionally, there are 
concerns CPSC relied on a risk assessment that is unproven and the 
rulemaking did not address other issues. Have these concerns been 
addressed? If not, why?
    Answer. I have repeatedly expressed my strong concern that the 
CHAP's cumulative risk assessment relied on outdated exposure data. The 
CHAP used data from the 2005-2006 NHANES study to evaluate the exposure 
of pregnant women and even older data from the 1999-2005 SFF study to 
evaluate the exposure of children under 3. This was inappropriate 
because CPSIA was enacted in 2008, restricting the use of several 
phthalates included in the cumulative risk assessment.
    In response to my concern, the CPSC Chairman asked the staff to 
analyze the more recent exposure data. The staff's analysis appears to 
me to vitiate the basis for the CHAP's original recommendation; 
however, the staff offered no comment on how the latest analysis would 
affect the proposed bans. While the Commission re-opened the comment 
period to allow comment on the staff's analysis, I remain concerned 
that the public should have had an opportunity to comment on the 
science before the Commission formulated its proposal last fall.
    As for the other concerns I have raised, I do not yet know whether 
they will be addressed. The staff is reviewing public comments and 
preparing its recommendations for a final rule, but I am not privy at 
this point to their thinking. I remain extremely concerned that despite 
the analysis of the more recent data, that the agency will continue to 
accept the recommendation of the CHAP.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                         Hon. Ann Marie Buerkle
    Question. Carbon monoxide is a silent, odorless killer that can 
strike at a moment's notice if the proper safeguards aren't put in 
place. According to the Center for Disease Control, there are over 400 
deaths and approximately 15,000 emergency room visits as a result of CO 
poisoning each year. Just this winter in Minnesota a father and his 11 
year-old daughter died of carbon monoxide poisoning because they didn't 
have carbon monoxide detectors installed in their home. That is why I 
introduced the Nicholas and Zachary Burt Memorial Carbon Monoxide 
Poisoning Prevention Act, which is named for two young brothers of 
Kimball, Minnesota who died from CO poisoning. This legislation would 
allow the CPSC to provide support for public safety education and to 
encourage installment of safe and reliable carbon monoxide detectors. 
Will you support my bill and commit to working with me to help reduce 
the number of deaths from carbon monoxide poisoning each year?
    Answer. I strongly support information and educational campaigns 
that help consumers understand health and safety issues that fall 
within the jurisdiction of Consumer Product Safety Commission.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Joe Manchin to 
                         Hon. Ann Marie Buerkle
    Question 1. I appreciate the hard work of the men and women at the 
Consumer Product Safety Commission, and I thank you for your commitment 
to protecting children, pregnant women and all Americans from unsafe 
products on our shelves. I have recently begun hearing a lot about 
phthalates, chemicals used to soften plastic and make it more durable. 
Advocates say that it can be a very useful additive for children's toys 
and other plastic products that are heavily used and could, without 
them, become brittle and more susceptible to cracking and breaking. 
While I agree that we do not want our children's toys disintegrating 
into plastic shrapnel that could become a choking hazard, I remain 
somewhat confused about the CPSC's perspective on phthalates. From my 
understanding, the Chronic Hazard Advisory Panel on phthalates and 
phthalate alternatives recommended a continuation of the current 
temporary ban because of the ``cumulative risk'' posed by phthalates.

    Question 1a. Cumulative risk is a pretty general term. Please 
explain the specific dangers that phthalates pose in this cumulative 
risk assessment.
    Answer. The Consumer Product Safety Improvement Act of 2008 (CPSIA) 
directed that U.S. Consumer Product Safety Commission to convene a 
Chronic Hazard Advisory Panel (CHAP) to study the effects of all 
phthalates and phthalate alternative used in children's toys and child 
care articles. The CHAP's recommendations depend on a cumulative risk 
assessment incorporating five phthalates that, to varying degrees, are 
associated with anti-androgenic effects. By far the strongest 
contributor to the cumulative risk assessment was a phthalate (DEHP) 
that has already been permanently banned by Congress in the CPSIA.
    I have repeatedly expressed my strong concern that the CHAP's 
cumulative risk assessment relied on outdated exposure data. The CHAP 
used data from the 2005-2006 NHANES study to evaluate the exposure of 
pregnant women and even older data from the 1999-2005 SFF study to 
evaluate the exposure of children under 3. This was inappropriate 
because CPSIA was enacted in 2008, restricting the use of several 
phthalates used in the cumulative risk assessment.

    Question 1b. Are cumulative risk assessments a proven and effective 
means of regulating chemicals?
    Answer. No. While Federal agencies have begun to grapple with the 
problems of cumulative risk assessment, it is my understanding that no 
U.S. agency has ever before banned a chemical based solely on a 
cumulative risk assessment. The CPSIA did not require us to do so here.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                        Hon. Joseph P. Mohorovic
    Question. Carbon monoxide is a silent, odorless killer that can 
strike at a moment's notice if the proper safeguards aren't put in 
place. According to the Center for Disease Control, there are over 400 
deaths and approximately 15,000 emergency room visits as a result of CO 
poisoning each year. Just this winter in Minnesota a father and his 11 
year-old daughter died of carbon monoxide poisoning because they didn't 
have carbon monoxide detectors installed in their home. That is why I 
introduced the Nicholas and Zachary Burt Memorial Carbon Monoxide 
Poisoning Prevention Act, which is named for two young brothers of 
Kimball, Minnesota who died from CO poisoning. This legislation would 
allow the CPSC to provide support for public safety education and to 
encourage installment of safe and reliable carbon monoxide detectors. 
Will you support my bill and commit to working with me to help reduce 
the number of deaths from carbon monoxide poisoning each year?
    Answer. I fully support raising awareness of the dangers of carbon 
monoxide poisoning from portable generators and other sources. Indeed, 
during debate on our Fiscal Year 2015 Midyear Operating Plan 
Adjustments I asked my fellow Commissioners to dedicate $500,000 to 
fund an expansion of a successful public information campaign our 
Office of Communications has run that includes distributing CO warnings 
in disaster-stricken areas. Portable generators are the leading cause 
of CO deaths over the last decade,\1\ and disasters bring increases in 
generator use and, unfortunately, generator-related CO deaths.
---------------------------------------------------------------------------
    \1\ See Matthew Hnatov, U.S. Consumer Product Safety Commission, 
Non-Fire Carbon Monoxide Deaths Associated with the Use of Consumer 
Products, 3 (2014), available at http://www.cpsc.gov/en/Media/
Documents/Research--Statistics/Injury-Statistics/Non-Fire-Carbon-
Monoxide/Non-fire-Carbon-Monoxide-Deaths-Associated-with-the-Use-of-
Consumer-Products-2011
-Annual-Estimates/
?utm_source=rss&utm_medium=rss&utm_campaign=Carbon+Monoxide+
Injury+Statistics.
---------------------------------------------------------------------------
    While I was unsuccessful in that request, I continue to believe 
that CO from generators and other sources should be a priority of the 
Commission. It is a latent hazard that is exactly the kind of risk 
Congress envisioned the CPSC addressing. Even consumers who understand 
CO is a risk of generator use may not appreciate the seriousness of the 
risk. According to our staff's research, portable generator can emit 
1500 times as much CO per hour as an automobile.\2\
---------------------------------------------------------------------------
    \2\ Janet Buyer, U.S. Consumer Product Safety Commission, CPSC 
Activities to Address CO Poisoning Hazard of Portable Generators, 17 
(2014), available at http://www.cpsc.gov/Global/Research-and-
Statistics/Technical-Reports/Home/Portable-Generators/
PresentationonPortableGene
ratorProjectforNIOSHConstructionSectorCouncilMeeting.pdf.
---------------------------------------------------------------------------
    While I support the spirit of the grant program envisioned by your 
legislation, however, I am concerned that it not distract from the 
Commission's efforts to more directly address the hazard through 
standards development for portable generators. In conjunction with the 
relevant voluntary standards bodies, we are working to develop 
requirements that govern how much CO generators can produce and what 
safety features they should incorporate to guard against toxic 
environments. Despite my usual preference to educate consumers and 
respect their educated choices, with this hazard--where we see deaths 
of people who were clearly aware of the risk and tragically thought 
that keeping the generator in an open garage would be sufficient--I 
believe there may be a greater need for demanding safer performance 
from this product.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                        Hon. Joseph P. Mohorovic
    Question. Commissioner Mohorovic, could you expand on your idea of 
improving import surveillance by implementing a ``trusted trader'' 
program for importers? For example, could you give more details about 
what an importer would need to do to be certified as a ``trusted 
trader'' and how you envision such an effort would be funded?
    Answer. While the specifics would be developed by the Commission 
and our staff through engagement with all stakeholders, the bedrock 
principle of Trusted Trader status would be empirical evidence of 
competence for and commitment to consumer safety throughout a company's 
processes, including its supply chain.
    In June of 2014, in conjunction with U.S. Customs and Border 
Protection, we invited companies to participate in a test of the 
trusted trader concept. The requirements for participation in that 
program comprised a thorough desktop audit of an applicant's policies 
and compliance history. The Trusted Trader program I envision would go 
well beyond such an audit to include site visits and other 
investigative tools designed to assure not only that a company's 
products had been safe and compliant to that point, but that they would 
continue to be safe and compliant because the sophistication of its 
processes made any other result as unlikely as possible.
    As for funding, I believe that, while a modest dedicated 
appropriation may be necessary to create the program, its ongoing 
operation can be accomplished through existing appropriations. Properly 
structured, a Trusted Trader will in essence save money for importers 
at the ports by obviating needless inspections of compliant companies' 
products.
    Incorporating the trusted trader program assists with shaping the 
overall risk profile of the agencies import program. Having more 
participants in this program reduces the overall volume of cargo that 
both CBP and CPSC would be required to inspect. Operational costs to 
effectively monitor such a program would continue year after year as 
infrequent validations of trusted trader participants are required.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Joe Manchin to 
                        Hon. Joseph P. Mohorovic
    Question 1. I appreciate the hard work of the men and women at the 
Consumer Product Safety Commission, and I thank you for your commitment 
to protecting children, pregnant women and all Americans from unsafe 
products on our shelves. I have recently begun hearing a lot about 
phthalates, chemicals used to soften plastic and make it more durable. 
Advocates say that it can be a very useful additive for children's toys 
and other plastic products that are heavily used and could, without 
them, become brittle and more susceptible to cracking and breaking. 
While I agree that we do not want our children's toys disintegrating 
into plastic shrapnel that could become a choking hazard, I remain 
somewhat confused about the CPSC's perspective on phthalates. From my 
understanding, the Chronic Hazard Advisory Panel on phthalates and 
phthalate alternatives recommended a continuation of the current 
temporary ban because of the ``cumulative risk'' posed by phthalates.

    Question 1a. Cumulative risk is a pretty general term. Please 
explain the specific dangers that phthalates pose in this cumulative 
risk assessment.
    Answer. As you know, Section 108 of the Consumer Product Safety 
Improvement Act required that the CHAP consider the cumulative effects 
of phthalates. The premise behind that requirement seems to be that, 
where various phthalates have similar effects, exposure to otherwise-
acceptable levels of all of them could yield an unacceptable total 
exposure.

    Question 1b. Are cumulative risk assessments a proven and effective 
means of regulating chemicals?
    Answer. Cumulative risk assessments of the kind the CHAP performed 
are novel and, thus, not a proven and effective means of regulating 
chemicals. Further, while the final CHAP report was circulated for a 
closed peer review, the CHAP did not subject the methodology it used to 
evaluate cumulative risk to separate, open peer review. This is 
inconsistent with Federal scientific standards. ``More rigorous peer 
review is necessary for information that is based on novel methods or 
presents complex challenges for interpretation.'' \3\
---------------------------------------------------------------------------
    \3\ Office of Management and Budget, Final Information Quality 
Bulleting for Peer Review, 70 Fed. Reg. 2664 (Jan. 14, 2005).
---------------------------------------------------------------------------
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                       Hon. Marietta S. Robinson
    Question. Carbon monoxide is a silent, odorless killer that can 
strike at a moment's notice if the proper safeguards aren't put in 
place. According to the Center for Disease Control, there are over 400 
deaths and approximately 15,000 emergency room visits as a result of CO 
poisoning each year. Just this winter in Minnesota a father and his 11 
year-old daughter died of carbon monoxide poisoning because they didn't 
have carbon monoxide detectors installed in their home. That is why I 
introduced the Nicholas and Zachary Burt Memorial Carbon Monoxide 
Poisoning Prevention Act, which is named for two young brothers of 
Kimball, Minnesota who died from CO poisoning. This legislation would 
allow the CPSC to provide support for public safety education and to 
encourage installment of safe and reliable carbon monoxide detectors. 
Will you support my bill and commit to working with me to help reduce 
the number of deaths from carbon monoxide poisoning each year?
    Answer. I am committed to reducing the number of deaths from carbon 
monoxide (CO) poisoning which is why I support S. 1250: The Nicholas 
and Zachary Burt Memorial Carbon Monoxide Poisoning Prevention Act, and 
look forward to it being enacted and funded. CPSC has a longstanding 
outreach campaign on the dangers of CO poisoning which includes press 
releases, semi-annual reminders to consumers to check and change 
batteries in CO alarms, several publications on our website, as well as 
a national poster contest for middle school students aimed at educating 
students and families about poisonous carbon monoxide.
    According to our latest available data on CO incidents associated 
with all engine-driven tools (EDTs), there were 931 fatalities from 725 
incidents from 1999 through 2012.\1\ A CO alarm was reported to have 
been present in only 21 of 279 incidents where alarm presence was 
known, which accounted for 30 of 385 fatalities caused by CO from 
EDTs.\2\ Additionally, the data show that in eleven of the incidents, 
the CO alarm was inoperable due to batteries being installed improperly 
or not having batteries at all, drained batteries, or lack of an 
electric current.\3\
---------------------------------------------------------------------------
    \1\ Incidents, Deaths, and In-Depth Investigations Associated with 
Non-Fire Carbon Monoxide from Engine-Driven Generators and Other 
Engine-Driven Tools, 1999-2012, August 2013, at 4, available at: http:/
/www.cpsc.gov/Global/Research-and-Statistics/Injury-Statistics/Carbon-
Mo
noxide-Posioning/GeneratorsAndOEDTFatalities2013FINAL.pdf pg. 4
    \2\ Id. 5
    \3\ Id. 5
---------------------------------------------------------------------------
    I am encouraged by the growing number of state and local 
requirements regarding the proper installation of CO detectors and it 
is my hope that additional states and jurisdictions will adopt similar 
requirements. I will continue to support public safety education 
efforts on the importance of having properly installed carbon-monoxide 
detectors, especially during winter months and hurricane season when 
CO-related fatalities are more prevalent.\4\
---------------------------------------------------------------------------
    \4\ Non-Fire Carbon Monoxide Deaths Associated with the Use of 
Consumer Products, September 2014, at 5 and 10, available at: http://
www.cpsc.gov/Global/Research-and-Statistics/In
jury-Statistics/Carbon-Monoxide-Posioning/
NonFireCarbonMonoxideDeathsAssociatedwiththe
UseofConsumerProducts2011AnnualEstimatesSept2014.pdf
---------------------------------------------------------------------------
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Joe Manchin to 
                       Hon. Marietta S. Robinson
    Question 1. I appreciate the hard work of the men and women at the 
Consumer Product Safety Commission, and I thank you for your commitment 
to protecting children, pregnant women and all Americans from unsafe 
products on our shelves. I have recently begun hearing a lot about 
phthalates, chemicals used to soften plastic and make it more durable. 
Advocates say that it can be a very useful additive for children's toys 
and other plastic products that are heavily used and could, without 
them, become brittle and more susceptible to cracking and breaking. 
While I agree that we do not want our children's toys disintegrating 
into plastic shrapnel that could become a choking hazard, I remain 
somewhat confused about the CPSC's perspective on phthalates. From my 
understanding, the Chronic Hazard Advisory Panel on phthalates and 
phthalate alternatives recommended a continuation of the current 
temporary ban because of the ``cumulative risk'' posed by phthalates.

    Question 1a. Cumulative risk is a pretty general term. Please 
explain the specific dangers that phthalates pose in this cumulative 
risk assessment.
    Answer. Section 108(b)(2) of the Consumer Product Safety 
Improvement Act of 2008 (CPSIA) directed the Chronic Hazard Advisory 
Panel (CHAP) to:

        ``complete an examination of the full range of phthalates that 
        are used in products for children and shall . . .

        (iv) consider the cumulative effect of total exposure to 
        phthalates, both from children's products and from other 
        sources, such as personal care products''

    As the CHAP report has shown, many of the phthalates to which we 
are exposed can cause severe health problems such as liver toxicity, 
cancer, and neurological and behavioral problems.\5\ Even more 
troubling, cumulative exposure to some phthalates combines to increase 
the risk of adverse effects.\6\ Therefore, if we are to effectively 
address the hazard these phthalates pose, we must take into account our 
total exposure to them as opposed to looking only at each phthalate in 
isolation. As the CHAP has found, the most widely-studied of these 
cumulative effects is antiandrogenicity, whereby these phthalates 
disrupt the normal development of male fetuses.\7\ These effects can 
cause debilitating lifelong physical deformities such as cryptorchidism 
(undescended testes), hypospadias (a deformity of the penis), and 
reduced anogenital distance, as well as reduced fertility and increased 
risk of testicular cancer.\8\ For its cumulative risk assessment, the 
CHAP studied the antiandrogenic effects of phthalates and found, using 
bio-monitoring studies, that about ten percent of pregnant women and 
five percent of children have a Hazard Index (HI) of over one for 
active phthalates. The HI is an application of the dose-addition 
principle and is widely used in cumulative risk assessments of chemical 
mixtures. An HI greater than one indicates that the exposure exceeds 
the acceptable exposure for the mixture.\9\ The CHAP's cumulative risk 
assessment resulted in the recommendations for permanent bans on 
phthalates with antiandrogenic effects, which were adopted by the CPSC 
in its Notice of Proposed Rulemaking.
---------------------------------------------------------------------------
    \5\ Chronic Advisory Panel on Phthalates and Phthalate 
Alternatives, July 2014, at 13, 25, 31 available at https://
www.cpsc.gov/PageFiles/169876/CHAP-REPORT-FINAL.pdf
    \6\ See Id. 26
    \7\ Id.
    \8\ Id. 28
    \9\ Id. 26

    Question 1b. Are cumulative risk assessments a proven and effective 
means of regulating chemicals?
    Answer. As the CHAP found, there is significant scientific 
literature supporting the conclusion that antiandrogenic phthalates 
have cumulative effects in terms of the risk they pose to human 
health.\10\ The CHAP also considered how to assess these cumulative 
effects and found that the phthalates act in a ``dose additive'' 
effect.\11\ The cumulative risk assessment was based on sound science 
and followed recommendations of the National Research Council. The 
cumulative risk methodology has also been used by other agencies, such 
as the U.S. Environmental Protection Agency and the Agency for Toxic 
Substances and Disease Registry. Given the serious health risks 
associate with phthalates and exposure patterns, cumulative risk 
assessment was necessary to properly address the real risks posed by 
phthalates in children's toys and child-care articles.
---------------------------------------------------------------------------
    \10\ Id. 26
    \11\ Id. 4
---------------------------------------------------------------------------
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                       Hon. Marietta S. Robinson
    Question. Commissioner Robinson, I want to thank you again for 
coming to Albuquerque two years ago to speak about toy safety. I would 
like to follow up on this issue as it relates to import surveillance. 
Congress and this Committee turned their attention to the issue of 
children's toy safety in 2007 following an infamous ``Summer of 
Recalls'' and problems with imported toys. Toys coated in lead paint. 
Children being rushed to the emergency room after swallowing powerful 
magnets that attached inside the body. Congress found that CPSC did not 
have the resources to meet its mandate. Some imported toys did not meet 
voluntary industry standards for safety. That's why I supported 
landmark legislation, the 2008 Consumer Product Safety Improvement Act. 
This new law set the strictest toy safety standards in the world. It 
increased the CPSC's ability to keep unsafe imported toys from reaching 
store shelves. Families can now report and search for product safety 
hazards through an online CPSC database. As a result, parents today can 
have more confidence this holiday season that their children's toys are 
safe. Can you describe for me how CPSC can continue to build on its 
positive record here in terms of improving consumer safety, especially 
in terms of imported consumer products?
    Answer. It was a pleasure to participate with Senator Udall at the 
toy safety event at the Children's Hospital in New Mexico. I believe we 
were able to deliver a powerful toy safety message at the peak of the 
holiday shopping season.
    Section 222 of the Consumer Product Safety Improvement Act of 2008 
(CPSIA) requires CPSC to create an import surveillance Risk Assessment 
Methodology (RAM) to identify products imported into the United States 
that are most likely to violate consumer product safety statutes and 
regulations. CPSC has been successfully operating a pilot RAM in a 
limited number of areas and is now ready to fully implement it 
nationwide.
    CPSC's proposed RAM surveillance system will rely upon existing 
data collected through Customs and Border Protection's (CBP's) 
International Trade Data System (ITDS). When fully implemented, the RAM 
surveillance system will analyze all incoming import product lines 
under CPSC's jurisdiction and determine high-risk entries before they 
arrive at U.S. ports. These entries will be inspected by CPSC and CBP 
at the port with the goal of reducing the number of violative or 
potentially hazardous consumer products from entering the U.S.
    CPSC has requested authorization from Congress of a user fee to 
fund the building of the information technology system to fully 
implement the RAM. Additionally, CPSC will need additional inspectors 
co-located with CBP at the ports of entry and lab scientists to review 
entry samples. CPSC estimates the total cost of the RAM system to be 
approximately $60M. CPSC proposes to collect $36M in user fees, which 
is a small amount compared to the annual average of $723B in consumer 
products under CPSC's jurisdiction that arrive in U.S. ports. CPSC 
estimates the average fee will be about $1 for every $14,000 in import 
value, resulting in a user fee payment of about $3-$5 for a typical 
shipment.
    Additionally, we are considering the electronic filing of 
certificates of compliance as part of the single-window initiative, in 
the spirit of Executive Order 13659, Streamlining the Export/Import 
Process for America's Businesses.\12\ This would create a simpler, more 
efficient trade process for importers by utilizing modernized 
technology. Also, this would enhance the CPSC's ability to target high-
risk entries before they enter U.S. commerce. We have actively engaged 
stakeholders in discussions on the technical aspects of electronic 
filing of certificates and are encouraging stakeholders to participate 
in the pilot program. Many other government agencies already have the 
IT systems and funding necessary to update their current import 
systems, processes and procedures to comply with the single-window 
initiative.
---------------------------------------------------------------------------
    \12\ https://www.whitehouse.gov/the-press-office/2014/02/19/
executive-order-streamlining
-exportimport-process-america-s-businesses
---------------------------------------------------------------------------

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
